<html>
<title> - IMMIGRATION: ECONOMIC IMPACT ON AMERICAN WORKERS AND THEIR WAGES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                    IMMIGRATION: ECONOMIC IMPACT ON
                    AMERICAN WORKERS AND THEIR WAGES

=======================================================================

                             FIELD HEARING

                               before the

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                August 14, 2006, in Gainesville, Georgia

                               __________

                           Serial No. 109-52

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
29-475                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

            HOWARD P. ``BUCK'' McKEON, California, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California,
    Chairman                           Ranking Minority Member
Michael N. Castle, Delaware          Dale E. Kildee, Michigan
Sam Johnson, Texas                   Major R. Owens, New York
Mark E. Souder, Indiana              Donald M. Payne, New Jersey
Charlie Norwood, Georgia             Robert E. Andrews, New Jersey
Vernon J. Ehlers, Michigan           Robert C. Scott, Virginia
Judy Biggert, Illinois               Lynn C. Woolsey, California
Todd Russell Platts, Pennsylvania    Ruben Hinojosa, Texas
Patrick J. Tiberi, Ohio              Carolyn McCarthy, New York
Ric Keller, Florida                  John F. Tierney, Massachusetts
Tom Osborne, Nebraska                Ron Kind, Wisconsin
Joe Wilson, South Carolina           Dennis J. Kucinich, Ohio
Jon C. Porter, Nevada                David Wu, Oregon
John Kline, Minnesota                Rush D. Holt, New Jersey
Marilyn N. Musgrave, Colorado        Susan A. Davis, California
Bob Inglis, South Carolina           Betty McCollum, Minnesota
Cathy McMorris, Washington           Danny K. Davis, Illinois
Kenny Marchant, Texas                Raul M. Grijalva, Arizona
Tom Price, Georgia                   Chris Van Hollen, Maryland
Luis G. Fortuno, Puerto Rico         Tim Ryan, Ohio
Bobby Jindal, Louisiana              Timothy H. Bishop, New York
Charles W. Boustany, Jr., Louisiana  [Vacancy]
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York
[Vacancy]

                       Vic Klatt, Staff Director
        Mark Zuckerman, Minority Staff Director, General Counsel
                                 ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                   CHARLIE NORWOOD, Georgia, Chairman

Judy Biggert, Illinois, Vice         Major R. Owens, New York
    Chairman                           Ranking Minority Member
Ric Keller, Florida                  Dennis J. Kucinich, Ohio
John Kline, Minnesota                Lynn C. Woolsey, California
Kenny Marchant, Texas                Timothy H. Bishop, New York
Tom Price, Georgia                   [Vacancy]
Thelma Drake, Virginia               George Miller, California, ex 
Howard P. ``Buck'' McKeon,               officio
    California,
  ex officio


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on August 14, 2006..................................     1

Statement of Members:
    McCollum, Hon. Betty, a Representative in Congress from the 
      State of Minnesota.........................................     4
    Norwood, Hon. Charlie, Chairman, Subcommittee on Workforce 
      Protections, Committee on Education and the Workforce......     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Black, Gary W., president, Georgia Agribusiness Council, Inc.    14
        Prepared statement of....................................    16
    Kent, Phil, national spokesman, Americans for Immigration 
      Control....................................................    34
        Prepared statement of....................................    35
    King, D.A., president, the Dustin Inman Society..............    22
        Prepared statement of....................................    23
        Written account of Charles Shafer, carpenter, 
          Lawrenceville, GA......................................    25
        Written account of Jeff Hermann, landscaper, Oxford, GA..    27
    Pearson, Hon. Chip, Georgia State senator....................    10
        Prepared statement of....................................    12
    Wenger, Dr. Jeffrey B., assistant professor of public policy, 
      the University of Georgia School of Public and 
      International Affairs......................................    17
        Prepared statement of....................................    19
    Yellig, Terry R., attorney, Sherman, Dunn, Cohen, Leifer & 
      Yellig, P.C., on behalf of the building and construction 
      trades department, AFL-CIO.................................    28
        Prepared statement of....................................    30

Additional Materials Supplied:
    Owens, Hon. Major R., ranking minority member, Subcommittee 
      on Workforce Protections, Committee on Education and the 
      Workforce, additional submissions:
        Prepared statement of Ross Eisenbrey and Monique 
          Morrissey, Economic Policy Institute...................    56
        Article from the Lincoln Journal Star, ``Hagel Laments 
          Immigration Inaction''.................................    59
        Article from the Omaha World-Herald (Nebraska), ``Hagel: 
          Immigration Compromise Probably Stalled for the Year; 
          the Senator Calls House Leaders' Public Hearings on the 
          Issue `Complete Folly' ''..............................    60
        Article from AFX News Limited, ``Study: Immigrants Not 
          Hurting U.S. Jobs''....................................    61
        ``Guest Worker Bill Introduced by Georgia Senator Saxby 
          Chambliss in the 109th Congress''......................    62
    Prepared statement of the Associated Builders and Contractors 
      (ABC)......................................................    62
    Prepared statement of Bruce Goldstein, executive director, 
      Farmworker Justice.........................................    65
    Prepared statement of Archbishop Wilton D. Gregory, 
      Archdiocese of Atlanta.....................................    68


 
    IMMIGRATION: ECONOMIC IMPACT ON AMERICAN WORKERS AND THEIR WAGES

                              ----------                              


                        Monday, August 14, 2006

                     U.S. House of Representatives

                  Subcommittee on Workforce Protections

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 11:05 a.m., in 
the Federal Building, room 201, 121 Spring Street, S.E., 
Gainesville, Georgia, Hon. Charlie Norwood [chairman of the 
subcommittee] presiding.
    Present: Representatives Norwood, Price, Deal and McCollum.
    Staff Present: Loren Sweatt, Professional Staff Member; 
Steve Forde, Communications Director; Guerino J. Calemine III, 
Labor Counsel; Rachel Racusen, Press Assistant; and Marsha 
Renwanz, Legislative Associate/Labor.
    Chairman Norwood. A quorum being present, the Subcommittee 
on Workforce Protections will now come to order.
    We are meeting today to hear testimony on Immigration: 
Economic Impact on American Workers and their Wages. Without 
objection, the record shall remain open for 14 days to allow 
member statements and other extraneous material referenced 
during this hearing to be submitted in the official hearing 
record.
    Without objection, Mr. Deal shall be allowed to participate 
in today's subcommittee hearing.
    So ordered.
    At this point, I would ask all of you please to turn your 
cell phones off.
    [Laughter.]
    Chairman Norwood. It is not news to anyone in this room 
that illegal immigration is the nation's No. 1 domestic policy 
concern. Of particular importance to this subcommittee is the 
impact of illegal aliens on the American workforce and the 
wages of U.S. workers more specifically.
    As part of an ongoing series of hearings conducted by the 
House Education and Workforce Committee, this morning we are 
here to examine the bottom line issue in much greater depth. 
Immigration is one issue I have worked on tirelessly throughout 
my Congressional career, but I got deadly serious after reading 
of one particular case in rural Georgia.
    In late 1990, Miguel Angelo Cordova raped a 3-year old girl 
in Alma, Georgia, while living there--illegally, I might add. 
He was sent to prison to serve a 3-year term. Upon finishing 
his short sentence, Mr. Cordova was supposed to have been 
deported. Instead, Cordova was released back onto the streets 
of Georgia, where he promptly disappeared.
    Now you might ask yourself today, how in the world could 
that happen. I certainly asked that of myself a few years ago, 
and the more I looked into the story, the more I realized that 
our nation's immigration laws are broken beyond belief. The 
fact is this--failed Federal immigration law allowed Mr. 
Cordova to fall through the cracks of society and Congress must 
act to make sure that these cracks are filled.
    One of the key reasons I supported the House-passed 
immigration bill to secure our borders and strengthen the hand 
of law enforcement is because it contains the majority of 
provisions in the CLEAR Act that I introduced in 2003 that 
authorizes and funds local law enforcement to go after people 
like Mr. Cordova.
    But I wonder if the other side of the Capitol shares our 
sentiments. The Senate recently passed legislation that will 
make our problems far worse. The Reid-Kennedy-McCain-Martinez 
Bill, otherwise known as S. 2611, fails to account for the 
likes of Mr. Cordova. Instead, it rewards lawbreakers like him 
with amnesty, a path to citizenship and a place at the front of 
the line for higher wages than hard-working Americans. I called 
today's hearing to shine a spotlight on this matter and expose 
the Senate legislation's sorry details. After all, the people 
of Georgia have a right to know what type of stew the Senate 
Democratic leaders are cooking up with the help of rogue 
Republicans, and I do not think they are going to like the 
ingredients at all.
    If the Senate Democratic leadership has its way, our 
government will likely open up a flood of up to 60 million new 
legal immigrants over the next 20 years. This avalanche of 
humanity across our borders is not only unsustainable, it 
threatens the very way of life that American citizens enjoy 
today. But I do not have to tell the people of Gainesville or 
Hall County, because the influx of illegal immigration has 
already turned the city's hospitals, schools and social service 
networks upside down.
    Yet, the Reid-Kennedy-McCain-Martinez legislation goes even 
further. S. 2611 would create a new guest worker program called 
the H-2C program. This program will require Davis-Bacon 
prevailing wage rates to private sector construction, creating 
a dual paying system. Let us say that again: This program 
requires Davis-Bacon prevailing wage rates to private sector 
construction, for the first time, creating a dual paying 
system.
    As any employer in the Federal contracting business already 
knows, the collection of Davis-Bacon wage data is unreliable. 
According to the Department of Labor's Inspector General, he 
says the credibility of wage determinations remains 
questionable. This is the Department of Labor's Inspector 
General says, ``The credibility of wage determinations remains 
questionable because of concerns over data on which they are 
based. Delays in publishing wage decisions calls their 
relevance into question.''
    Our witnesses today will discuss the impact of the Senate's 
immigration proposal on wages. I think we will demonstrate that 
the House Republicans have a far better plan than the Senate 
Bill.
    First, the Federal Government must secure the border and 
immediately stop the flood of illegal immigration. The current 
6000 National Guard troops cannot do it, it will take 36,000 to 
48,000. And until we sustain that size deployment, we will 
continue to fail on the border.
    Second, the Federal Government must make certain that the 
likes of Miguel Angelo Cordova serves their time and are then 
deported from this nation. The only way to accomplish this is 
to strengthen existing interior enforcement law and actually 
enforce the rules. The CLEAR Act provisions in the House Bill 
will do just that.
    When these critical demands are met and Congress is fully 
satisfied that the borders are secure, then and only then we 
can implement perhaps a guest worker program that actually 
works. Then and only then, after the border is secure. I want 
to underscore this last point and make perfectly clear that 
crafting a guest worker program that works is absolutely 
critical. I understand personally and know the value of foreign 
labor. Certain sectors of the American economy would struggle 
without it under current labor conditions. However, it would be 
more than foolish to support the legislative solutions offered 
up in the Senate Bill 2611. The combination of amnesty, 
dramatic expansion of Davis-Bacon prevailing wage rates and 
burdensome paperwork on small businesses is sending a toxic mix 
that will not work.
    At this point, I would like to welcome Congresswoman 
McCollum, who has come certainly the furtherest of any of us in 
this room to join us in this hearing. Ms. McCollum is a member 
of our Subcommittee and Committee, and we would like to welcome 
you to Georgia and now you are recognized for 5 minutes.
    [The prepared statement of Mr. Norwood follows:]

 Prepared Statement of Hon. Charlie Norwood, Chairman, Subcommittee on 
    Workforce Protections, Committee on Education and the Workforce

    It's not news to anyone in this room that illegal immigration is 
the nation's number one domestic policy concern. Of particular 
importance to this subcommittee is the impact of illegal aliens on the 
American workforce--and the wages of U.S. workers more specifically.
    As part of an ongoing series of hearings conducted by the House 
Education & the Workforce Committee, this morning we're here to examine 
this bottom line issue in much greater depth.
    Immigration is one issue I have worked on tirelessly throughout my 
Congressional career. But I got deadly serious after reading about one 
particular case in rural GA.
    In the late 1990s, Miguel Angelo Gordoba raped a three year old 
girl in Alma, Georgia while living here illegally. He was sent to 
prison to serve a three year term. Upon finishing his very short 
sentence, Mr. Gordoba was supposed to be deported.
    Instead, Gordoba was released back onto the streets of Georgia 
where he promptly disappeared. You might ask yourself, ``How could that 
happen?'' I certainly did, and the more I looked into the story the 
more I realized that our nation's immigration laws are broken beyond 
belief.
    The fact is this: failed federal immigration law allowed Mr. 
Gordoba to fall through the cracks of society, and Congress must act to 
make sure those cracks are filled.
    One of the key reasons I support the House-passed immigration bill 
to secure our borders and strengthen the hand of law enforcement is 
because it contains the majority of provisions in the CLEAR Act that I 
introduced in 2003 that authorizes and funds local law enforcement to 
go after scum like Gordoba.
    But I wonder if the other side of the Capitol shares our 
sentiments. The Senate recently passed legislation that will make the 
problems we face worse.
    The Reid-Kennedy bill, otherwise known as S. 2611, fails to account 
for the likes of Mr. Gordoba. Instead, it rewards lawbreakers like him 
with amnesty, a path to citizenship, and a place at the front of the 
line for higher wages than hard-working Americans earn.
    I called today's hearing to shine a spotlight on this matter and 
expose the Senate legislation's sordid details. After all, the people 
of Georgia have a right to know what type of stew the Senate Democrat 
leaders are cooking up, and I don't think they are going to like the 
ingredients.
    If the Senate Democrat leadership has its way, our government will 
likely open up a flood of up to 60 million new legal immigrants over 
the next 20 years. This avalanche of humanity across our borders is not 
only unsustainable; it threatens the very way of life American citizens 
now enjoy.
    But I don't have to tell the people of Gainesville, because the 
influx of illegal immigration has already turned the city's hospitals, 
schools and social service networks upside down.
    Yet the Reid-Kennedy legislation goes even further. S. 2611 would 
create a new guest worker program called the H-2C program.
    This program would require Davis-Bacon prevailing wage rates to 
private sector construction, creating a dual paying system.
    As any employer in the federal contracting business already knows, 
the collection of Davis-Bacon wage data is unreliable. According to the 
Department of Labor's Inspector General says, ``The credibility of wage 
determinations remains questionable, because of concerns over data on 
which they are based. Delays in publishing wage decisions call their 
relevance into question.''
    Our witnesses today will discuss the impact of the Senate's 
immigration proposals on wages. I think we will demonstrate that the 
House Republicans have a far better plan.
    First, the federal government must secure the border and 
immediately stop the flood of illegal immigration. The current 6,000 
National Guard troops can't do it. It will take 36,000 -48,000, and 
until we sustain that size deployment we will continue to fail.
    Second, the federal government must make certain that the likes of 
Miguel Angelo Gordoba serve their time and are deported.
    The only way to accomplish this is to strengthen existing interior 
enforcement law and actually enforce the rules. The CLEAR ACT 
provisions in the House bill do just that.
    When these critical demands are met, and Congress is fully 
satisfied that the borders are secure, then we can implement a guest 
worker program that works. Then and only then.
    I want to underscore this last point and make perfectly clear that 
crafting a guest-worker program that works is critical. I know the 
value of foreign labor. Certain sectors of the American economy would 
struggle without it under current labor conditions.
    However, it would be more than foolish to support the legislative 
solutions offered up in S. 2611. A combination of amnesty, dramatic 
expansion of Davis-Bacon prevailing wage rates and burdensome paperwork 
burdens on small business is simply a toxic mix that will not work.
                                 ______
                                 
    Ms. McCollum of Minnesota. Thank you, Mr. Chairman. It is a 
pleasure to be here in Georgia.
    A recent newspaper quoted the distinguished Republican 
Senator from Nebraska, Senator Hagel, calling these House 
Republican hearings on immigration complete folly. Well, Mr. 
Chairman, unlike Georgia, we have long, cold snowy winters in 
Minnesota and so, it is beautiful right now in Minnesota. And I 
would not miss a day in August back home in Minnesota to attend 
a hearing that was a complete folly. I believe that this 
hearing can add much in setting the record straight on 
immigration reform.
    In Minnesota, we also do not have a Democrat Party, I am a 
member of the Democratic Farmer Labor Party, DFL. We believe 
hard in representing America's working families and that 
includes family farmers and laborers. They are the heart and 
soul of America, and I fight for working people every day to 
make this country strong and prosper.
    I say this because today we are here to talk about the 
future of America and our families and the immigration crisis 
facing our nation. These issues are not folly or frivolous, 
they are important. Immigration is a serious issue; it is an 
issue that is deadlocked when Republicans fight with 
Republicans. Imagine, Republicans control the White House, the 
U.S. Senate and the U.S. House, monopoly in power, yet they 
refuse to fix a broken system--our nation's borders.
    The American people--my constituents in Minnesota and folks 
here in Georgia--we know that our country's borders are broken. 
Six years into the Bush Administration, 5 years after the 9/11 
terrorist attack, our borders are still broken. Homeland 
security is the top priority for Democrats and Republicans. 
Homeland security is not a partisan issue, it is an issue all 
Americans take seriously.
    Our nation's airlines are currently on an elevated level 
because of terrorist threats. I had to hand my Chapstick over 
the other day at the airport because of the security that had 
to be put in place because of these terrorist threats. Yet, 
while we turn over our toothpaste and shampoo at the airport to 
protect our homeland security, as many as 5.3 million people 
have entered our country illegally over the past 10 years. Yes, 
most of these people are good people, they are very poor people 
looking for a better life in this land of opportunity, which we 
are all so blessed to live in. But criminals, terrorists and 
drug traffickers also enter this country, and they are likely 
still entering today.
    The American people want border security and immigration 
reform, and the laws of this land enforced and the dollars 
provided to our enforcement community so that they can carry 
out their job. And the American people are watching to see if 
the Republicans in Congress can stop fighting with each other 
long enough to pass an immigration bill before they leave 
Washington and go home to fight to save their own jobs in this 
November's election.
    I would like to remind my Republican colleagues here today 
that in May, the U.S. Senate passed the bill Senate 2611, the 
Specter-Brownback-Hagel-Martinez-McCain Immigration Reform Act. 
Now those names might sound like the lineup for the 2008 
Republican primary, but this point needs to be made--this is a 
Republican Bill, this is a Senate Bill that was written by the 
Republicans, passed by Republicans with the blessing and 
support of President Bush. My Republican colleagues here today 
can attack President Bush's position on immigration and the 
Senate Republicans, but I will not.
    We need a common sense immigration policy that will secure 
our borders and strengthen our economy, and protect American 
workers and their wages, allow American farmers and small 
business owners to find the workers that they do not have 
available to them. But we must make sure every American worker 
is offered the job first and foremost. Employers do need to be 
able to react to labor shortages. In these cases when there is 
a labor shortage, temporary guest workers--not indentured 
servants or disposable workers--but guest workers, who are 
legally hired by business and farms because there are not 
enough American workers to fill the positions, could be a 
reasonable solution. In that event, we must make sure that the 
wages and working conditions of guest workers do not undercut 
the wages and working conditions of America's workers.
    I was interested to learn that Georgia State Senator Saxby 
Chambliss has offered an immigration bill, S. 2087. It is 
called the Cultural Employment and Workforce Protection Act. 
And according to our non-partisan Congressional Research 
Service, it would expand the current guest worker visa program 
and would have guest workers' employers pay the higher of the 
prevailing wage or the state's minimum wage. Clearly, Senator 
Chambliss recognizes there's a need here in Georgia for guest 
workers. And I will be interested in learning if my colleagues 
here in the House feel the same way about guest workers and the 
prevailing wage.
    To keep America's economy and businesses strong, America 
needs workers. And I know that there are many locally here in 
the poultry industry and the carpet mills that are large 
employers and important corporate citizens. And they have a 
significant demand for workers. America needs to keep good jobs 
at good wages with good benefits to keep our families and our 
nation strong. Unfortunately, for far too long, this Congress 
has been more interested in exporting American jobs rather than 
fighting for America's workers. Honest, hard-working Americans 
deserve to have their wages, benefits and workplace safety 
protected by the laws Congress has already passed. But in 
reality, the enforcement of labor and immigration laws has been 
ignored by the Bush Administration and working families suffer 
as a result. And I will have more to submit in the record on 
that fact. This Republican Congress, all too often, is 
complicit in abandoning America's workers by refusing to hold 
the White House accountable for this negligence.
    Now that immigration reform is being addressed, I want a 
common sense plan, but I also want assurances that a guest 
worker program will not displace American workers and undermine 
wage or living standards in our American families. I am 
committed to work for a plan and immigration bill that protects 
our borders and protects wages and living standards for 
America's workers. And as we move forward with a comprehensive 
solution this year or next year--if this Republican Congress 
fails to act now, it will be next year--I am willing to work 
with both Democrats and Republicans, with organized labor, with 
agriculture, with service industries and with the business 
community to ensure that all our businesses are growing and our 
national economy stays strong, and American workers have good 
jobs at good wages.
    And Mr. Chairman, I thank you for the courtesies you have 
extended me.
    Chairman Norwood. Thank you, Ms. McCollum, and thank you 
for coming so far to join us in this hearing.
    I think it is probably appropriate for the sake of the 
record that we point out that Senator Chambliss and Senator 
Isakson voted a loud hard no on the Senate immigration bill.
    And with that, I would like to yield to not only a very 
good friend, but a very valued member of this Subcommittee, Dr. 
Tom Price.
    Dr. Price. Thank you, Mr. Chairman. I want to thank you for 
your leadership on this issue and for calling this field 
hearing. I also want to thank Representative McCollum for 
coming to the great state of Georgia and for her perspective on 
the validity of this hearing. I would, however, respectfully 
remind her that demagoguery of this issue or any other issue 
does a great disservice to all of us and does not get us any 
closer to a solution. This is not a Republican problem or a 
Democrat problem, it is an American problem, it is an American 
challenge, and we do best when we attempt to solve these kinds 
of issues together.
    I thank each and every one of you for coming as well to 
witness this. Your presence demonstrates clearly the importance 
of this matter and that this hearing matters.
    I would like to focus in my opening statement on the issue 
at hand, which is the issue of illegal immigration and its 
economic impact on American workers and their wages.
    The economy of every nation is greatly affected by human 
capital which has seen wholesale changes over the past 25 years 
in the United States. The domestic supply of labor has been 
inundated by illegal aliens, fueled primarily by an influx of 
cheap, low-skilled labor from south of the border, who make up 
40 percent of foreign laborers. And while legal immigration--
legal immigration--in a structured and limited manner makes a 
positive contribution to the national economy, it is rampant 
illegal immigration that poses a threat to our stability and 
our economic well-being. It is also no surprise that these low-
skilled workers are disproportionately impacting the economy in 
certain sectors.
    A recent study by the Congressional Budget Office, the CBO, 
touches upon such a conclusion by stating ``The arrival of 
large numbers of immigrants with little education probably 
slows the growth of wages of native-born high school dropouts 
at least initially, but the ultimate impact on wages is 
difficult to quantify.'' The study goes on to conclude that 
``Growth in the foreign-born workforce on the average earnings 
of native high school dropouts have ranged from negligible to 
an earnings reduction of 10 percent.''
    And while it is encouraging that an official government 
study formally recognizes the impact foreign workers have on 
the native-born population, it is my belief that the 
conclusions grossly under-estimate the true impact of these 
workers and the overall scope of the problem. If there is a 
silver lining, then it is the formal confirmation that the 
supply of low-skilled foreign workers is depressing the wages 
of American workers. Therefore, this evidence of depressed 
wages proves an oversupply of cheap labor exists in this 
country, not a shortage, as many would have us believe.
    Beyond the economics and analysis are the experiences of 
the citizens of the state of Georgia. Illegal sources of labor 
are forcing our law-abiding citizens out of their livelihoods 
and today's hearing will shed greater light on the scope of 
that problem.
    But all of this begs the question, how did we get to this 
point. The United States is witnessing a tidal wave of 
inexpensive, low-skilled labor. The lack of willpower 
demonstrated by multiple administrations is troubling. And as a 
Member of Congress, I expect our laws to be enforced to the 
letter. My constituents expect no less.
    The numbers compiled by the current administration's own 
Department of Homeland Security point to a collapse in the 
enforcement of authorized employee hiring. From 1997 to 2004, 
the number of arrests due to employer investigations by 
immigration authorities plummeted from 17,554 to 159--a 99 
percent drop. And while recent news of increased workplace 
raids and arrests are interesting, these figures paint the 
picture of an administration that is disengaged from their 
responsibilities. Of course, this in no way excuses the 
employers who engage in illegal business practices by using 
unauthorized workers.
    As proof that businesses could be doing more, only 2300 of 
the nation's 5.6 million employers used the Basic Pilot 
Employment Verification Program to check Social Security 
numbers and the legality of their new hires in 2004. The most 
current figure indicates that just 10,000 employers are using 
the Basic Pilot Program to verify. And without a more sweeping 
check of new hires in this country, the economic incentive that 
brings illegal aliens here will continue to exist.
    This is what the facts have demonstrated. There is an 
oversupply of inexpensive foreign labor depressing domestic 
wages, ample first-hand evidence of Georgians losing their jobs 
to illegal aliens, a history of administrations neglecting 
their responsibilities and certain business quarters flaunt the 
law by hiring illegal workers.
    This crisis will be made worse if Congress adopts the U.S. 
Senate version of immigration reform. Under the Senate plan, 
illegal aliens will become guest workers, gain a clear path to 
automatic citizenship and be guaranteed wages greater than that 
Americans receive for the same work. The Senate bill is a 
formula to exacerbate the situation, further depressing 
domestic wages.
    Stemming the flow of illegal immigration starts with 
certain strategies, but particularly vigorous interior 
enforcement and compliance from the business community to 
engage in employee verification--not the blanket open-door 
policy the Senate proposes.
    By undertaking the U.S. House of Representatives' approach 
to immigration reform, the Federal Government can buttress 
wages, protect the domestic workforce and keep American jobs 
for Americans. Without a more complete effort, the United 
States will continue to see wholesale changes to the labor pool 
with negative consequences for multiple sectors of the economy.
    Again, I want to thank the Chairman for holding this 
hearing, and I want to thank the panel members who are here to 
provide their testimony and I look forward to that testimony.
    Thank you, Mr. Chairman.
    Chairman Norwood. Thank you very much, Dr. Price.
    And last, and happily we welcome not a member of our 
Committee, but a valued member of the House of Representative, 
Chairman Nathan Deal and we appreciate you allowing us to have 
this hearing in your district. Mr. Chairman, you are up.
    Mr. Deal. Well, thank you, Chairman Norwood. I appreciate 
the fact that you and Ms. McCollum and Dr. Price would come 
here today for this hearing. I think this is an appropriate 
setting. I want to thank the staff of this Federal courthouse 
facility for allowing us to be here. And I really want to thank 
you for allowing me to see this courtroom from this 
perspective. As many of my friends in the audience know, I 
practiced law in this community for about 23 years, and I 
always saw it from where the witnesses are right down there. It 
is a totally different view, I might add.
    [Laughter.]
    Mr. Deal. As you know, as Chairman of the Health 
Subcommittee of Energy and Commerce, we have also had and will 
have tomorrow another field hearing as it relates to the 
jurisdictional area of healthcare. We started out with a 
hearing last week in Nashville, Tennessee and tomorrow morning 
in Dalton, Georgia, we will have another hearing, beginning at 
10 in the Trade Center. And we, of course, will have--Dr. 
Norwood, I know will be there as a part of that panel. It will 
be another look at an aspect of illegal immigration that in my 
community and in my district, and I am sure in many of yours, 
there are three big categories that we hear first of all, as 
the impact.
    One is in the healthcare arena. The cost of those who show 
up at emergency rooms with no insurance and the burden then 
being shifted, not only to the local jurisdiction and the 
hospital, but to those who have private insurance because the 
uncompensated indigent care component does drive up the cost of 
healthcare. We have looked at that and will continue to look at 
that in our hearing.
    The other area is that of education. We have alluded to it, 
and of course, I think all of us recognize that heavily 
impacted areas require that new schools be built. The burden of 
children who speak no English coming into the traditional 
classroom setting has put a tremendous burden on many school 
systems and the school systems in the area where we currently 
are sitting are fine examples of that.
    The third area is that of criminal conduct. To hear some of 
my local law enforcement officers say that the No. 1 criminal 
concern they have is Hispanic gang activity is certainly a 
shocking issue. And that was confirmed this last weekend, the 
newspaper reported that a major criminal activity, a gang, has 
now been sentenced in the Federal court of the Northern 
District of Georgia, which this court is a part of that Federal 
court system of Georgia. A major crime activity being disrupted 
by virtue of those convictions.
    But the other aspect, which is the context of the hearing 
today, is that of what impact does illegal immigration have on 
the overall labor market. And there are, of course, disputed 
claims there. And I hope that this hearing today will give an 
insight into those impacts and what, if anything, we should be 
concerned about as we try to finalize legislation, hopefully 
before the end of this year.
    I want to thank you, I want to thank the witnesses for 
their time and their energy in coming and being with us, and I 
look forward to their testimony.
    Thank you for allowing me to participate.
    Chairman Norwood. Thank you very much, Mr. Chairman.
    We have a very distinguished panel of witnesses today, and 
we are all very grateful, gentlemen, for your time and your 
energy to come and help us try to determine what Congress 
should do about this subject. We are all very eager to hear 
your testimony.
    I will begin by introducing a panel member and then you 
will be allowed 5 minutes. I will not be very strict on that 5 
minutes, but I have read your testimony and most of it is much 
longer than 5 minutes, so try to summarize just a little bit. 
If I had you in Washington, I would have some lights out in 
front of you that would show when it is time to stop. And it is 
very hard for me to bother people when they are testifying, so 
do the best you can to stay within five or so minutes.
    Senator Chip Pearson of Dawsonville is first. He is serving 
his first term as Senator for the 51st District. He is the 
Secretary of the Transportation Committee as well as a member 
of the Agriculture and Consumer Affairs, Regulated Industries 
and Utilities and Appropriations Committee.
    Maybe even more important, Chip Pearson is the founder and 
president and CEO of Pecos, Inc., the Paramont Grading Company, 
a small business here in Georgia that what we do in Washington 
is going to so desperately affect.
    With that, I yield time to Senator Pearson.

                STATEMENT OF HON. CHIP PEARSON,
                     GEORGIA STATE SENATOR

    Mr. Pearson. Thank you, Mr. Chairman and members of the 
Committee. I appreciate the opportunity to be here today. I 
will be speaking, by the way, as an employer and as a 
contractor, not necessarily as a Senator.
    Chairman Norwood. Senator, you need to pass that mic down, 
please.
    Mr. Pearson. Can you hear me better?
    Chairman Norwood. Much better.
    Mr. Pearson. All right. Thank you again for the 
opportunity, Mr. Chairman, to be here, and members of the 
Committee. I will be primarily speaking as an employer and a 
contractor. I would add though, for the record, I was just 
named this summer as Chairman of the Economic Development 
Committee. So also on that standpoint, we are here.
    Let me just say, and I am going to try and be brief, you 
have seen our testimony, and I will try to paraphrase most of 
it. But let me preface my feelings as an employer and as an 
American citizen--this was not in the testimony as we could not 
get the copyright permission secured before we had to submit 
it--but in the Engineering News Record editorial of June 26, 
2006, as well as the April 17, the situation of immigration in 
construction was brought up. ``Immigration reform starts and 
finishes with the rule of law,'' was the title of that text. I 
will return to that later for my concluding remarks, but to let 
you feel where we feel as a company, as well as a citizen, that 
we should be dealing with this situation is right there, what 
you have said before, is the rule of law.
    As I said, I am going to try to paraphrase what we have 
submitted, in the instance of time here.
    We started out by saying the following are our views and 
points of interest as well as concerns concerning the Senate 
Bill 2611 and how they affect our companies. Our philosophies 
are for an open workplace that affords all an opportunity to 
prosper if they are qualified and can meet the terms and 
conditions of employment. Part of those conditions involve the 
ability to comply with the I-9 guidelines as well as 
verification of Social Security information via the Veri-Check 
procedure.
    We then continued on the bottom of page one and the rest of 
page two to go step by step through our policy, which has been 
drafted by our legal counsel and is what is required as of the 
law today. If you notice, the bottom of page one and really all 
of page two deals with the most exasperating part of the whole 
process, which is when there is a no-match letter sent to us 
from Social Security.
    What happens is after this letter is sent and we go through 
a five-step procedure of what the employee's responsibility as 
well as ours is, is that it takes a minimum of 67 working days 
to get through this five-step process, and the result is that 
at the end of that period, if the employee has not been able to 
accomplish the requirements of those I-9 or Social Security 
laws, then it leads to termination. That is 67 days that we 
have to deal with one situation, in which case many times the 
employee is unsure of his status, we are unsure of his status 
on a crew.
    And as it goes to our comments and observations:
    Item one, the current method of verifying employment 
eligibility does not work--plain and simple, it does not work. 
Utilizing Veri-Check only verifies the numbers or the documents 
exist. It does not verify that they belong to a particular 
individual. And there is the crux of the problem for us as an 
employer.
    Second, as relating to the language in the Bill, how is a 
Blue Card going to be a solution? Any document can be 
reproduced, such as a Social Security card, Alien Registration 
Receipt, driver's license. So why do we expect this Blue Card 
to be a solution to a problem that has the same basic 
underlying concerns?
    Third, all employers should be held to the same standards 
or be penalized for hiring illegal immigrants. The bottom line 
is this, there are many construction companies out there of 
different sizes in the state and across the country. We are one 
of many, but not of the majority, that try to abide by the 
laws. But when the laws are too cumbersome to abide by, there 
is no help from the Federal Government in making sure that you 
are in compliance with them as well as the differentiation in 
the wages that often occurs. The situation comes where we are 
often bidding against another firm that is not going by the 
laws, and therefore, they are at a huge advantage.
    Fourthly, is rewarding illegal behavior the answer? Is 
allowing illegal workers the opportunity to collect benefits, 
welfare, unemployment, Social Security, in-state tuition or 
higher education benefits? As we dealt with in 529 this year in 
the Senate, we brought up many of those issues and those are 
real concerns to the people in Georgia as well as to the 
employment and construction community.
    Fifthly, a guest worker program may be a positive endeavor, 
as long as it is not implemented by providing amnesty for 
current illegal workers within the United States. Again, 
returning to that reform starts and finishes with the rule of 
law concept.
    No. 7, is allowing amnesty under Immigration Accountability 
Act of 2006, providing for permanent residency for qualifying 
illegal aliens and their spouses as well as children the 
answer?
    Item No. 8, the Bill proposes that English is the language 
of the United States with no specifics. However, the Supreme 
Court Interpreters Grant Awards Act would provide state court 
grants to assist individuals with limited English proficiency 
to access and understand court proceedings and allocates funds 
for a related court interpreter.
    No. 9, the Bill would add additional cost to ensure 
compliance along the lines of necessary legal counsel as well 
as perpetual monitoring.
    And finally under ten, which is of concern to us as a 
construction industry, and you as well, Mr. Chairman, under 
2611, Davis-Bacon wage rates will be applied to foreign 
temporary workers in all construction occupations, even if the 
project receives no Federal funds and does not otherwise fall 
under the Davis-Bacon Act. Why do we want to reward temporary 
workers with the opportunity to earn more for the same job 
performed by American workers?
    In the prepared remarks, we put in a closing that we 
believe that the current law in effect should be strictly 
enforced and the borders secured within parameters already 
established. Internal I-9 audits, processing potential 
candidates for employment under Federal requirements, and 
responding to no-match letters as described above is very 
costly, inefficient to us, as well as other employers who want 
to comply with the law in this country. Those attempts are 
aggravated due to a lack of enforcement of the laws already in 
place.
    With that, I am going to conclude by reading the last 
sentence of one of the editorials that I referred to earlier. 
And again, if we get the copyright permission, we will forward 
these for the record. This is the last sentence of this: ``Any 
nation that does not preserve the rule of law is doomed, it is 
the rock upon which all economic development and social 
progress is based. This is the starting and finishing point for 
illegal immigration policy.''
    And with that, Mr. Chairman, that concludes my prepared 
remarks. I will be glad to answer questions, if there are any.
    [The prepared statement of Mr. Pearson follows:]

     Prepared Statement of Hon. Chip Pearson, Georgia State Senator

Senate Bill 2611
    To follow are my views and points of interest as well as concerns 
pertaining to Senate Bill 2611 and how they affect my company. 
Paramont's philosophy is to offer an open work place that affords all 
an opportunity to prosper if they are qualified and can meet the terms 
and conditions of employment. Part of those conditions involve the 
ability to comply with I-9 guidelines as well as verification of Social 
Security Information via Veri-Check.
    The procedure we utilize is policy in order to comply with Federal 
Laws.
    1. Request a document that establishes both identity and employment 
eligibility or,
    2. Request 1 document that establishes identity and 1 document that 
establishes employment eligibility.
    3. Employment is offered after completion of the I-9 and all other 
employment requirements are met.
    4. Veri-Check is then utilized to insure document credibility.
    This brings about concerns with the current system and proposals 
under Senate Bill 2611. If Veri-Check indicates a no match, then we 
must then follow guidelines giving the employee and opportunity to 
correct the error.
No-Match Policy
    When employed by Paramont Grading Corp. (PGC) a number of documents 
are required, by law or regulation, to be completed and transmitted to 
various governmental agencies. For example, the Social Security number 
is used as a key identifier to report employment, earnings and taxes to 
the Internal Revenue Service, the Georgia Department of Revenue, the 
Social Security Administration and other federal and state governmental 
agencies. In addition, other documents establish the employee's 
authorization to work in the United States. Both the Department of 
Homeland Security and the Social Security Administration have begun to 
issue no-match letters when the information we provide from these 
documents is not consistent with their records. The no-match letters 
request PGC's and the employee's prompt resolution and correction of 
these inconsistencies.
    This policy sets forth the minimum procedural requirements for the 
correction of a no-match issue communicated to PGC by an outside 
governmental agency. These minimum procedural requirements are 
established to provide consistency in the system wide application of 
this correctional process.
    No matches can be caused by many legitimate reasons, so it should 
not be assumed that when a governmental agency reports a no-match that 
an employee has intentionally done anything wrong. PGC will notify an 
employee, through the Human Resource Department, of all no-match 
issues. It is ultimately the employee's responsibility to follow-up 
with the proper governmental agency to correct the problem or to 
provide alternative documentation establishing the employee's identity 
and authorization to work.
    The Human Resource Department may not provide legal advice should 
it be needed by the employee to correct the no-match issue.
No-Match Notification Process
    Over the course of the year PGC is required to provide a number of 
outside governmental agencies and employee's with employee information. 
The Internal Revenue Service (IRS), the Department of Homeland Security 
(DHS) and the Social Security Administration (SSA) are examples of some 
of the outside governmental offices which PGC may be required to 
provide information too. Periodically, these outside governmental 
agencies communicate to PGC that a discrepancy exists when an 
employee's record is compared to the outside governmental agency's 
record. The outside agency transmits a report to PGC when such a no-
match occurs.
Corrective Process
    (A) Step One: Within 14 days of receipt of a no-match letter, PGC 
will check its records to determine whether the discrepancy results 
from a clerical error in the employer's records or in its communication 
to the SSA or DHS. If there is such an error, PGC will correct its 
records, inform the relevant agencies and verify that the name and 
number, as corrected, match agency records. If there is no error, PGC 
will forward the names of employees and no match information to the 
Vice President of Human Resources or other designee.
    (B) Step Two: When the Vice President of Human Resources or 
designee receives no-match information he/she will send a letter to the 
employee. Due to the confidential nature of the no-match process, any 
and all correspondence should be sent via certified mail to the 
employee's home address. This letter shall be transmitted to the 
employee within the 14 day time period from receipt of the no-match 
letter from the agency. The letter will explain the nature of the no-
match and direct the employee to contact the relevant agency and take 
action to correct the error.
    (C) Step Three: The employee shall be advised in the letter that 
he/she shall have the option of providing PGC with alternative 
documentation establishing the employee's identification or work 
authorization and that he/she must provide the appropriate 
documentation within 63 days of the employer's receipt of the no-match 
letter. Please note that no document containing the same information 
that is in question by the agency and no receipt for an application for 
a replacement document shall be used to establish employment 
authorization, identity or both. No document without a photograph may 
be used to establish identity or both identity and employment 
authorization.
    (D) Step Four: Following a 30 day period after the letter in steps 
Two and Three, above, has been sent to the employee, if it is 
subsequently learned through the no-match process that an individual 
previously notified has not attempted to correct an identified problem, 
a final letter will be sent to the employee. This letter will strongly 
advise the employee of the seriousness of the problem and the necessity 
for immediate corrective action. The letter will state that it 
represents the final notice to the employee of the no-match problem. 
PGC will provide the employee 63 days from the date of PGC's receipt of 
the no-match letter to either provide evidence that the no-match issue 
has been corrected or to provide alternative documentation of the 
employee's identity and authorization to work as outlined in Steps Two 
and Three above. If the employee fails to accomplish either alternative 
within the 63 day period, the employee will be terminated.
    (E) Step Five: If the employee provides PGC with alternative 
documentation of the employee's identity and authorization to work as 
outlined in Steps Two and Three above, PGC shall record the information 
on a new I-9 form and staple the new form to the old I-9 form. PGC 
shall retain the new I-9 form for the same period as if the employee 
were newly hired at the time the new I-9 form is completed.
    As you can see, this is a costly and enduring time period created 
by the legalities of complying with the current system and the 
potentials of Senate Bill 2611.
Observations and Comments
    1. The current method to verify employment eligibility does not 
work. Utilizing Veri-Check only verifies the numbers or documents 
exist. It does not verify they belong to that particular individual.
    2. How will the Blue Card be a solution? Any document can be 
reproduced such as a Social Security Card, Alien Registration Receipt 
Card, Driver's License, etc. Why would the Blue Card be an exception?
    3. All employers should be held to the same standards or be 
penalized for hiring illegal immigrants.
    4. Is rewarding illegal behavior the answer? Is allowing illegal 
workers the opportunity to collect Social Security Benefits, Welfare, 
Unemployment, In-State tuition or higher education benefits the answer?
    5. The Guest Worker Program may be a positive endeavor as long as 
it is not implemented by providing amnesty for current illegal workers 
within the United States.
    6. Is allowing Amnesty under the Immigrant Accountability Act of 
2006 providing for permanent residency for qualifying illegal aliens 
and their spouses as well as their children the answer?
    7. 2611 proposes that English is the language of the United States 
with no specifics, however; the State Court Interpreter Grant Program 
Act would provide state courts grants to assist individuals with 
limited English proficiency to access and understand court proceedings, 
and allocates funds for a related court interpreter technical 
assistance program.
    8. 2611 will add additional costs to ensure compliance along the 
lines of necessary legal counsel as well as perpetual monitoring to 
insure compliance.
Closing
    In closing, I believe that the current laws in effect should be 
strictly enforced and the borders secured within parameters already 
established. Internal I-9 audits, processing potential candidates for 
employment under Federal requirements, and responding to No-Match 
Letters as described above is very costly to me as well as other 
employers who want to comply with the laws of this country. Those 
attempts are aggravated due to lack of enforcement of laws already in 
place.
                                 ______
                                 
    Chairman Norwood. Thank you very much, Senator Pearson, we 
appreciate you.
    Mr. Gary Black is President of the Georgia Agribusiness 
Council. Mr. Black has been an active member of Georgia's 
agriculture community serving organizations such as the Georgia 
Farm Bureau to his recent services as President of the Georgia 
Agribusiness Council. Recently, Mr. Black was appointed to the 
U.S. House of Representatives Commission Examining Federal 
Payment Limitations.
    Mr. Black majored in agricultural education at the 
University of Georgia and was the 2004 recipient of the Alumni 
Society's Distinguished Professional Award.
    Mr. Black, you are now recognized for 5 minutes or so.

              STATEMENT OF GARY BLACK, PRESIDENT,
               GEORGIA AGRIBUSINESS COUNCIL, INC.

    Mr. Black. Thank you, Mr. Chairman, members of the 
Committee, it is a delight to be here. I am Gary Black, and I 
most recently served for 17 years as President of the Georgia 
Agribusiness Council located in Commerce, Georgia.
    I appreciate this opportunity to offer, as requested, 
remarks on today's subject matter from the viewpoint of the 
Georgia farmer. Thank you, Mr. Chairman, for bringing your 
Committee to the great state of Georgia today and certainly it 
is a state where we do have very many--some great challenges 
with regard to immigrant labor. My hope is to join with the 
members of the Subcommittee to identify solutions.
    In a very complex way, the security of our nation demands 
responsible action now. Mr. Chairman, I have met with you and 
your staff dozens of times over the years as spokesman for 
Georgia agriculture. Many of our meetings have focused on 
today's topic. Georgia farmers need a reliable labor force that 
is legally documented to work within our nation's borders. 
Securing our borders and providing private industry with 
government controlled access to visa work programs will provide 
the stability needed for our economy, while keeping Americans 
that wish to work these jobs gainfully employed.
    Let me be clear to the members of the Committee, I oppose 
illegal immigration, I oppose amnesty, I oppose new or 
accelerated pathways to citizenship. These topics must remain 
off the table.
    Yet a legal, properly documented and accessible workforce 
is critical to Georgia's farm economy. Managing this workforce 
in such a way that participants perform work, pay taxes and 
return home, is vital to the sovereignty of our nation, in my 
view. These issues are of great importance to construction, 
hospital and a host of other industries, but I cannot speak on 
immigration and the impact to American workers and their wages 
on these sectors. But I can offer a perspective on the subject 
with regard to our farm and ranch families.
    My belief is the impact of immigration on Georgia farm 
workers and farm wage rates is virtually zero. The reason is 
the shortage of local workers for farm-related jobs at any 
affordable wage rate. Unfortunately, many of these roles fall 
under the standard industrial classifications in agriculture.
    Agriculture must have access to a labor program such as the 
existing programs that we have--not new programs, not new guest 
programs--the existing visa programs, to continue producing 
safe and affordable agricultural products that serve as the 
backbone of our nation's economy and security. If we, as a 
nation, do not think this is important, simply look to our 
dependence on foreign oil and then think again. We need a visa 
work program that is inclusive and sensitive to the needs of 
all farmers.
    While the current Federal H-2A visa work program allows 
access to a legal and documented workforce, the costs are 
prohibitive for many farm operators. One of the biggest costs 
is a result of the adverse effective wage rate. And we have had 
a lot of discussions about bringing those individuals in across 
the border at a higher rate to our domestic workers. That must 
be replaced, and that is one of the impediments to our current 
program. I think if we address this and do so--but we have got 
to provide the necessary data to appropriately bring these 
wages in line with those of similar jobs in the area. We cannot 
have that dual system.
    Mr. Chairman, farmers are price takers who operate in a 
capital-intensive, high-risk environment that is played out in 
a tilted global marketplace with respect to every business 
regulation, including labor. I strongly agree with you that we 
must secure our borders of our great nation. Future solutions 
to immigration policy must not include amnesty, nor new or 
accelerated pathways to citizenship. We must establish an 
orderly, documented procedure that identifies those that seek 
to enter to perform temporary work, pay taxes, and return home. 
The U.S. unemployment rate is below the average of the last 
four decades. When the supply of American workers is exhausted 
as it is in many parts of agriculture today, someone must step 
in to do these jobs that are not being filled.
    For agriculture economic engines located across our state 
and our nation, true immigration reform must include a 
pragmatic program for obtaining temporary documented 
agriculture labor now and in the future.
    I thank Chairman Norwood and members of the Committee and I 
will look forward to entertaining any questions at the 
appropriate time.
    [The prepared statement of Mr. Black follows:]

            Prepared Statement of Gary W. Black, President,
                   Georgia Agribusiness Council, Inc.

Introduction
    Mr. Chairman and members of the subcommittee, I am Gary Black. I 
most recently served for 17 years as President of the Georgia 
Agribusiness Council located in Commerce, Georgia. I appreciate this 
opportunity to offer, as requested, remarks on today's subject matter 
from the viewpoint of the Georgia farmer. Thank you, Mr. Chairman, for 
bringing the House Committee on Education and the Workforce, 
Subcommittee on Workforce Protections, to the Great State of Georgia, 
where we have many immigrant labor challenges. My hope is to join with 
members of the subcommittee to identify solutions. In a very complex 
way, the security of our nation demands responsible action now.
Georgia Agribusiness Council
    The Georgia Agribusiness Council (GAC) is a Chamber-like 
organization with a 40-year history of promoting sound policy for the 
breadth of Georgia's agricultural industry. Our membership ranges from 
farmers to input suppliers and from processors to those in 
transportation of food and fiber. Growing a healthy agricultural 
economy, promoting environmental stewardship and educating the public 
about the importance of agriculture are the hallmark objectives of the 
Georgia Agribusiness Council.
General Remarks
    Mr. Chairman, I have met with you and your staff dozens of times 
over the years as a spokesman for Georgia agriculture. Many of our 
meetings have focused on today's topic. Georgia farmers need a reliable 
labor force that is legally documented to work within our nation's 
borders. Securing our borders and providing private industry with 
government-controlled access to visa work programs will provide the 
stability needed for our economy while keeping Americans that wish to 
work these jobs gainfully employed.
    Let me be clear: I oppose illegal immigration. I oppose amnesty. I 
oppose new or accelerated pathways to citizenship. These topics must 
remain off the table. Yet, a legal, properly documented, and accessible 
workforce is critical to Georgia's farm economy. Managing this 
workforce in such a way that participants perform work, pay taxes and 
return home is vital to the sovereignty of our nation in my view. These 
issues are of great importance to construction, hospitality and a host 
of other industries. I cannot speak on immigration and the impact to 
American workers and their wages on these sectors, but I can offer a 
perspective on the subject with regards to our farm and ranch families. 
My belief is the impact of immigration on Georgia farm workers and farm 
wage rates is virtually zero. The reason is the shortage of local 
workers for farm related jobs at any affordable wage rate. 
Unfortunately, many of these roles fall under Standard Industrial 
Classifications in agriculture.
    Agriculture must have access to a labor program, such as the 
existing H2A visa program, to continue producing safe, affordable 
agricultural products that serve as the backbone to our nation's 
economy and security. If we as a nation do not think this is important, 
simply look to our dependence on foreign oil and then think again. We 
need a visa work program that is inclusive and sensitive to the needs 
of all agricultural producers. While the current federal H2A visa work 
program allows access to a legal and documented workforce, the costs 
are prohibitive for many farm operations. One of the biggest costs is a 
result of a USDA survey that produces the Adverse Effect Wage Rate 
(AEWR). The AEWR is a mandatory, guaranteed hourly wage presently set 
at $8.37 in Georgia and is imposed by the US Department of Labor as a 
condition of participating in the H2A program. By replacing this AEWR 
wage requirement with a prevailing wage that is calculated with data 
from statistically reliable Occupational Employment Surveys (OES) 
conducted by the Bureau of Labor Statistics we can bring these wages in 
line with those of comparable agricultural jobs. Doing so will provide 
the necessary data to appropriately bring these wages in line with 
those of similar jobs in the area.
Conclusion
    Mr. Chairman, farmers are price takers who operate in a capital 
intensive, high-risk environment that is played out in a tilted global 
marketplace with respect to every business regulation including labor. 
I strongly agree with you: we must secure the borders of our great 
nation. Future solutions to immigration policy must not include amnesty 
or new or accelerated pathways to citizenship. We must establish an 
orderly, documented procedure that identifies those that seek to enter 
to perform temporary work, pay taxes and return home. The U.S. 
unemployment rate is below the average of the past four decades. When 
the supply of American workers is exhausted, as it is today, someone 
must step into jobs that are not being filled. For agricultural 
economic engines located all across our state and our nation, true 
immigration reform must include a pragmatic program for obtaining 
temporary, documented agricultural labor, now and in the future.
    Thank you again, Chairman Norwood and members of the Committee for 
the privilege to be here today.
                                 ______
                                 
    Chairman Norwood. Thank you very much.
    If you would pass the microphone over. Is it Wenger 
[pronouncing]?
    Dr. Wenger. Yes, it is.
    Chairman Norwood. Dr. Jeffrey Wenger, Assistant Professor 
of Public Policy, University of Georgia. Dr. Wenger's research 
focuses on unemployment insurance policy and contingent 
employment. His current research focuses on the relationship 
between job search and the employer-provided health insurance.
    Dr. Wenger holds an undergraduate degree in mathematics 
from the University of Southern California-Santa Cruz, and a 
doctorate degree in public policy from the University of North 
Carolina-Chapel Hill.
    We welcome you, Dr. Wenger, and you are now recognized.

  STATEMENT OF DR. JEFFREY B. WENGER, ASSISTANT PROFESSOR OF 
 PUBLIC POLICY, THE UNIVERSITY OF GEORGIA SCHOOL OF PUBLIC AND 
                     INTERNATIONAL AFFAIRS

    Dr. Wenger. Thank you very much.
    I appreciate the opportunity to be here. Chairman Norwood, 
thank you; thank you, Representative McCollum and other Members 
of Congress, I appreciate. As I was introduced, that made this 
paragraph pretty much irrelevant.
    Let me just start by saying----
    Chairman Norwood. Pull the mic up just a little closer.
    Dr. Wenger. Thank you. Let me just start by saying that I 
think this immigration debate in the late 1990's was non-
existent for very good reasons. It was non-existent because the 
demand for labor outstripped the supply for labor, and worker 
productivity resulted in wage growth across the spectrum. As a 
consequence, poverty declined, health insurance coverage 
increased and wages for workers in the bottom of the earnings 
distribution rose faster than the median wage for other 
workers. This is the first time that happened in almost a 
generation. Increases in the minimum wage, the expansion of the 
earned income tax credit and children's health insurance 
coverage were good policies that promoted and rewarded 
Americans' hard work. This is all that happened in the late 
1990's.
    Since 2001, the U.S. labor market has really reversed 
course. Poverty is increasing, health insurance coverage is 
declining and many workers have been caught off-guard as the 
purchasing power of their paycheck continues to erode. Workers 
want security--security in their jobs, security in their pay 
and security in their workplace. Border security, even if it 
were effective, would in the short run fail to address the 
harsh effects of a weak job market, declining real wages and 
gaps in health care coverage.
    For many, the focus has been on border security with an 
emphasis on longer and taller walls guarded by greater numbers 
of INS agents and National Guardsmen. However, I believe the 
more important security threat, the one that is brewing below 
the surface of these immigration debates is the economic 
security of legal American workers, whether native-born or 
foreign-born.
    The presence of undocumented illegal immigrants in the low-
wage unskilled workforce is not disputed, but the size of this 
population and its real economic impact are less clear. 
Economic research on the issue is mixed. Some scholars have 
found significant effects on wage, while others have found much 
smaller effects. Research also indicates that less educated 
immigrants are more likely to receive government aid. However, 
surprisingly, little research has focused on the benefits of 
immigration.
    So while the research is murky, it is clear that illegal 
workers work side-by-side every day in the same workplaces and 
on the same job sites. This simple fact means that both sets of 
workers--both legal and illegal--face the same threats in the 
form of job insecurity, wage insecurity and workplace 
insecurity. Job, wage and workplace insecurity exist because 
much of the low-wage or secondary labor market operates as a 
shadow market without proper legal enforcement or oversight.
    I would first like to address the issue of job insecurity 
as it applies to the low-wage unskilled workforce. According to 
a July 2006 GAO Report on worker classification, there are 42.6 
million employees in America who are classified as contingent. 
This newly released GAO Report is directly relevant to these 
hearings, and I hope each of you will find time to read it.
    One of the most important findings of this report is that 
the Department of Labor failed to consistently investigate and 
report employee misclassification when investigating claims 
under the Fair Labor Standards Act. This misclassification 
systematically leads to more job insecurity.
    Wage insecurity is another critical issue that affects a 
disproportionate number of contingent workers. The ability of 
employers to falsely classify workers as contingent allows them 
to withhold both wage and non-wage benefits. Worker 
misclassifications result in overtime pay being denied to 
workers who would otherwise be eligible to receive it. For 
example, in 2005, the Department of Labor recovered $166 
million worth of back pay for 219,000 workers. Yet this amount 
represents only a small fraction of what is owed to employees 
as a result of misclassification. Additionally, workers who are 
misclassified as on-call or part time, are not afforded 
protection under the Family Medical Leave Act nor are they 
guaranteed pension contributions under the Employee Retirement 
Income Security Act, or ERISA.
    Perhaps the greatest threat to the contingent workforce is 
the threat posed by conditions that these workers face each day 
upon entering the job site. After the Hamlet, North Carolina 
fire in 1991 that left 25 workers dead behind the chained doors 
of a chicken processing plant, improving OSHA enforcement of 
workplace safety was cited as an imperative need. Yet 11 years 
later, the GAO found OSHA's investigative procedures make it 
difficult to detect violations of worker protection laws.
    The simple truth is that within our current system, there 
are laws in place designed to protect all workers, regardless 
of status, against these threats to their economic security.
    Contingent employment is composed of both legal and 
illegal, native and immigrant workers. As long as the U.S. 
labor market continues to operate at less than its full 
potential, and wages for workers at the bottom of the earnings 
distribution continue to stagnate, economic security will be 
difficult to achieve. Sources of economic insecurity punish 
citizens and non-citizens alike. Millions of workers, native 
and immigrant, are faced with limited job opportunities. These 
workers need a government that will provide better oversight to 
ensure they are paid the full value of their wages and remain 
protected from harm in the workplace. The Administration and 
Congress should act responsibly to create conditions that 
foster job growth, but also provide strong enforcement of 
workforce protection laws. Securing our borders is not likely 
to secure workers' jobs, workers' pay or workers' safety in the 
short run.
    Thank you very much for the opportunity to speak.
    [The prepared statement of Dr. Wenger follows:]

  Prepared Statement of Dr. Jeffrey B. Wenger, Assistant Professor of 
     Public Policy, the University of Georgia School of Public and 
                         International Affairs

    The debate on immigration over the past year has focused largely on 
the issue of security. For many, the focus has been on border security 
with an emphasis on longer and taller walls, guarded by greater numbers 
of INS agents and National Guardsmen. However, I believe the more 
important security threat, and the one that is brewing below the 
surface of these immigration debates, is the economic security of 
legal, American workers, whether native born or foreign born.
    The presence of undocumented illegal immigrants in the low-wage 
unskilled workforce is not disputed, but the size of this population 
and its real economic impact are less clear. Economic research on the 
issue is mixed; some scholars have found significant effects on wages 
(Borjas, 1994, 2001) \1\ while others have found smaller impacts (Card, 
2001).\2\ Research also indicates that less educated immigrants are 
more likely to receive government aid. However, surprisingly little 
research has focused on the benefits of immigration. This upside-down 
type of analysis, where you count the costs but not the benefits, is 
unlikely to lead to good policy decisions.
    So while the research remains murky, it is clear that illegal 
workers work alongside legally documented low-wage American workers 
every day in the same workplaces and on the same job sites.
    This simple fact means that both sets of workers, both legal and 
illegal, face the same threats in the form of job insecurity, wage 
insecurity and workplace insecurity. Job, wage and workplace insecurity 
exist because much of the low-wage or secondary labor market operates 
as a shadow market without proper legal enforcement or oversight.
    During the late 1990s, immigration did not spark worker angst or 
ire. It was not an issue because the demand for labor outstripped 
supply and solid productivity gains resulted in wage growth across the 
earnings spectrum. Poverty declined, health insurance coverage 
increased and wages for workers at the bottom of the earnings 
distribution rose faster than the median wage for the first time in a 
generation. Increases in the minimum wage, the expansion of the Earned 
Income Tax Credit and children's health insurance coverage were good 
policies that promoted and rewarded Americans' hard work.
    But since 2001, the U.S. labor market has reversed course. Poverty 
is increasing, health insurance coverage is declining and many workers 
have been caught off guard as the purchasing power of their paychecks 
continues to erode. Workers want security--security in their jobs, 
security in their pay and security in their workplace. Border security, 
even if it were effective, would still fail to address the harsh 
effects of a weak job market, declining real wages, and gaps in 
healthcare coverage.
Job Insecurity
    I would like to first address the issue of job insecurity as it 
applies to the low-wage unskilled workforce. According to a July 2006 
GAO Report on worker classification (06-656), there are 42.6 million 
employees in America who are classified as contingent employees. The 
GAO defines these `contingent employees' as ``workers who do not have 
standard full-time employment.'' \3\ Many of these workers work more 
than 40 hours per week but are contingent because their work 
arrangement is precarious: day laborers, temporary workers and on-call 
workers all have unpredictable schedules and unreliable paychecks.
    Without the protection of permanent, full-time employment, 
contingent workers are more vulnerable to fluctuations in the labor 
market as they operate in a largely volatile and unstable environment. 
In their report, the GAO focused on the ability of employers to 
``exclude some contingent workers from receiving key worker benefits 
and protections such as the guarantee of workers' rights to safe and 
healthful working conditions, a minimum hourly wage and overtime pay, 
freedom from employment discrimination, and unemployment insurance.'' 
\4\
    The GAO concluded that the Department of Labor (DOL) failed to 
consistently investigate and report employee misclassification when 
investigating claims under the Fair Labor Standards Act (FLSA).\5\ More 
importantly, worker misclassification results in overtime pay being 
denied to workers who would otherwise be eligible to receive it. This 
practice is too common and represents a theft from the employee. For 
example, in 2005 the Department of Labor recovered $166 million dollars 
in back pay for 219,000 workers.\6\ Yet this amount represents only a 
small fraction of what is owed to employees as a result of 
misclassification.
Wage Insecurity
    Wage insecurity is another critical issue that affects a 
disproportionate number of contingent workers. The same GAO report 
found that 16% of contingent workers had a family income of less than 
$20,000, as compared to 8% of regular, full-time workers.\7\ For 
certain subsets of the contingent workforce the percentage is even 
higher, for example 21% of on-call and day laborers fall below the 
$20,000 household income threshold.\8\
    Additionally, the ability of employers to falsely classify workers 
as contingent allows them to withhold non-wage benefits. For example, a 
worker classified as `on-call' or `part-time' is not afforded 
protection under the Family and Medical Leave Act, nor are they 
guaranteed pension contributions under the Employee Retirement Income 
Security Act.\9\
    One of the best ways to protect the paychecks of American workers 
is to prevent illegal immigrants from undercutting worker pay. If this 
Congress is indeed interested in protecting American jobs then it 
should extend the protection of a prevailing wage provided under the 
Davis-Bacon Act. With prevailing wage protections, employers and 
illegal workers will not be able to undercut American workers by 
exploiting the largely unregulated contingent employment market.
Workplace Insecurity
    Perhaps the greatest threat to the contingent workforce is the 
threat posed by the conditions these workers face each day upon 
entering their job site. After the Hamlet, North Carolina fire in 1991 
that left 25 workers dead behind the chained doors of a chicken 
processing plant, improving OSHA enforcement of workplace safety was 
cited as an imperative need. Yet 11 years later, the GAO found in its 
report (02-925) on day laborers that the ``WHD's (Wage Hour Division) 
and OSHA's investigative procedures make it difficult to detect 
violations of worker protection laws involving day laborers who often 
have non-standard work arrangements.'' \10\ The GAO report from July 
2006 confirms this difficulty, adding that the lack of proper employee 
classification makes this protection even more difficult.
    These protections are made even more important by some recent 
findings of the Labor Department. The Department of Labor has found 
that all the poultry processing plants--which employ nearly half 
African-American and half immigrant workforce--surveyed by the Wage and 
Hour division were out compliance with Federal wage and hour laws in 
2000.\11\ Furthermore, DOL has ``estimated more than half the country's 
garment factories violate wage and hour laws, and more than 75 percent 
violate health and safety laws.'' \12\ The poultry industry employs 
more than 231,000 people nationally; the workforce of this industry 
alone is bigger than the total number of workers the US Department of 
Labor (Wage and Hour Division) recovered back pay for in 2005. If the 
Bureau of Labor Statistics is correct, countless thousands of American 
workers are being denied their hard earned wages due to a lack of 
enforcement by the DOL.
    The simple truth is that within our current system there are laws 
in place that are designed to protect all workers, regardless of 
status, against these threats to their economic security. The ability 
of employers to wrongfully classify a large number of employees as 
contingent has allowed employers to circumvent current laws. In 
addition, the inability to properly track and monitor the growing 
underground cash-based labor market provides employers with additional 
opportunities to monopolize on the increased instability in the labor 
market.
    Contingent employment is composed of both legal and illegal, native 
and immigrant workers. As long as the U.S. labor market continues to 
operate at less than its full potential, and wages for workers at the 
bottom of the earnings distribution continue to stagnate, economic 
security will be difficult to achieve. Sources of economic insecurity 
punish citizens and non-citizens alike. Millions of workers, native and 
immigrant, legal and illegal are faced with limited job opportunities. 
These workers need a government that will provide better oversight to 
ensure that they are paid the full-value of their wages and remain 
protected from harm in the workplace. The Administration and Congress 
must act responsibly to create conditions that foster job growth, and 
provide strong enforcement of workforce protection laws. Securing our 
borders is not likely to secure worker's jobs, worker's pay, or 
worker's safety.
                                endnotes
    \1\ George J. Borjas The Economics of Immigration Journal of 
Economic Literature, Vol. 32, No. 4. (Dec., 1994), pp. 1667-1717. 
George J. Borjas Does Immigration Grease the Wheels of the Labor 
Market? Brookings Papers on Economic Activity, Vol. 2001, No. 1. 
(2001), pp. 69-119.
    \2\ David Card Immigrant Inflows, Native Outflows, and the Local 
Market Impacts of Higher Immigration. Journal of Labor Economics, Vol. 
19, No. 1. (Jan., 2001), pp. 22-64.
    \3\ GAO Report 06-656, Employment Arrangements: Improved Outreach 
Could Help Ensure Proper Worker Classification, July 2006, p.1.
    \4\ Ibid., p. 1.
    \5\ Ibid., p. 35.
    \6\ http://www.dol.gov/esa/whd/statistics/200531.htm
    \7\ GAO Report 06-65, p. 14.
    \8\ Ibid.
    \9\ Ibid., p. 21-22.
    \10\ GAO Report 02-925, Worker Protection: Labor's Efforts to 
Enforce Protections for Day Laborers Could Benefit from Better Data and 
Guidance, September 2002, p.3.
    \11\ U.S. Department of Labor Poultry Processing Compliance Survey 
Fact Sheet U.S. Department of Labor January 2001
    \12\ AFL-CIO, ``Responsible Reform of Immigration Laws Must Protect 
Working Conditions for all Workers in the U.S,'' March 01, 2006, 
(http://www.aflcio.org / aboutus / thisistheaflcio / ecouncil / 
ec02272006e.cfm).
                                 ______
                                 
    Chairman Norwood. Thank you, Dr. Wenger.
    Mr. D.A. King is the founder and president of the Dustin 
Inman Society, a coalition of citizens dedicated to educating 
the Georgia public on the consequences of illegal immigration.
    Mr. King writes a column on illegal immigration in the 
Marietta Daily Journal and is featured in several other Georgia 
newspapers.
    Mr. King is a guest host on nationwide radio broadcasts and 
is a frequent guest on radio shows addressing illegal 
immigration.
    Mr. King is a retired Marine and a 22-year resident of 
Marietta, Georgia.
    Welcome, Mr. King, and you are now recognized.

               STATEMENT OF D.A. KING, PRESIDENT,
                    THE DUSTIN INMAN SOCIETY

    Mr. King. Thank you very much, Mr. Chairman. I wish I were 
a retired Marine, I only served for 2 years, but thank you very 
much.
    Thank you again, Mr. Chairman, members of the Subcommittee, 
I am D.A. King and I am President of The Dustin Inman Society. 
We are a coalition of citizens and non-citizens who are 
demanding that our laws be enforced. Our goal is to educate the 
public and ourselves on the consequences of illegal 
immigration.
    I would like to begin by saying that my adopted sister is a 
real, legal immigrant, who happens to come from Korea. Our 
focus is on illegal immigration. At least it will be unless the 
Senate Bill changes illegal immigration into open borders. Then 
we will begin to attack too much immigration. I am very 
grateful to be here today.
    Because I have made a decision to oppose illegal 
immigration on a full time basis, literally thousands of 
Americans have come to me via e-mail, telephone and in person 
and told me stories about their experiences because of illegal 
immigration. They share very common questions, observations and 
complaints. Normally they ask why employers are allowed to hire 
illegal labor in violation of existing laws, and why a nation 
that has put man on the moon and built and maintains more than 
46,000 miles of interstate highway, cannot use that same 
expertise to secure our borders and prevent illegal crossings 
into our country.
    Most Americans are aware of the one time amnesty of 1986. 
They can see very clearly that it did nothing to stop illegal 
immigration. It did not stop employers from hiring illegal 
aliens. It did nothing to secure our borders. Ignoring the 
climate of fear that has been created to intimidate them, 
Americans are now coming out of the shadows and asking why they 
are required to obey American laws while many employers and 
bankers and people with no legal right to be in this country 
suffer no punishment for not obeying the same laws.
    For many of us, Congressman, the new American dream is to 
have borders as secure as are Mexico's and immigration and 
labor laws that are as enthusiastically enforced.
    One of the most brilliant examples of the Senate's failure 
to protect the American worker is a provision in 2611 that 
would effectively expand the Davis-Bacon Act of 1931 to allow 
foreign workers to be paid a different and higher prevailing 
wage than American workers doing the same job.
    I think the Senate bill also, respectfully, requires us to 
accept a redefinition of some very basic English words. Not 
many of us consider a worker as temporary if that worker is 
offered a path to citizenship with permanent resident status 
when his work visa expires. Guest workers, by definition, and 
if indeed truly noted, should be made to clearly understand 
that the period of employment in the United States is finite, 
and at the end of that period, they must return home, and that 
they are not a temporary or a guest worker if they bring their 
family and set up permanent residence and expect to spend the 
rest of their life in the United States.
    Not many of us believe that American taxpayers should be 
required to subsidize that low wage labor. It is sad but true, 
I am personally acquainted with Americans who have lost their 
family businesses because they refused to violate existing 
immigration and employment laws, and could not compete with 
others who lacked the integrity to make similar decisions.
    A friend of mine, a man named Charles Shafer of 
Lawrenceville, Georgia is one example. Mr. Shafer is a second 
generation construction framer--a carpenter--who has declared 
bankruptcy and endured years of unemployment due to an effort 
to compete with contractors who do hire illegal labor for 
considerably less than Mr. Shafer was making 10 years ago.
    Another friend, Mr. Jeff Hermann of Oxford, Georgia, who I 
believe is outside holding a sign right now saying ``Secure our 
borders, enforce our laws,'' is in the pine straw, landscaping 
business. He has lost considerable business and earnings to 
illegal labor and has been forced to apply for welfare as a 
result.
    Mr. Shafer's and Mr. Hermann's stories are but two of 
thousands that have come to my attention from Americans who are 
working for a better life in their own country. None of them 
sees the Senate Bill as a remedy to their plight. I am 
acquainted with many taxpaying Americans who have been denied 
employment simply because they do not speak Spanish. I have 
never spoken to anyone who can relate a story to me about wages 
going up in the United States because of illegal immigration.
    It is important and I want everybody to realize this, 
please, no reasonable person that I am aware of blames anyone 
for wanting to live or work in the United States, just as no 
one I am aware of is of the opinion that we can continue to 
allow any worldwide willing worker to replace Americans in our 
job market or lower American wages. As American citizens, we 
understand that if it is possible to verify a credit card 
transaction in our local department stores, that it is also 
possible to verify employment eligibility in the United States 
without putting an undue burden on the employers.
    I myself have enrolled the Dustin Inman Society in the 
Basic Pilot Program. I have verified myself as being eligible 
to work in this country. It took me about 6 seconds. I would 
respectfully make the educated observation that making the 
Basic Pilot Program mandatory would be one of the first goals 
of Congress.
    I will close, and I thank you for your time. I respectfully 
implore you, Congressmen, to please do all that is possible 
from your elected office to secure American borders, to restore 
the rule of law to our nation and to create a state of fairness 
for the American workers. I do not believe that the Senate Bill 
will do any of those things.
    Thank you very much. I will be glad to take questions 
later.
    [The prepared statement of Mr. King follows:]

  Prepared Statement of D.A. King, President, the Dustin Inman Society

    Mr. Chairman, members of the Subcommittee, good morning.
    My name is D.A. King. I am president of The Dustin Inman Society, 
which is a Georgia-based coalition of Americans of many backgrounds and 
ethnicities dedicated to educating the public on the consequences of 
illegal immigration.
    I am grateful for the opportunity to provide testimony today 
regarding the recently passed Senate bill addressing our borders, the 
illegal immigration crisis in America and the impact of the Senate 
legislation on the American workforce.
    In an effort to make clear my own level of concern with the illegal 
immigration crisis in our nation, I would like to make it known that 
three years ago I put aside my own business and have exhausted my 
personal savings in a full-time effort to educate myself and others on 
the issue.
    As someone who has chosen to be active in a grass-roots effort to 
encourage my government to secure our borders and equally apply 
American law, I am in constant contact with countless American citizens 
on the issue--including immigrants who have obeyed American laws in 
their effort to join the American family.
    My adopted sister is a real, legal, immigrant who came from Korea.
    The thousands of concerned Americans who have contacted me over the 
years share a common theme in their questions, observations and 
complaints. They ask why employers are allowed to hire illegal labor in 
violation of existing laws--and why a nation that has put men on the 
moon and has built, and maintains, more than 46,000 miles of interstate 
highways has not used that expertise to stop illegal entries into their 
country.
    Most Americans are aware of the ``one time'' amnesty of 1986. They 
see that it did nothing to secure our borders, end illegal immigration 
or discourage employers from hiring illegal aliens. Despite the 
concerted effort of many in the Senate to label S 2611 as anything but 
amnesty-again, most Americans with whom I speak understand it to be 
exactly that.
    Ignoring the climate of fear that has been created to intimidate 
them, American citizens are coming out of the shadows and asking why 
they are required to obey American laws while many employers, bankers 
and people with no legal right to be in the U.S. suffer no punishment 
for not doing so.
    I have no acceptable answers for them. I sadly admit that I find 
myself asking similar questions.
    For many of us, the new American Dream is to have borders as secure 
as are Mexico's and immigration and employment laws that are as 
enthusiastically enforced.
    Absent their ability to speak here, I respectfully ask that today I 
be regarded as a humble voice of the millions of Americans who reject 
the senate bill and its intent in its entirety.
    Time constraints prohibit even a brief outline of the many flaws in 
the Senate bill. Among those mistakes, one of the most brilliant 
examples of the senate's failure to protect the American worker is the 
provision that would effectively expand the Davis Bacon Act of 1931 to 
allow foreign workers to be paid a different--and higher--``prevailing 
wage'' than Americans who work at the same job.
    While most Americans--including myself--are not experts on Davis 
Bacon, we find it easy to understand the injustice involved if the 
effect of the senate bill would be to ``legalize'' illegal labor and 
then provide an avenue whereby that labor then be rewarded with pay and 
benefits not available to all American workers.
    Further, most Americans understand that the constant reference to 
``temporary'' or ``guest workers'' in the senate bill amounts to an 
attempt to redefine very basic words in the English language.
    Not many of us consider a worker as ``temporary'' if that worker is 
offered a path to citizenship with permanent resident status at the end 
of the allotted time on his work visa. I have many American friends who 
have been employed in countries all over the world as guest workers. 
All of them report the laws that demand their timely departure from the 
host nation at the prescribed date are vigorously enforced.
    None of these former guest workers were offered citizenship in the 
nations in which they temporarily worked.
    Guest workers, by definition, and if indeed truly required, should 
be made to clearly understand that the period of employment in the 
United States is finite and that bringing their families and setting up 
permanent residence is not part of the bargain.
    American taxpayers should not be required to subsidize the low wage 
labor.
    We do not have time here today for me to share the many stories 
from citizens who report instances of their wages decreasing because of 
competition from illegal labor and the willingness of employers hiring 
that labor in violation of existing law while bypassing Americans as 
job applicants.
    Sadly, I am personally acquainted with Americans who have lost 
their family businesses because they refused to violate immigration and 
labor laws and could not compete with others in their trade who lacked 
the integrity to make similar decisions.
    Mr. Charles Shafer of Lawrenceville, Georgia is but one example. 
Mr. Shafer is a second generation framing contractor--a carpenter--who 
has declared bankruptcy and endured years of unemployment due to 
competing contractors hiring illegal labor who will work for 
considerably less than he was earning ten years ago.
    With his permission, I attach to my written testimony Mr. Shafer's 
account of his experiences and ask that it be noted that it was written 
more than two years ago.
    I also submit a written account from Mr. Jeff Hermann of Oxford, 
Georgia who operates a pine straw/landscaping business. Mr. Hermann has 
lost considerable business and earnings to illegal labor and has been 
forced to apply for welfare as a result. Mr. Hermann has agreed to 
having his story become record as well.
    Mr. Shafer and Mr. Hermann share very similar stories and are but 
two of thousands that have come to my attention from Americans who are 
working for a better life in their own country.
    None of them sees the Senate bill as a remedy to their plight.
    I am acquainted with many tax-paying Americans who have been denied 
employment because they do not speak Spanish.
    I have never spoken to anyone who can recount examples of American 
wages increasing because of immigration, either legal or illegal.
    Most Americans understand that low-skilled jobs in America pay many 
times more than the same jobs in most of the world. The American people 
recognize that fact to be a magnet that draws illegal immigration into 
the United States. No reasonable person I am aware of blames anyone for 
wanting to live and work in the United States, just as no one I am 
aware of is of the opinion that we can continue to allow any worldwide 
``willing worker'' to replace Americans in our job market.
    We also understand that if it is possible to verify a credit card 
transaction at our local department store, it is also possible to 
verify employment eligibility in the United States without putting an 
undue burden on American employers.
    As president of the Dustin Inman Society, I have enrolled in the 
Basic Pilot Program. I am a program administrator and have used that 
system to verify my own eligibility to work in the United States. Until 
a better system is designed, it is my educated observation that one 
immediate goal for Congress should be to make Basic Pilot verification 
mandatory and increase funding to do so.
    Please allow me to conclude by saying that with the Immigration 
Reform and Control Act of 1986, we were promised that Americans would 
have secure borders and equal protection under the law in the 
workplace. Not many of us are willing to remain silent while similar 
promises are made without real enforcement teeth in whatever new 
legislation is made into law.
    I respectfully implore you to do all that is possible from your 
elected office to secure American borders, restore the rule of law to 
our nation and create a state of fairness to American workers.
    Remembering the amnesty of 1986, it is my belief that the Senate 
legislation would accomplish none of these things.
    Thank you Congressmen.
Written Account of Charles Shafer, Carpenter, Lawrenceville, GA
    My family has been in the residential construction business in one 
form or another for over 5 generations now. In the past 2 generations 
of my family most of us (my dad, 3 brothers, 6 uncles, and several 
cousins) have been residential framing contractors-carpenters.
    As recently as 5-6 years ago we were the most sought after framers 
in the business. Our reputations preceded us as being the best of the 
best. Now we are all either unemployed or are struggling to survive 
economically.
    I started my own business in 1988. Until that point I had worked 
for my father mostly. We have always had so much work at times we would 
turn work down.
    I felt I had a very successful and lucrative business until late 
1998 and the beginning of the year 1999. Then around the end of 1999 
and the start of 2000 the calls slowed down and most of us were not 
getting as many from the builders whom we had worked for in the past as 
well as no calls at all from any new builders.
    I remember it was around the end of 1999 it seemed on a daily basis 
someone would come by the job and ask if I needed help or if I knew 
anyone who did. They always made the statement even then ``I can have 
as much help as you need here in the morning''. Also I would like to 
state at that time I was working 2 legal immigrants with proper 
documentation, social security numbers, a driver's license, etc. (so I 
believed)
    I tried every thing I could think of for the next year or so to 
save my business and career. At the time I even tried not only getting 
out and riding around trying to meet new people, leaving business cards 
on job sites, but also sending mailings to almost every builder listed 
in the Atlanta Home Builders Association announcing my availability and 
desire to work. These efforts were basically fruitless.
    Every where I went I saw more and more what appeared to be Mexican 
crews and less and less American crews doing the work. For a short 
period of time thereafter, about a year or so, instead of the most of 
my work being all new work it became more in the field of remodeling. 
That eventually went away also.
    During the year 2000 the phone calls started slowing down and 
eventually stopped. Even though the residential construction in Atlanta 
was obviously ongoing at an unbelievable pace I could not find work. 
Whenever I did find a new subdivision starting and some one to talk to 
I was told I was the wrong color and I have been told I would not work 
for the wages they paid. At the wages they were offering, they were 
right, there was no way to compete.
    There's not any way then or now in my mind to compete with illegal 
labor. The work I was offered, when I was offered work was at such a 
reduced standard wage, less than half of what the same work paid only a 
few years prior, a person could not remain legal and still endure all 
the labor cost or insurance cost or taxes associated with trying to run 
a proper business.
    I even tried for a year or so to employ a mixture of Americans and 
Mexicans.
    Then all Mexicans. It doesn't take long for them to become 
Americanized. By this I'm referring to the fact the only reason they 
wanted to work for me instead of one of their own was because it did 
not take them long to come to the conclusion an American employer would 
pay them a higher wage than a Mexican employer. Then I became aware 
that they were all illegally here in the U.S. This resulted in my 
having to pay all associated taxes on their behalf. That's when I 
decided it was not worth it anymore and basically gave up. I wasn't 
getting any phone calls for work and you surely couldn't ride around 
and find any work. The illegals had it all.
    Even though I have never announced to anyone in this field of my 
intentions to quit, to this date I have only had 2 phone calls for work 
in the past 3 years or so. These came from people I had done personal 
homes for in the past not from any builders. More or less I have tried 
to explain to them I had retired, not by choice, but because I could 
not compete against an ever increasing immigrant population.
    I used to have to be very careful when I was talking to someone not 
to use the ``illegal'' terminology. Whenever I did people would respond 
with an ignorant comment to the effect these people were not illegal 
and I would respond by stating I had personally met several hundred 
these past few years and not a one were legal.
    Since post 9-11 I have tried repeatedly to find work. My families 
work (the one or two remaining) is so sparse they can offer little or 
no help and still survive themselves. At almost 51 years old, even 
though I feel I have many good years left, no one I have met wants to 
employ me.
    I have applied for many Superintendent positions to no avail. 
Hardly a response for so long, I finally gave that avenue up also. Why 
not I often ask myself. I have so much experience and knowledge about 
residential construction from start to finish.
    It is, believe it or not, almost understandable to me because of 
the availability of such a younger work force now. Plus I don't speak 
Spanish. I also usually know more about the business, codes etc., than 
the people I have tried to go to work for and I think that may have 
intimidated them some.
    We as Americans will work and have worked with the Mexicans. It's a 
fact they will not return the favor. Do you know of any American who 
works for a Mexican in the construction business? I don't.
    I was taught from day-one a home is usually the largest investment 
a person makes in life. It was instilled into my natural behavior from 
childhood to do the very best job possible for a person and not to cut 
corners or to walk away from an error or mistake. The majority of my 
relatives had the same raising and that's what made us once upon a time 
the most desirable in the residential construction field. Now this 
business seems to be only about profit margins and how fast you can 
finish a job. Not many seem to care about quality anymore.
    I have continually searched for a job and would now accept one even 
if its a floor sweeping job. But I have come to the conclusion that I 
am unemployable especially since 9-11 and with all the illegal 
immigrants available.
    We as a family of 5, a daughter 14, a daughter 10, and a son 5, 
have barely survived these past few years. My wife and I filed 
bankruptcy last year. We had already refinanced our modest home which 
we only owed 3 years on trying to survive.
    I am a proud man even to this day. I have absolutely refused any 
hand outs in life and will not accept one now.
    Please understand residential framing/construction was to be a 
career I have looked forward to since childhood. It was a dream job for 
me even though the work was hard and the hours long. The pay while it 
lasted was great. We lived the American dream--if we wanted something 
we got it and got up the next day went to work and paid for it.
    I can't imagine what I will do in life now that the illegal 
immigrants are present in such enormous numbers in today's society. I 
am adamant I will figure it out, how and which way to go; right now I'm 
not sure. I'm just not willing to give up just yet. My family surely 
deserves more than what illegal immigration has brought into their 
lives.
    If you have any more questions or need anything else please feel 
free to contact me.
                                       Charles Shafer, Jr.,
                                                 Lawrenceville, GA.
Written Account of Jeff Hermann, Landscaper, Oxford, GA
    My name is Jeff Hermann. My partner and I run a small landscaping 
business called ``The Pinestraw Guys''. We've been at it now for almost 
eight years. Our work is fairly labor-intensive, as it involves 
spreading the pinestraw in the decorative `islands' of peoples' homes 
and businesses.
    When we started the business, we didn't have any customers, so we'd 
load up the truck and knock on doors all day looking for jobs. It was 
tough at first, but as time went by we grew. After two years we had 
enough customers to stop knocking on doors and hire someone to help us.
    Our customers loved our work and referred their friends and 
neighbors to us.
    Life was getting pretty good. We hired a few more guys, and the 
business continued to grow.
    That's all changed now.
    About two and a half years ago we started noticing a drop-off in 
our business.
    Several of our accounts had stopped calling. When we called them to 
find out why, they said simply that we had been under-bid by a 
competitor. I had a hard time believing that because we operate on a 
very small mark-up to begin with. Now, I'm not a bashful man by any 
means, so I called my competition and asked them how they could do it 
so cheap.
    ``Simple,'' was the reply, ``I hired some Mexicans down at the Home 
Depot. They're illegals, so they work really cheap.''
    I know of several landscape contractors who now do the same thing. 
They pay these illegal aliens 5 or 6 bucks an hour, cash under the 
table of course, and pocket the difference. Well, MOST of the 
difference. The rest they give to their customers in the form of lower 
prices. That's all good for the contractor and the customer, but not so 
good for me.
    Suddenly I'm in competition with someone who's willing to do this 
work for minimum wage or less.
    By last fall my income had dropped over 50%, and I had to apply for 
food stamps in order to feed my kids. I also applied for Medicaid 
because I could no longer afford my health insurance. I qualified for 
the food stamps (Thank God) but my income, less than $200 a week by 
then, was too high to get Medicaid. While talking to my caseworker 
about this, she let it slip that if I had been an illegal alien, I 
would have qualified for `emergency' Medicaid and been covered by it 
that day. Needless to say, my jaw almost hit the floor.
    Let me re-cap what I've been through because of illegal 
immigration.
    My business has been cut in half.
    I've had to lay off American workers.
    I can no longer afford health insurance.
    I've had to take welfare.
    And to top it off, I can't even get Medicaid.
    I'm not asking for handouts, I'm asking for that `level playing 
field' our President loves to espouse. Secure the border. Deport 
illegal aliens. Enforce the law. Give me my life back.
    Please.
                                              Jeff Hermann,
                                                        Oxford, GA.
                                 ______
                                 
    Chairman Norwood. Thank you, Mr. King.
    Next, we have Mr. Terry Yellig, a member of the law firm of 
Sherman, Dunn, Cohen, Leifer and Yellig in Washington, D.C. Mr. 
Yellig frequently represents the Building and Construction 
Trades Department of AFL-CIO before courts and Federal and 
state administrative agencies and provides legal advice 
concerning legislation.
    Mr. Yellig, you are now recognized.

  STATEMENT OF TERRY YELLIG, ATTORNEY, SHERMAN, DUNN, COHEN, 
     LEIFER & YELLIG, P.C., ON BEHALF OF THE BUILDING AND 
            CONSTRUCTION TRADES DEPARTMENT, AFL-CIO

    Mr. Yellig. Thank you, sir.
    I appreciate the opportunity to appear today before this 
Subcommittee because--and in addition to comments and 
statements that have been made over the past 2 months 
concerning the prevailing wage requirement applicable to the 
recruitment and employment of foreign guest workers as provided 
for in Title IV of S. 2611--I really want to address and there 
have been comments by members of the panel already to that 
effect. I think many, if not most, of these comments and 
statements generally reflect a misunderstanding and a confusion 
concerning the intended purpose and effect of the prevailing 
wage requirement in S. 2611 that requires some clarification 
and explanation.
    The Senate Bill creates a new temporary guest worker 
program called the H-2C visa program. The bill includes 
numerous labor protections intended to assure that admission of 
H-2C guest workers does not adversely affect American workers' 
wages and living standards. I want to repeat that. The purpose 
of these labor protections is, first and foremost, to ensure 
that the admission of an H-2C guest worker does not adversely 
affect American workers' wages and living standards, while at 
the same time preventing exploitation of the guest workers.
    S. 2611 prohibits employers from hiring temporary foreign 
guest workers under the H-2C visa program unless the employers 
have first tried to recruit American workers for a job vacancy. 
In attempting to recruit American workers--and when I use the 
term American workers, I mean citizens and others who are not 
native-born but are in the United States legally, I am not 
talking about undocumented aliens in any way, shape or form. 
And in fact, Title IV does not address undocumented workers. 
Title VI does and there is no prevailing wage requirement that 
applies to undocumented aliens under Title VI, it does not 
apply.
    In attempting to recruit American workers, employers must 
offer to pay not less than the wage rate they actually pay 
comparable employees in their incumbent work force or the 
prevailing wage for the occupation, whichever is higher. Then, 
in the event that the employer is unable to recruit a qualified 
American to fill the job vacancy, the employer must submit an 
application to the United States Department of Labor for a 
determination and certification. The certification by the 
Department of Labor confirms that American workers who are 
qualified and willing to fill the vacancy are not available and 
that employment of a foreign guest worker will not adversely 
affect the wages and living standards of American workers 
similarly employed.
    The Senate Bill contains additional provisions intended to 
ensure that employers do not hire temporary foreign guest 
workers to replace American workers who are on layoff, on 
strike or locked out of their jobs in the course of a labor 
dispute. In addition, the Senate Bill requires employers to 
provide the same benefits and working conditions to temporary 
foreign guest workers that they provide to their American 
employees in similar jobs. Furthermore, employers would be 
required, under the Senate Bill, to provide workers' 
compensation insurance to temporary foreign guest workers they 
hire.
    In addition, there is a provision in Title IV that would 
prohibit an employer of a temporary guest worker from 
classifying that person as an independent contractor. And I 
think that is a very important provision as well, for many of 
the same reasons that Dr. Wenger referred to when he was 
talking about the contingent workforce.
    Most of the criticism of the prevailing wage requirement 
applicable to foreign guest workers under this H-2C visa 
program in S. 2611 is that it entitles these workers to payment 
of a higher wage rate than American workers similarly employed 
receive. This is a misperception of the prevailing wage 
requirement in the bill, based on a misunderstanding of its 
purpose and intent.
    The perceived impact of foreign workers on our labor market 
has been a major issue throughout the history of the United 
States immigration policy. And in fact, as I indicate in my 
written statement, going back to 1885, the original immigration 
laws absolutely prohibited the admission of foreign aliens for 
the purpose of employment. It was not until 1952 that Congress 
passed the Immigration and Nationality Act, which, for the 
first time, permitted the admission of aliens for the purpose 
of employment. And at that time, Congress included in the bill 
as Section 212, which requires the Secretary of Labor to 
certify to the Attorney General and the Secretary of State that 
there are not sufficient Americans ``able, willing and 
qualified'' to perform the work proposed to be performed by the 
alien immigrant, and that the employment of such foreign 
workers would not adversely affect the wages and living 
standards of similarly employed American workers.
    For many years, beginning in 1967--and I think this is 
important to understand--the Department of Labor's labor 
certification regulations implementing the Immigration Act 
provided that in order to determine whether prospective 
employment of both immigrants and non-immigrants seeking to 
perform skilled or unskilled labor in the United States, will 
adversely affect wages or working conditions of American 
workers, the Secretary of Labor must determine, under this 
provision, whether such employment will be for wages and fringe 
benefits not less than those prevailing for American workers 
similarly employed in the area of intended employment of the 
foreign worker.
    Thus, from 1967 until March 28, 2005, the Department of 
Labor's regulations implementing the labor certification 
requirement in the Immigration Act provided that, where 
available, the prevailing wages applicable to foreign workers 
shall be the wages, the rates determined to be prevailing in 
the occupations and in the localities involved, pursuant to the 
provisions of the Davis-Bacon Act or the McNamara-O'Hara 
Service Contract Act, depending on the occupation. These 
prevailing wage rates are applicable to job openings for which 
employers sought Department of Labor certification, without 
regard to whether they were otherwise covered by the Davis-
Bacon Act or the McNamara-O'Hara Service Contract Act. 
Consequently, the idea of using prevailing wage rates 
determined under either the Davis-Bacon or the Service Contract 
Act is not new or expansionary. It has been in effect since at 
least 1967.
    In fact, until the 1990's, the only time the Department of 
Labor regulations permitted use of a prevailing wage rate other 
than one issued under the Davis-Bacon or the Service Contract 
Act for alien labor certification purposes was when there was 
no such rate available. And in those instances, the Department 
of Labor used as a standard the Bureau of Labor Statistics' 
most appropriate wage rates.
    In May of 2002, however, the Secretary of Labor published 
proposed changes in the labor certification regulations, which 
essentially codified the Department of Labor's guidelines 
permitting use of prevailing wage rates based on the wage 
component of the BLS--the Bureau of Labor Statistics--
Occupational Employment Statistics wage survey or employer 
provided wage survey data that meets the requirements described 
in the Department of Labor guidelines. In addition, the 
Secretary's proposed regulations that eliminated mandatory use 
of the prevailing wages determined pursuant to the Davis-Bacon 
Act and the Service Contract Act where otherwise applicable. 
For this reason, the Building and Construction Trades 
Department believes and urged the Senate to codify a 
requirement that applies in the first place, the Davis-Bacon 
Act or the Service Contract Act, as the prevailing rate for 
purposes of determining whether there is an adverse impact on 
Americans' wages and living standards whenever there is an 
application for admission of a temporary guest worker. 
Otherwise, the American people can have no real confidence that 
the admission of a foreign guest worker is not just as a source 
of cheap labor that will undermine the wages and living 
standards of American workers. And that is the purpose, and 
that is the intended effect, of this provision. It is to 
protect American workers.
    And finally, I would like to point out that if there was a 
situation where an employer found that it was necessary to hire 
a foreign guest worker under this program and pay, let us say, 
the Davis-Bacon rate if it was a construction job; if that was 
the circumstance and in reality that wage rate was higher than 
that employer is paying the rest of his workforce, in reality, 
the truth is that that employer will either opt not to hire the 
foreign guest worker because of the impact it will have on his 
current workforce, or he will probably adjust the wages of his 
incumbent workforce upwards so as to be the same as the foreign 
guest worker. Either way, it is not undermining or adversely 
affecting American workers' wages and living conditions. If 
anything, it will benefit them. And that is important, because 
I have heard so much misunderstanding about the purpose and 
effect of this, and it is just wrong.
    Thank you.
    [The prepared statement of Mr. Yellig follows:]

Prepared Statement of Terry R. Yellig, Attorney, Sherman, Dunn, Cohen, 
   Leifer & Yellig, P.C., on Behalf of the Building and Construction 
                       Trades Department, AFL-CIO

    Mr. Chairman: My name is Terry Yellig, and I am an attorney with 
the law firm of Sherman, Dunn, Cohen, Leifer & Yellig, which is located 
in Washington, D.C. I am appearing today on behalf of the Building and 
Construction Trades Department, AFL-CIO, the eleven (11) national and 
international labor unions affiliated with it, and more than three 
million workers engaged in the building and construction industry in 
the United States.
    I appreciate the opportunity to appear today before this 
subcommittee because there have been numerous erroneous comments and 
statements made over the past two months concerning the prevailing wage 
requirement applicable to the recruitment and employment of foreign 
guest workers in Title IV of S. 2611, the Comprehensive Immigration 
Reform Act of 2006, passed by the Senate in May 2006, which I want to 
address. These comments and statements generally reflect 
misunderstanding and confusion concerning the intended purpose and 
effect of the prevailing wage requirement in S. 2611 that requires some 
clarification and explanation.
    The Senate bill creates a new temporary foreign guest worker 
program called the ``H-2C visa program.'' The bill includes numerous 
labor protections intended to assure that admission of H-2C guest 
workers does not adversely affect American workers wages and living 
standards while at the same time preventing exploitation of the foreign 
guest workers. S. 2611 prohibits employers from hiring temporary 
foreign guest workers under the ``H-2C visa program'' unless they have 
first tried to recruit American workers for a job vacancy. In 
attempting to recruit American workers, employers must offer to pay not 
less than the wage rate they actually pay comparable employees in their 
incumbent workforce or the prevailing wage for the occupation, 
whichever is higher. Then, in the event an employer is unable to 
recruit a qualified American to fill the job vacancy, the employer must 
submit an application to the U.S. Department of Labor for a 
determination and certification. The certification confirms that 
American workers who are qualified and willing to fill the vacancy are 
not available, and that employment of a foreign guest worker will not 
adversely affect the wages and living standards of American workers 
similarly employed.
    The Senate bill contains additional provisions intended to ensure 
that employers do not hire temporary foreign guest workers to replace 
American workers who are on lay off, on strike, or locked out of their 
jobs in the course of a labor dispute. In addition, the Senate bill 
requires employers to provide the same benefits and working conditions 
to temporary foreign guest workers that they provide to their American 
employees in similar jobs. Furthermore, employers would be required 
under the Senate bill to provide workers compensation insurance to 
temporary foreign guest workers they hire.
    Most of the criticism of the prevailing wage requirement applicable 
to foreign guest workers under the ``H-2C visa program'' in S. 2611 is 
that it entitles them to payment of a higher wage rate than American 
workers similarly employed. This is a misperception of the prevailing 
wage requirement in S. 2611 based on a misunderstanding of its purpose 
and intent.
    The perceived impact of foreign workers on our labor market has 
been a major issue throughout the history of U.S. immigration policy 
and law, because such workers can present a threat of unfair wage 
competition. This perception is because foreign workers whose 
desperation for jobs, low cost of living in their countries of origin, 
and restricted status in the United States can cause them to accept 
wages and living standards far below U.S. standards. Thus, Congress 
enacted the Foran Act in 1885, which made it unlawful under any 
circumstances to import foreign workers to perform labor or service of 
any kind in the United States.
    This bar on employment-based immigration lasted until 1952, when 
Congress enacted the Immigration and Nationality Act, which brought 
together many disparate immigration and citizenship statutes and made 
significant revisions in the existing laws. The 1952 Act authorized 
visas for foreigners who would perform needed services because of their 
high educational attainment, technical training, specialized 
experience, or exceptional ability. Prior to admission of these 
employment-based immigrants, however, Section 212 of the 1952 Act 
required the Secretary of Labor to certify to the Attorney General of 
the United States and the Secretary of State that there were not 
sufficient American workers ``able, willing and qualified'' to perform 
this work and that the employment of such foreign workers would not 
``adversely affect the wages and living standards'' of similarly 
employed American workers. Under this procedure, the Secretary of Labor 
was responsible for making a labor certification. In 1965, Congress 
substantially changed the labor certification procedure by placing the 
responsibility on prospective employers of intended immigrants to file 
labor certification applications with the Secretary of Labor prior to 
issuance of a visa.
    The current statutory authority that conditions admission of 
employment-based immigrants on labor market tests is set forth in the 
exclusion portion of the Immigration and Nationality Act, which denies 
entry to the United States of immigrants and nonimmigrants seeking to 
work without proper labor certifications. The labor certification 
ground for exclusion covers both foreigners coming to live as permanent 
legal residents and as temporarily admitted nonimmigrants. Section 
212(a)(5) of the Immigration and Nationality Act, 8 U.S.C. 
Sec. 1182(a)(5), states:
    Any alien who seeks to enter the United States for the purpose of 
performing skilled or unskilled labor is inadmissible, unless the 
Secretary of Labor has determined and certified to the Secretary of 
State and the Attorney General that-(l) there are not sufficient 
workers who are able, willing, qualified (or equally qualified in the 
case of an alien described in clause (ii)) and available at the time of 
application for a visa and admission to the United States and at the 
place where the alien is to perform such skilled or unskilled labor, 
and 01) the employment of such alien will not adversely affect the 
wages and working conditions of workers in the United States similarly 
employed.
    For many years beginning in 1967, the Department of Labor's labor 
certification regulations implementing Section 212(a)(14) (since 
recodified as Sec. 212(a)(5)) provided that, in order to determine 
whether prospective employment of both immigrants and nonimmigrants 
seeking to perform skilled or unskilled labor in the United States will 
adversely affect ``wages'' or ``working conditions'' of American 
workers, the Secretary of Labor must determine whether such employment 
will be for wages and fringe benefits no less than those prevailing for 
American workers similarly employed in the area of intended employment 
of the foreign worker.
    Thus, until March 28, 2005, the Department of Labor's regulations 
implementing the labor certification requirement in Section 212(a)(5) 
of the Immigration and Nationality Act provided that, where available, 
the prevailing wages shall be the rates determined to be prevailing for 
the occupations and in the localities involved pursuant to the 
provisions of the Davis-Bacon Act or the McNamara-O'Hara Service 
Contract Act. See e.g., 32 Fed. Reg. 10932 (July 26, 1967) (codified as 
29 C.F.R. Sec. 60.6). These prevailing wage rates were applied to job 
openings for which employers sought Department of Labor certifications 
without regard to whether they were otherwise covered by the Davis-
Bacon Act or the McNamara-O'Hara Service Contract Act. Consequently, 
the idea of using prevailing wage rates determined pursuant to the 
Davis-Bacon Act and the McNamara-O'Hara Service Contract Act is not new 
or expansionary.
    In fact, until the 1990's, the only time the Department of Labor 
regulations permitted use of a prevailing wage rate other than one 
issued under the Davis-Bacon
    Act or the McNamara-O'Hara Service Contract Act for alien labor 
certification purposes was when there was no such rate available. See 
20 C.F.R. Sec. 656.40(a)(2) (2004). In that case, DOL guidelines, which 
were initially adopted in October 1997 and modified in April 1999, 
provide that prevailing wage rates for labor certification purposes can 
be based on wage surveys conducted under the wage component of the 
Bureau of Labor Statistics' expanded Occupational Employment Statistics 
(``OES'') program or an employer-provided wage survey. DOL's guidelines 
further provide that alternative sources of wage data can be used where 
neither the OES survey nor the employer provides wage data upon which a 
prevailing wage determination can be established for an occupation for 
which an employer is seeking a labor certification, so long as the data 
meets the criteria set forth therein regarding the adequacy of 
employer-provided wage data
    On May 6, 2002, however, the Secretary of Labor published proposed 
changes in the labor certification regulations, which essentially 
codified DOL's guidelines permitting use of prevailing wage rates based 
on the wage component of the OES wage survey or employer-provided wage 
survey data that meets the requirements described in the DOL 
guidelines. 67 Fed. Reg. 30466 et seq., 30478-79 (May 6, 2002). In 
addition, the Secretary's proposed regulations eliminated mandatory use 
of prevailing wages determined pursuant to the Davis-Bacon Act and the 
McNamara-O'Hara Service Contract Act where otherwise applicable. Id. at 
30478.
    The Secretary of Labor's May 6, 2002 Notice of Proposed Rulemaking 
explained that she had decided that it is inappropriate to use 
prevailing wage rates determined pursuant to the Davis-Bacon Act and 
the McNamara-O'Hara Service Contract Act as the minimum rates that will 
not adversely affect the wages of American workers similarly employed. 
The reason offered in the Notice of Proposed Rulemaking for this 
conclusion was that the procedures used to determine Davis-Bacon Act 
and McNamara-O'Hara Service Contract Act prevailing wage rates are 
significantly different from those set forth in DOL's guidelines for 
determining prevailing wage rates for labor certification purposes in 
occupations for which a prevailing wage rate under one of these laws is 
not available. Id. at 30479. Hence, the Secretary's reason for 
eliminating mandatory use of prevailing wage rates determined pursuant 
to these two federal prevailing wage laws was not that they were less 
accurate than the wage component of the OES program, but merely because 
their respective methodology is different. Id. Eventually, the 
Secretary of Labor adopted the changes proposed in the 2002 Notice of 
Proposed Rulemaking on December 27, 2004, which became effective on 
March 28, 2005. 69 Fed. Reg. 77326 et seq., 77365-66 (December 27, 
2004).
    Notwithstanding, the Republican Policy Committee's July 11, 2006 
report and many others have argued recently that audits of the Davis-
Bacon wage survey process demonstrate that it is less accurate than the 
wage component of the OES program. It is doubtful, however, that the 
OES program or any other wage survey process could withstand the kind 
of scrutiny applied to the Davis-Bacon wage survey process. After all, 
both the OES program and the Davis-Bacon wage survey program depend 
entirely on the voluntary participation of employers to submit wage 
data, and the Davis-Bacon wage survey process now includes a nationwide 
employer payroll-auditing component, which better assures the accuracy 
of the wage data submitted by participating employers. The OES program 
does not include an auditing component.
    In any event, this recitation demonstrates that use of prevailing 
wage rates determined pursuant to the Davis-Bacon Act and the McNamara-
O'Hara Service Contract Act as minimum wage rates that will not 
adversely affect the wages of American workers similarly employed is 
not a concept introduced for the first time in S. 2611. On the 
contrary, use of prevailing wage rates determined pursuant to the 
Davis-Bacon Act and the McNamara-O'Hara Service Contract Act as the 
minimum rates that will not adversely affect the wages of American 
workers similarly employed was integrally intertwined for nearly 40 
years in the labor certification process. Use of prevailing wage rates 
based on these federal prevailing wage laws was regarded as best 
serving the intended purpose of the labor certification process, which 
is to protect American workers from unfair wage competition by foreign 
workers seeking permanent and temporary employment opportunities in the 
United States.
    It was always understood that, in rare instances, this process 
might result in payment of higher wages to newly hired foreign workers 
than to an employer's incumbent workforce. The possibility that 
mandatory use of prevailing wage rates determined pursuant to the 
Davis-Bacon Act and the McNamara-O'Hara Service Contract Act might 
create such a wage disparity is minimal inasmuch as it is highly 
unlikely that an employer will opt to hire a foreign worker if it 
upsets the employer's wage structure, unless the employer truly has no 
other choice. In that case, the employer is more likely than not to 
raise the incumbent workforce's wage rate. In any event, this dynamic 
provides the greatest assurance that employers cannot take advantage of 
a pool of foreign workers willing to accept employment at a depressed 
wage rate because they are desperate for jobs, come from countries that 
have low costs of living, and have restricted status in the United 
States.
    In addition, Congress recently enacted the Consolidated 
Appropriations Act of 2005 that added Section 212(p)(4) to the 
Immigration and Nationality Act, 8 U.S.C. Sec. 1182(p)(4), which 
provides:
    Where the Secretary of Labor uses, or makes available to employers, 
a governmental survey to determine the prevailing wage, such survey 
shall provide at least 4 levels of wages commensurate with experience, 
education, and the level of supervision. Where an existing government 
survey has only 2 levels, 2 intermediate levels may be created by 
dividing by 3, the difference between the 2 levels offered, adding the 
quotient thus obtained to the first level and subtracting that quotient 
from the second level.
    The Secretary of Labor's recent adoption of new regulations that 
eliminated mandatory use of prevailing wage rates determined pursuant 
to the Davis-Bacon Act and the McNamara-O'Hara Service Contract Act, 
coupled with enactment of Section 212(p)(4) of the Immigration and 
Nationality Act, has undoubtedly reduced the prevailing wage rates used 
in the foreign worker labor certification process. These actions have 
adversely affected the wages of American workers similarly employed, 
because the minimum wages employers are now required to pay foreign 
workers issued permanent and temporary employment-related visas are 
more likely to be lower. This is exactly the opposite effect intended 
by Congress when it incorporated the labor certification process in the 
Immigration and Nationality Act in 1952 and amended it in 1965.
    It was precisely because of these regulatory changes that the 
Senate decided to codify the prevailing wage provision applicable to 
the new ``H-2C guest worker visa program'' created by S. 2611, so that 
American workers' wages will not be further adversely effected. Thus, 
contrary to the assertions of some, use of prevailing wage rates 
determined pursuant to the Davis-Bacon Act and the McNamara-O'Hara 
Service Contract Act as the minimum wage rates that will not adversely 
affect the wages of American workers similarly employed is harmonious 
with the intended purpose and intent of the labor certification process 
that has been consistently applied to applicants for employment-based 
permanent and temporary visas seeking to perform skilled and unskilled 
labor since 1952. As such, codification of the prevailing wage 
requirement in the new ``H-2C guest worker visa program'' created by 
Title IV of S. 2611 in no way represents an expansion of the Davis-
Bacon Act, nor will it provide greater wage protection to foreign guest 
workers than to American workers similarly employed.
                                 ______
                                 
    Chairman Norwood. Mr. Phil Kent, National Spokesman, 
Americans for Immigration Control. AIC is a non-partisan 
grassroots organization founded in 1983.
    Mr. Kent is an author, columnist and media commentator. Mr. 
Kent served in Washington, D.C. as press secretary and public 
affairs advisor to the late Senator Strom Thurmond and appears 
frequently on national news shows.
    Mr. Kent holds a journalism degree from the Henry W. Grady 
School of Journalism at the University of Georgia and he is 
from Augusta, Georgia.
    Welcome, Mr. Kent.

   STATEMENT OF PHIL KENT, NATIONAL SPOKESMAN, AMERICANS FOR 
                      IMMIGRATION CONTROL

    Mr. Kent. Thank you, Mr. Chairman. I am here on behalf of 
the Americans for Immigration Control, the oldest immigration 
control group in the country, founded in 1983.
    The heart of my testimony is this--importing cheap, low-
wage labor does not a prosperous economy make. The massive 
influx of unassimilated foreign laborers pushes our economy 
ever closer to the Third World economies of the countries that 
they flee. We are importing poverty by allowing uncontrolled 
immigration.
    The research in this area is not really murky. There is a 
huge caseload of research. For example, the National Research 
Council reports that an immigrant to the U.S., without a high 
school diploma, consumes $89,000 more in government services 
than he pays during his lifetime. The Center for Immigration 
Studies and my group have consistently seen research that shows 
that most of the illegal immigrants coming into this country 
make less than $10,000 a year and have less than an eighth 
grade education.
    I should probably point out that yes, Mr. Black is right, 
we do have a need for guest worker programs, we have guest 
worker programs, especially in agriculture. Some work, some are 
broken. But we do not need any new guest worker or amnesty 
program that is liable to depress the wages of the American 
laborer on a larger scale than that which we have already seen.
    Here is a quick example, Mr. Chairman, that is not in my 
testimony. You will remember after Hurricane Katrina hit 
Alabama, Mississippi and Louisiana, you had American workers 
promised jobs for the cleanup, the contractors were ready to 
go. What happened? According to the Washington Times and other 
news outlets, 30,000 illegals swarmed into that area and took 
the jobs, stole the jobs, from the American workers. In fact, 
the Washington Times quoted one employment contractor, Linda 
Swope, as saying we promised the Americans jobs and then had to 
tell them they could not have the jobs. They were crying and we 
were crying too, because the illegals took those jobs.
    Illegal aliens are wage thieves, and they are taking jobs 
from unemployed Americans, especially low-income whites, blacks 
and teenagers. In fact, the teenage unemployment rate is at the 
highest since World War II because of illegal immigration.
    Let us talk a little bit about some of the provisions of S. 
2611 that some of the other witnesses and the Chairman have 
covered. They have talked about the Davis-Bacon Act of 1939 
extensively. But let me remind you of this, why was it--and I 
would address this especially to Members of Congress--that we 
could allow the Department of Homeland Security to actually 
waive the Davis-Bacon requirements after Hurricane Katrina to 
allow those illegals to come in? I think we need to stop that. 
So we can talk about the language in all the sections of Davis-
Bacon all we want and you can write anything you want, but we 
should not allow the executive branch to use that sweeping 
power to just get rid of Davis-Bacon requirements.
    This bill, S. 2611, would supposedly protect American 
workers by ensuring that new immigrants would not take away 
jobs. However, get a load of this--I want to re-emphasize what 
Mr. King pointed out, the bill's definition of ``United States 
worker'' includes temporary foreign guest workers. So the 
protection is meaningless. Then there is a provision saying 
foreign guest workers cannot be terminated from employment by 
any employer except for just cause. That is the language of the 
Senate Bill. However, as we know, American agriculture workers 
can be fired for any reason whatsoever. Is that fair?
    The Senate Bill also creates a totally unnecessary new F-4 
visa category. It is essentially an automatic green card for 
any foreign student who earns a graduate degree in engineering 
or the physical sciences at a U.S. university. As Professor 
Norman Matloff at the University of California at Davis has 
extensively researched, there is absolutely no shortage of 
American masters and Ph.D. engineers. There is no need for this 
new visa category. Another example of foreigners trying to 
steal American jobs.
    Progress toward achieving sustainable yearly immigration 
levels can come only by rejecting the massive and expensive 
amnesty and guest worker programs in S. 2611 and hopefully, Mr. 
Chairman, winning House-Senate conference approval of the 
enforcement only House Bill 4437.
    Thanks.
    [The prepared statement of Mr. Kent follows:]

          Prepared Statement of Phil Kent, National Spokesman,
                   Americans for Immigration Control

    Members of the Committee, thank you for the opportunity to address 
the critical policy issue of massive immigration's impact on American 
workers and their wages and, in particular, the effect as it relates to 
S. 2611 (the Senate-passed Hagel-Martinez immigration bill). I am the 
national spokesman for Americans for Immigration Control, headquartered 
in Monterey, Va., and executive director of its sister group the 
American Immigration Control Foundation. I am a longtime journalist, 
author and president of my own media/communications consulting company 
in Atlanta.
    Please remember that importing cheap, low-wage labor does not a 
prosperous economy make. Hard as it may be to believe, the massive 
influx of unassimilated foreign laborers pushes our economy ever closer 
to the Third World economies of the countries they flee. These 
immigrants are usually willing to settle for slave-like wages, and 
contribute to an ever-growing underclass. The United States--a country 
built on innovation, technology, and higher education--cannot continue 
to flourish in the 21st Century if its chief burden is to put to work a 
class of unskilled, uneducated labor which consumes more of our 
country's resources than native-born Americans.
    In the past immigration levels were much smaller and the welfare 
infrastructure--from which illegal and legal immigrants 
disproportionately draw from--could handle the flow. But the U.S. has 
never had such a massive influx of illegal immigrants, to the tune of 
over 1 million every year from 1990-2005. Also, an additional one 
million legal immigrants arrive annually.
    In this context, before analyzing the workforce/workplace specifics 
of S. 2611, let's reflect on some ``urban myths'' relating to illegal 
immigration.
Urban Myths about Illegal Labor
    Illegal immigrants do the jobs that Americans refuse to do. This is 
false. There are jobs that Americans will not do without proper 
compensation. Americans are ready and willing to fill most jobs in the 
country in most job categories, but there is a powerful job magnet for 
illegals because of employers who slip low-wage workers cash under the 
table and thus evade paying payroll taxes and benefits.
    The U.S. benefits from increased output. While many will argue this 
point, the cost that the foreign labor passes onto the American 
taxpayer far outweighs that percentage gained in output. If higher 
outputs were the sole concern of the nation, then why would there even 
be a cap on any immigration? A large majority of illegal immigrants 
currently come from Mexico alone. They take jobs in the U.S. and send 
their earnings back home to their families. They are the chief 
industrial asset that funds the economy of their home country, and thus 
take away money that would be spent by American workers on American 
goods and services. Journalist and publisher Ed Marston notes in a 
February 3, 2003 essay:
    It would be good for Americans to clean our toilets, write our 
computer programs, slaughter our chickens and cattle, and pick our 
strawberries.
    And it would be good for Mexicans to cope with their population and 
economy without using the United States as an overflow tank, and 
without using the poor Mexican people as cash cows, to be exported as 
if they were crude oil or cattle.
            The U.S. suffers from labor shortages.
    The sheer supply of illegal laborers who will work for slave wages 
creates no need for employers to improve the positions they have, 
restructure to create jobs that offer worthy compensation, or innovate 
for a future that does not rely solely on manpower. Some employers 
claim the need to hire a workforce of illegal immigrants as necessary 
to run their businesses successfully or even at all. What they should 
be focused on is obeying our existing labor laws and finding ways to be 
successful without hurting the American laborer.
    Illegal immigration is ``bad''; legal immigration is ``good.'' Any 
type of guest-worker or ``amnesty'' program that would make it legal to 
work is liable to depress wages of the American laborer on a larger 
scale than that which has already been seen. In the short term, profits 
for these employers would increase but, alternatively, there are major 
expenditures passed on to the American taxpayers ranging from 
healthcare to education.
The Losers
            Low-Skilled American workers
    Adding more immigrants to our own labor force means that Americans 
who do not have high school or college degrees will now have even more 
competition in finding work. According to the Center for Immigration 
Studies, in a 2005 study titled ``Immigrants at Mid-Decade'' by Steve 
Camarota:
    <bullet> In 2005, about 30 percent of immigrants age 18 and over in 
the labor force had not graduated from high school.
    <bullet> For immigrants who arrived between 2000 and 2005, 34 
percent had not completed high school.
    <bullet> This means that any effect immigration may have on the 
wages or job opportunities of natives will disproportionately affect 
less educated workers, who are already the lowest paid workers.
    This study also went on to describe how states with a high 
concentration of immigrants saw the largest numbers of unemployed 
native Americans. Also, for the first time since the end of World War 
II, teenage unemployment is at its highest rate due to illegal 
immigrants stealing traditional teen summer job slots.
            Black Americans and Other American-born Minorities
    The effects of illegal and legal immigration are most widespread 
among the workforce of black and other native-born Americans. Evidence 
published by the group Numbers USA includes the following information:
    A study by Harvard professor Dr. George J. Borjas finds that, by 
increasing the supply of labor, immigration between 1980 and 2000 cost 
native-born American men an average $1,700 in annual wages by the year 
2000. However, the effects of immigration on wages were most profoundly 
felt by native-born black and Hispanic Americans who suffered 4.5-5% 
wage reductions as compared with the 3.5% wage loss felt by native-born 
white Americans.
    For minority groups, this is great cause for concern and its 
leaders and elected representatives must take issue with politicians 
willing to further open the door to foreign labor.
Technology and Innovation
    The use of the current stream of cheap imported labor is stifling 
innovation. As a world leader, we lose ground and become less likely to 
be technological trailblazers. My colleague and immigration researcher 
Mark Krikorian explains that ``by holding down natural wage growth in 
labor intensive industries, immigration serves as a subsidy for low-
wage, low-productivity ways of doing business, retarding technological 
progress and productivity growth.''
Small Businesses
    On May 4, 2005 Matthew Reindl, the operator of a family owned 
business--Stylecraft Interiors of NewYork--presented testimony to the 
Subcommittee on Immigration, Border Security and Claims:
    Illegal immigrant labor hurts American workers and legal immigrant 
workers that respect our laws. Working Americans have seen their wages 
and their working conditions decline every time they compete with 
illegal immigrant labor * * * If my competitors are allowed to break 
the law, and hire low-wage illegal immigrant workers, they gain an 
unfair and illegal advantage over my company and depress the wages of 
my employees. My competitors will undercut my prices, and could 
possibly cause me, and other employers who follow the law, to go out of 
business.
Financial Compensation and Benefits
    Companies willing to hire illegal employees can clearly see their 
law-abiding competitors and their American employees suffer. Law-
abiding businesses are left vulnerable and question why they must 
suffer if they are honest and responsible employers. Stagnant and 
depressed wages, and poor benefits, all are effects of the non-
enforcement of existing employment laws. Reindl continues by saying:
    I have not been able to give my employees raises because illegal 
aliens are depressing the labor wages of my industry. My product price 
has not gone up because competitors have either dropped health 
insurance for their employees or hired cheaper help, many of whom I 
believe are illegal aliens. I know this to be true from the many job 
applicants I interview. When I put a help wanted ad in the paper, half 
of those applying admit to being illegal immigrants and admit they have 
worked in nearby factories.
It's a Lawless Business
    An article by Karen Rives in the Feb. 26, 2006 issue of The 
Charlotte News and Observer says, ``In North Carolina, not a single 
business has been fined for hiring illegal immigrants since 1999. 
That's in spite of Section 247A of the Immigration and Nationality Act, 
the federal law that prohibits employers from knowingly hiring illegal 
aliens.'' She reports on the sentiments of Tom O'Connell of the US 
Immigration and Customs Enforcement Center in Cary, North Carolina. He 
explained the emphasis of his limited staff is to arrest felons and 
laborers in worksites like nuclear power plants versus arresting 
truckloads of blue collar illegal immigrants. ``I can't arrest every 
truck full of painters going to some job in Apex,'' he said. This 
scenario is repeated in every state throughout the country, and must be 
ended. (By the way, if there is an arrest just one truck full of 
painters, the word will spread in a community fast.)
Cheap Labor, Not So Cheap
    Companies utilizing the sheer abundance of foreign and all-too-
often illegal manpower are able to profit while the government turns a 
blind eye toward their offenses against the American worker. These 
companies pass along the resulting costs to the taxpayer. They neglect 
to pay payroll taxes and health insurance that would have been 
necessary in providing a salaried position for an American citizen. 
Local taxpayers foot the cost of educating the children of the illegal 
and foreign laborers, and hospitals are forced to manage the paying the 
bills for the uninsured laborers and their families. Reflect on what 
columnist Phyllis Schlafly notes about the growing cash-only, 
underground economy:
    The employers commit a double offense if they pay the illegal 
workers with cash in order to evade paying payroll taxes and providing 
benefits to workers. For our government to tolerate the vast 
underground economy is unjust honest businessmen who pays their taxes. 
Bear Stearns estimates that taxes lost from the underground economy 
could wipe out our entire federal deficit of $400 billion. The Los 
Angeles Times reported December 13, 2005 that Los Angeles County's 
underground cash economy is allowing employers to evade $2 billion a 
year in taxes needed to support the social safety net.
    The government's already existing default ``amnesty'' allows the 
practice to continue, and the buck gets passed all the way down to the 
employer of illegal immigrants. A North Carolina businessman explained 
to The News and Observer, ``If we don't want them here, why doesn't the 
government send them back? * * * The government lets them cross the 
border, so why should we worry about it?'' Unfortunately this sentiment 
permeates the minds of many who employ an illegal workforce and assume 
that they are not responsible for their own actions because the 
government has not worked to uphold the law.
    While some would call this aiding and abetting, this same 
businessman also went a step further as many others do: He helped his 
illegal employees get tax ID numbers. This allows the illegal 
immigrants to apply for car loans, housing leases, utilities, and other 
essentials. The tax ID number acts in the same manner as what U.S. 
citizens would normally use a Social Security number for. The fact that 
the government is still basically turning turn a blind eye to illegal 
immigrants in many areas further promotes the ideology that hiring them 
is a just practice.
The Impact If S. 2611 Becomes Law
    The Center for Immigration Studies and other researchers estimate 
nearly 20 million illegal aliens will receive amnesty under the Hagel-
Martinez bill. And remember, too, this number does not include the 
bill's huge increase in future legal immigration, which is expected to 
double or triple from one million a year under current law.
    The bill will not only reward millions of illegals with amnesty, 
taxpayer-subsided services and a road to citizenship, it will also 
greatly increase the flow of cheap labor by dropping the cap for H-1B 
worker visas. Professor Norman Matloff of the University of California, 
Davis, writes in a CIS Backgrounder that the ``H-1B program has long 
been criticized by U.S. programmer and engineering groups as a cheap 
labor program that adversely affects job opportunities for American 
workers. The critics charge that another reason industry is so keen on 
hiring foreign workers is that they are de facto indentured servants. 
This gives employers leverage * * * to force foreign workers to put in 
long weekend and evening hours. * * *''
    Dr. Matloff reveals another threat to potential American 
engineering students with the bill's creation of a new F-4 visa 
category. He rightly labels this ``a dangerous threat to the 
employability of American programmers and engineers * * * a new F-4 
visa category that would lead to an essentially automatic green card 
for any foreign student who earns a graduate degree in engineering or 
the physical sciences at a U.S. university.''
    Perhaps one of the most outrageous features of S. 2611--aside from 
rewarding lawbreakers with services like college tuition breaks and 
eventual citizenship--is requiring employers to pay foreign workers 
higher wages at construction jobs. We need to get the message out to 
the public--and to senators who may not have even realized they voted 
for this provision--that aliens in construction jobs as part of the 
guest worker program created by S. 2611 would receive higher wages than 
American workers at the same job site. GOP lawmakers, especially, ought 
to heed the conclusion of a report by their own Republican Policy 
Committee on Capitol Hill. ``This is unfair to U.S. workers, 
inappropriate and unnecessary,'' the report states.
    Mr. Chairman, as you well know, the Davis Bacon Act of 1939 
requires that the local prevailing wage be paid to all workers employed 
in federally-contracted construction projects, or in work done for the 
District of Columbia. Those wages, which are up to four or five times 
higher in some construction fields than the federal minimum wage of 
$5.15 per hour, are set by the U.S. Labor Department. The Senate bill 
incredibly requires that the higher wage must be paid to temporary 
foreign workers in all construction occupations, even if the project 
isn't federally funded or otherwise under the jurisdiction of the 
Davis-Bacon Act.
    This bill would supposedly protect American workers by ensuring 
that new immigrants would not take away jobs. However, the bill's 
definition of ``United States worker'' includes temporary foreign guest 
workers, so the protection is meaningless. Also, as I read a provision 
of S. 23611, foreign guest workers admitted cannot be ``terminated from 
employment by any employer * * * except for just cause.'' However, 
American agriculture workers can be fired for any reason.
    There are other unfair provisions of S. 2611 which expand the 
paperwork burden for contractors who utilize subcontractors, and I am 
concerned that Americans who don't speak foreign languages in some 
workplaces will be involved in serious safety issues and other 
communications concerns. To cite just one example, I have in my files 
the 2004 resignation letter of a Miami-Dade Water and Sewer Department 
employee who quit because she was discriminated against for not 
speaking Spanish.
    Heritage Foundation researcher Robert Rector discovered yet another 
dangerous part of the 614-page bill. Because unskilled laborers would 
be allowed to ``self-petition'' under the amnesty proposal, obtaining 
permanent residency would bypass the Department of Labor--the agency 
that is supposed to monitor immigration to ensure that American workers 
are not displaced by foreign immigrant labor. And, as Dr. Rector 
underscores, there is nothing ``temporary'' about the guest worker 
program in S. 2611. Nearly all ``guest workers'' would have the right 
to become permanent residents and then citizens. And there are 
virtually no enforcement aspects of the Senate bill.
Breaking the Addiction
    Our country was founded on laws to protect and serve our citizens. 
The U.S. attorneys in all 50 states must begin to vigorously prosecute, 
fine and even jail those employers who knowingly hire illegal 
immigrants. More local and state law enforcement agencies must become 
involved in this effort. By cracking down and holding companies 
responsible for their illegal actions, the flow of immigrants into all 
50 states will decrease. This type of self-deportation will take time, 
since the demand has evolved over several decades. But an immigration 
reduction will still occur, and none too soon to help the American 
worker.
    Progress toward achieving sustainable yearly immigration levels can 
come only by rejecting the massive and expensive guest/worker amnesty 
in S. 2611 and winning House-Senate conference committee approval of 
the ``enforcement only'' House Bill 4437.
                                 ______
                                 
    [Applause.]
    Chairman Norwood. Order. Thank you very much. Order, 
please.
    I want to remind the members of the panel that we will now 
be asking questions of the witnesses and Committee Rule 2 
imposes a 5-minute limit on all questions. I will try to hold 
us to the 5 minutes, but we will have two or three rounds, so 
be prepared for me to come back to you at a later point.
    I now recognize myself for 5 minutes.
    Mr. Kent, since you ended, I will start with you. Your 
testimony, in addition to what you were able to say, states 
that any new amnesty plan that is called for in the Reid-
Kennedy bill and McCain and Martinez, will likely impact the 
American taxpayer in terms of healthcare and education costs.
    Can you estimate what these costs will amount to, given a 
potential absorption of 20 million current illegal aliens into 
the country?
    Mr. Kent. Yes, sir, Mr. Chairman. In fact, I would refer 
you and the Committee to a study that I think you are very 
familiar with that came out right after May 15, and it was by 
Heritage Foundation researcher Robert Rector, and he pointed 
out that the cost could run into the billions. And I will just 
leave it at that. It is an incredible, staggering statistic, 
especially when you realize that unskilled laborers would be 
allowed to self-petition under this amnesty proposal, thereby 
obtaining permanent residence and bypass the Department of 
Labor. And that is the agency, of course, that is supposed to 
monitor immigration to ensure that American workers are not 
displaced by foreign immigrant labor. So as Dr. Rector 
underscores, there is nothing temporary about the guest worker 
program. They will all have a right to be here, and they can 
all bring in, as you know, their families under chain 
migration.
    Chairman Norwood. The Federation of American Immigration 
Reform, FAIR, estimates that in Georgia alone, the cost of 
illegal immigration on the social infrastructure, that would 
be, Mr. Kent, including uncompensated emergency medicine, 
education and incarceration, amount to nearly $1.2 billion. And 
these numbers expand to $2.1 billion in 2010, 3.6 billion in 
2020 if the Reid and Kennedy and McCain and Hagel Bill get 
their way. These are staggering statistics and figures.
    Can you corroborate these figures and/or have any 
additional information for the record regarding these figures?
    Mr. Kent. I agree with the Federation of American 
Immigration Reform numbers. We have seen other numbers from the 
Washington-based Center for Immigration Studies, my own group 
corroborates that. And Mr. Chairman, that is right, there is no 
such thing as cheap labor being cheap.
    Chairman Norwood. Mr. Black, in your testimony, you stated 
that--and you started out by saying ``I oppose illegal 
immigration. I oppose amnesty. I oppose new or accelerated 
pathways to citizenship.''
    Mr. Black. Yes, sir.
    Chairman Norwood. ``These topics,'' you further say, ``must 
remain off the table. Yet a legal, properly documented and 
accessible workforce is critical to Georgia's farm economy.''
    These sentiments are quite different from many I hear every 
day in Washington, D.C. Many believe that the only way to meet 
the challenges facing agricultural labor is to offer amnesty to 
illegal aliens. Now that is what we hear in Washington--not 
what I am saying.
    Mr. Black. Yes, sir.
    Chairman Norwood. Given your experience, how can farmers 
and producers in Georgia agriculture meet their labor 
challenges without amnesty?
    Mr. Black. Well, just through the development of hopefully 
some adjustments in H-2A program. That is a program that has 
been, as you know, Mr. Chairman, been available for well over 
20 years. I mentioned earlier about the adverse effective wage 
rate that is one of the challenges that establishes I believe 
$8.37 that you must pay a worker, that actually you are 
bringing in a group of workers that actually supplant some of 
those other jobs at really an elevated wage rate. It is much 
like some of the discussions that we have already had here, 
setting up a dual system. I believe that will be one of the key 
changes to the existing H-2A program, to give some flexibility. 
One thing that is important to point out to Georgia farmers, 
those in vegetable production and those that usually pay on a 
piece rate, actually there are very competitive wage rates out 
there that actually surpass, far beyond, the minimum wage. But 
there are still some jobs just in warehouses where we need the 
flexibility in the wage rate. Those adjustments to H-2A I think 
would be very advantageous.
    Some earlier issues with regard to housing and others that 
could be amendments or issues that we can talk about later, but 
certainly I think working within the framework of the existing 
H-2A program with some adjustments could provide us the legal 
workforce that we need.
    Chairman Norwood. Why do more people not use H-2A today?
    Mr. Black. Well, there are just some streamline issues of 
dealing with the bureaucracy that I think could make that 
paperwork easier for farmers to deal with. Not to make it 
easier for people to get here, but easier for the farmers to 
actually deal with that--I think improving our verification 
system that Senator Pearson mentioned earlier. Those additional 
tools could be provided that would streamline the program, 
still provide strong verification and that they come here on a 
temporary basis, perform the task that they are assigned, and 
go home.
    And those certainly could be aspects of minor adjustments 
to H-2A that I think would be, again, advantageous to Georgia 
producers, and you would see more of them using it.
    Chairman Norwood. Ms. McCollum, my time is up. You are now 
recognized for 5 minutes for questions.
    Ms. McCollum of Minnesota. Well, thank you, Mr. Chairman, 
and I appreciate the opportunity for a second round of 
questions.
    I would just like to go back to what Mr. Kent was talking 
about and that is, because of what happened after Katrina. I 
went down to Louisiana and the 9th Ward and had an opportunity 
to talk to people there. And Davis-Bacon was waved off. Well, 
we have had an emergency here, you do not have to pay the 
prevailing wage, so there were contractors who took gross 
advantage of that, bringing in lower wage workers while 
citizens of Louisiana, citizens of the United States, residents 
of Louisiana were told that if they wanted to do a job, rebuild 
their city, they would have to do it for next to nothing. And 
we repeatedly asked for hearings and finally, the Democrats I 
think, along with some of our Republican colleagues, and there 
were Republicans who joined us on that issue, convinced the 
President that he had to change his mind on that issue. And 
then we saw American workers able once again to help rebuild 
their city. But that was not a decision that this Member of 
Congress made, to remove Davis-Bacon down in the Louisiana 
area.
    I would like to ask Mr. Yellig, you know, this whole issue 
of how Davis-Bacon somehow is not going to protect American 
workers, and Mr. King mentioned a friend of his who was being 
paid less wages than he needed to survive. My understanding is 
that the Davis-Bacon and Service Contract are going to be used 
as a benchmark. In other words, you have to offer, you have to 
post the job for American workers at that salary, and if no 
American worker applies, none whatsoever, then you can go 
through the steps it would take to hire the guest worker, but 
that guest worker gets hired at that wage. So that the next 
time that there is an opening, the American worker is not 
competing for a low ball wage without any opportunity for 
benefits.
    Could you elaborate on that more? My understanding is it is 
to protect American workers.
    Mr. Yellig. That is correct. That is what the purpose and 
intent of the labor certification process, relying upon the 
prevailing wage standard, has been, as I said before, for 40 
years. This is not a new idea, it has been applied under the H-
2B visa program which applies to the same category of workers 
as the H-2C guest worker category would apply to, just in a 
broader--for a longer period of time. The H-2B only applies to 
people coming here temporarily for a period not to exceed 1 
year. The H-2C program would allow a guest worker to remain in 
the United States for a period up to 3 years, provided that 
that person remained employed and was not unemployed for I 
believe a period longer than 45 days. If they were unemployed 
for a period of longer than 45 days, they would have to go 
home.
    But, as you indicated, the intended purpose of the use of 
the Davis-Bacon and Service Contract wage rates is to establish 
a benchmark. It is not to apply the Davis-Bacon Act per se to 
employers that hire guest workers. For example, the Davis-Bacon 
Act has a provision in it that requires employers to file 
weekly certified payroll reports because they are government 
contractors. That requirement does not apply to employers of 
guest workers. Also, employers----
    Ms. McCollum of Minnesota. So the extra paperwork does not 
apply?
    Mr. Yellig. That does not apply.
    Ms. McCollum of Minnesota. Thank you.
    Mr. Yellig. The same thing is true with regard to the 
penalties for violating the Davis-Bacon Act, in addition to 
requiring a violator to pay the underpayments of wages for 
violating the Act. In addition to that, an employer under the 
Davis-Bacon Act or the Service Contract Act is subject to 
debarment for a period of 3 years. Meaning that the employer is 
ineligible to receive government contracts or subcontracts for 
3 years--a very, very serious penalty.
    If an employer violates the prevailing wage requirement in 
the immigration statute, the matter will be between the 
employer and, not the INS any more, but the Department of 
Homeland Security. It will not be subject to debarment under 
the Davis-Bacon Act. None of the provisions of the Davis-Bacon 
Act would apply to an employer hiring a guest worker under this 
legislation or any of the other temporary visa programs. Only 
the wage--it is merely a point of reference to establish what 
is generally acknowledged to be the prevailing wage rate for a 
construction worker as far as Davis-Bacon is concerned, and a 
service worker as far as the Service Contract Act is concerned.
    Ms. McCollum of Minnesota. Thank you, Mr. Chair.
    Chairman Norwood. Thank you, ma'am.
    Mr. Price, you are now recognized for 5 minutes.
    Dr. Price. Thank you, Mr. Chairman, and I want to thank all 
of the witnesses for your testimony. I think the discrepancies 
in the testimony highlight really the challenge that many of us 
in Congress have in making certain that we identify true facts, 
real facts, and come up with appropriate solutions.
    I want to concentrate for a few minutes on employee 
verification. I am troubled by, Senator Pearson, your comments 
that it takes 67 days to be able to go through, in the minimum, 
the shortest time to be able to verify whether an individual is 
appropriate to hire. Is that accurate?
    Mr. Pearson. It is inaccurate, my math was incorrect, it is 
actually 77 days.
    Dr. Price. Seventy-seven days.
    Chairman Norwood. Pass the mic down, please.
    Dr. Price. I am going to start down here if I may. I want 
to talk about the Pilot Employment Verification Program. And as 
I mentioned in my opening statement, only 2300 of the nation's 
5.6 million employers utilize that pilot program. I would like 
the opinion--I assume that we all believe that no employer goes 
into business to be a policeman for illegal aliens. That being 
the case, I also assume that employers want to, by and large, 
follow the law. Is it a good idea to make that program 
mandatory? That is one of the things that Congress is 
considering. Mr. Kent, do you mind starting there and just 
passing it on down?
    Mr. Kent. Yes, our group does want to make that mandatory 
and I know some states have already done that, and there are 
some good examples where it has worked very well.
    Mr. Yellig. As far as I understand, the AFL-CIO, which I do 
not represent, but the Building Trades is part of it and the 
Building Trades Department has no problem with making that 
employer verification process mandatory. We have no problem 
with that, we agree with it.
    Dr. Price. Mr. King, I know you stated that you believe it 
ought to be mandatory.
    Mr. King. Yes, Congressman. I am a program administrator in 
the Basic Pilot Program. It is important to realize that Basic 
Pilot can only be used to verify a newly hired employee. It is 
not a screening process. Once hired, you can then run the 
Social Security number and the pertinent information through. 
It does go through DHS files and Social Security databases, and 
it will give you a reflection of whether or not the Social 
Security number matches the person and whether or not that 
person is in this country legally. It has a 94 percent approval 
rate. Much is made about the trouble--and I quote, the 
trouble--with Basic Pilot. It normally comes from people who 
desperately do not want it to be used. There is an appeal 
process. If you get a false negative from a newly hired 
employee that would give you the indication that this employee 
is not eligible to work in the United States, there is an 
extensive appeal process and the employee is not fired or 
released from employment until that appeals process has been 
completed.
    If the question is do I support the use of the Basic Pilot 
Program on a mandatory basis; yes, sir.
    Dr. Wenger. It seems clear to me that the answer should be 
yes. I mean we have to take care of both the supply side of 
this equation and the demand side of this equation. So we 
clearly have a bunch of people coming into the country 
illegally looking for work. That is the supply of these 
laborers, and they would not come here if there were no jobs 
for them. So the demand side of this equation must be taken 
care of and an employee verification system is an absolute 
must. You do not get an equilibrium without both the supply and 
the demand.
    Mr. Black. Yes.
    Mr. Pearson. Yes.
    Dr. Price. Does doing that, making that mandatory, does 
that help your situation, Mr. Pearson?
    Mr. Pearson. It certainly does. One of the aggravating 
things that we face is that, as Mr. King said, all this is for 
new employees and we do have--in the past, have gotten no-match 
letters for existing employees. In one case, the man was with 
us for 8 years. We sent him notice of the no-match letter, 
expecting him to come in and deal with it. We simply never saw 
him again, meaning he knew he was not going to get through the 
process. But that does not mean he went back, I believe he was 
from Honduras, that means he went right down the road to 
another employer and was probably hired on the spot the same 
day. That is the reality of what we face.
    Dr. Price. Thank you. I want to--I think everybody agrees 
or believes that we ought not be hiring illegals, I am not sure 
about you, Dr. Wenger, but I am going to come back to that.
    I am interested in knowing----
    Ms. McCollum of Minnesota.  I hope you do because I do not 
think so.
    Dr. Price. Well, I will be glad to point to some of his 
testimony, and we will talk about that on my second round.
    I am interested in knowing who on the witness panel 
believes the Senate Bill would not stop an employer from hiring 
illegals, anybody want to comment on that? Mr. King.
    Mr. King. I hope I have the question right, Congressman. If 
it was, do I believe the Senate Bill would not stop employers 
from hiring illegals; that is my belief, yes, sir.
    Dr. Price. That it would not stop.
    Mr. King. I do not believe that the 2611 bill would do any 
more to stop hiring of illegal aliens than did the Simpson-
Mazoli Act of 1986 because I have little faith in my government 
to enforce the laws in that bill. I have seen what happens when 
Congress, respectfully--I am not a member of any political 
party--when Congress passes laws about illegal immigration. 
Most of the American people that I am in contact with are 
demanding that our borders be secured and at the same time our 
employers suffer some real sanctions. And I do not subscribe to 
the enforcement first. I simply subscribe to enforcement. But 
no, sir, I do not believe that the Senate Bill or the people 
who wrote it have any intention of enforcing that law.
    And if I may, in 20 seconds, in 1986, Simpson-Mazoli had a 
provision in it, it's 1324(a), paragraph (i), I believe, that 
addresses preemption by the states. At present, the states are 
prohibited, under the preemption clause in Simpson-Mazoli from 
going after the employers. There is a very small loophole there 
dealing with licensing. That exact same provision is in 2611. I 
do know that section, it's 274(a) paragraph (j). It stops the 
states from criminally punishing the employers. I see some 
doubt up there, but I will be glad to provide that text if 
required.
    Thank you.
    Mr. Kent. May I address that, Mr. Chairman, just very 
quickly too?
    Not only are there not any enforcement mechanisms in S. 
2611 but there are more magnets to bring in illegals into the 
country. As we all know, we found out later, that you get 
tuition breaks for college for illegals, you of course get the 
path to eventual citizenship, and you get your Social Security 
wages paid for as you come into this guest worker program. So 
there are more magnets to bring in more illegals into this 
country under S. 2611.
    Chairman Norwood. Thank you very much, Mr. Price; which has 
something to do with the fact that many of us believe that if 
you do not secure the border first, you absolutely have done 
nothing, no matter what you write into a bill.
    With that, I recognize Chairman Deal for 5 minutes for 
questions.
    Mr. Deal. Thank you, Mr. Chairman.
    There is a huge skepticism that prevails, I believe, in the 
public's mind, and I believe prevails to a large extent in much 
of the Congress' mind about the effectiveness of enforcing any 
law as it relates to illegal immigration. The testimony I have 
heard today about a new bill; i.e., the Senate Bill versus the 
House Bill, has a presumption that we are going to enforce the 
new law. I have great skepticism, if we cannot enforce the 
current law, how do we have any confidence we are going to 
enforce an even more difficult law to enforce.
    [Applause.]
    Mr. Deal. Let me point out some of the fallacies that exist 
now. And Mr. Black, I will start with you. You mentioned the H-
2A program where we bring in agricultural workers, they are 
supposed to be here for a limited period of time. Do you have 
any idea how many of them disappear into our economy?
    Mr. Black. Many.
    Mr. Deal. Many of them, many of them.
    Chairman Norwood. Let the record reflect the witness said 
many.
    [Laughter.]
    Mr. Deal. We have a reform that we put in place as a part 
of the 1996 immigration reform package that said that for 
people who were going to sponsor immigrants to come into this 
country, that they would be assuring the government at every 
level that those that they sponsored would not become a burden 
on the social system, that they would be responsible for 
medical bills, they would be responsible for other expenses 
that their sponsored individual incurred.
    I would ask this panel, have any of you ever heard of a 
single case where a sponsor has been held accountable for an 
individual they sponsored?
    [No response.]
    Mr. Deal. That is the information I have--none.
    Chairman Norwood. Let the record reflect, nobody.
    Mr. Deal. Now if we want to get serious about this, we have 
got to begin to get serious about the enforcement side of it. 
We have heard a debate here about whether the prevailing wage 
or the Davis-Bacon wage rate is what we should adopt. There are 
certainly arguments on both sides, one of the arguments being 
that if we do not adopt the higher wage rate, then we are going 
to bring down and displace American workers because of that. On 
the other hand, you would have employers I am sure saying that 
if you raise it up to an inappropriate level, then there is no 
real advantage there of being able to attract anybody to work 
after all.
    Now those are the anomalies that I think we have existing 
here. But let me tell you some anomalies that I think, and 
problems that are in the current system, and I am sure Mr. 
Pearson has probably seen this. A 17 or an 18 year old worker 
who comes in and he claims as he fills out his employment forms 
that he has either seven or eight dependents. Have you seen 
things like that?
    Mr. Pearson. Yes, sir.
    Mr. Deal. And we do not do anything about it. What that 
means in practical terms is, for those who say well, these 
people that are coming into our country are paying their 
taxes--what that means is there is no withholding of income tax 
because he claims enough dependents to make him over the exempt 
amount.
    Now those are the kinds of things that we ought to be 
tightening up in our current law. Does anybody have a problem 
with us trying to tighten those up?
    Mr. Pearson. No, Congressman.
    Mr. Black. No, sir.
    Mr. Deal. They are not in either of our bills, quite 
frankly, and I think they honestly need to be.
    Mr. Chairman, I have taken more than my time, but I 
appreciate the fact that despite our differences of perspective 
here, hopefully we have a common interest of doing what is best 
for our country.
    Thank you.
    Chairman Norwood. Thank you, Mr. Deal. Members, we will 
start and go around again, if that is agreeable with everyone.
    I want to get back to--I recognize myself for 5 minutes of 
questions.
    I would like to get back to Davis-Bacon. We talk as if that 
is the most wonderful law that we have ever put on the books. 
And I am going to tell you, folks, without this expansion in 
the Senate Bill, it really still is not a very good idea. All 
it really amounts to is that when we build this courthouse here 
in Hall County, the contractor who builds this courthouse is 
told by the Labor Department in Washington, D.C. what he has to 
pay in terms of wages. Now the Labor Department in Washington, 
D.C. has no ability to determine that with any sense. They do 
not get it right, they never have gotten it right. In fact, I 
would like to submit for the record an executive summary from 
the Office of the Inspector General.* It simply lists a 
platitude of reasons why the Labor Department never gets the 
Davis-Bacon wages correct.
---------------------------------------------------------------------------
    *Submitted and placed in permanent archive file, ``Executive 
Summary,'' Concerns Persist with the Integrity of Davis-Bacon Act 
Prevailing Wage Determinations, Office of Inspector General, U.S. 
Department of Labor, No. 04-04-003-04-420, 30 March 2004, http://
www.oig.dol.gov / public / reports / oa / 2004 / 04-04-003-04-420.pdf.
---------------------------------------------------------------------------
    In an economy that we have so much employment, I promise 
you, the wages are not low. It is hard to get people to work 
today. You have to pay good wages if you want somebody to come 
in and help you build this courthouse. And we do not need one 
bit of help from Independence Avenue in Washington, D.C., 
people who never get outside the beltway, to determine what we 
need to do right here in Hall County.
    Now the Senate Bill, this immigration bill, takes it a step 
further. Now it says you have to have Davis-Bacon wages for 
illegal immigrants, people who have broken our law, who have 
come across our borders illegally and you have to pay them 
those wages. It does not matter if Federal tax dollars are 
involved now, it does not matter that the taxpayer is not 
paying for a grading job Senator Pearson's company is doing. 
Maybe I hired him to do it, a citizen. And now the Labor 
Department in Washington, who cannot get it right under Federal 
building, wants to tell us how to do it in all other 
construction projects across the country. That makes absolute 
no sense to me. Happily, it made no sense to 38 Republicans in 
the Senate.
    We talk about well, is this a Democratic bill, is it a 
Reid-Kennedy bill or is this a McCain-Hagel-Martinez bill. 
Well, it is hard to tell. But I can tell you this, 38 Democrats 
voted for it and 23 Republicans voted against it. We do not 
control the Senate. Nobody controls the Senate.
    [Laughter.]
    Chairman Norwood. Not even the Vice President of the United 
States controls the Senate and he is the President. You have to 
have 60 votes in there to get anything done. We cannot get 
anything done there unless you have 60.
    So I know whose bill this was. This was a Democratic bill 
that most Republicans voted against and this panel has already 
enumerated some, just some, of the terrible things that are 
inside this Senate Bill.
    I promise you, we do not have enough days this week to go 
on over all the bad parts of that Senate Bill. It is the worst 
piece of legislation I have seen in 12 years in the U.S. House 
of Representatives. And for those of you who may wonder, you 
can rest assured it is not becoming law. We are not going to 
let that happen.
    [Applause.]
    Chairman Norwood. We are not going to let that happen 
through the House of Representatives.
    But the bad news is we need an immigration bill. We need to 
secure the borders. I mean shut her down, folks. Then we need 
to deal with a good guest worker program and we need to deal 
with the fact that we have got 20 million illegal immigrants in 
this country right now. But we cannot deal with those facts 
until we get some kind of something out of the Senate that you 
can sit down with and have a discussion about. The bill they 
have got now is not one. You could throw half of it away, and 
you could not conference with it. Hopefully when we go back 
after the elections, in a lame duck session, maybe, just maybe, 
we can sit down and have some grown ups try to turn up a good 
immigration bill.
    My question is to each of you. If you were sitting in the 
U.S. Senate, starting with you, Mr. Kent, would you have voted 
for that bill?
    Mr. Kent. Well, I would not have voted for the bill. In 
fact, it is very interesting, as all of you know, all too often 
lawmakers do not read what is in the bill. There was a U.S. 
Senator just a few weeks ago--I will give him an A for 
honesty--actually admitted he did not know some of these 
sections, these horrible sections, were in the bill. And so I 
think there is a lot of re-thinking on the part of some of the 
U.S. Senators. And it was very instructive to see that our own 
U.S. Senator, Johnny Isakson, did receive 40 votes when he did 
try on the U.S. Senate floor, and it was bipartisan, to try to 
get an enforcement only bill in the Senate. So I think that 
gives you in the House of Representatives a lot of hope that 
there is at least a base of 40 U.S. Senators that are thinking 
straight.
    Chairman Norwood. My time is up, but I am coming back in 
the next round and ask that question.
    Ms. McCollum of Minnesota. You can ask it.
    Chairman Norwood. Well, if you have no objections.
    Ms. McCollum of Minnesota. No.
    Chairman Norwood. Mr. Yellig, how would you have voted on 
the Senate Bill?
    Mr. Yellig. I would have voted for the bill with the 
understanding and expectation that in conference, the bill 
would have been made better.
    [Laughter and applause.]
    Chairman Norwood. Mr. King, how would you have voted?
    Mr. King. Congressman, I would have voted a very clear no. 
I watched C-Span the day that the Senate voted on that, and I 
would hate to say the wrong name, but I watched one of the 
Senators minutes before the final vote be alerted by his staff 
members that there was a provision in 2611 that would require 
the United States government to consult with the government of 
Mexico before we secure our own border.
    There are a myriad of reasons that I would not have voted 
for the bill, sir, but that would have done it right there.
    Chairman Norwood. We cannot even build a fence on our own 
United States property under that bill, without getting Mexico 
to OK it. I think that is unbelievable.
    Mr. King. I am a clear no, Congressman.
    Chairman Norwood. Mr. Wenger.
    Dr. Wenger. I have not read the bill, so I----
    Chairman Norwood. Do you know enough after today?
    Dr. Wenger. No, I do not actually.
    Chairman Norwood. Oh, you do not?
    Dr. Wenger. My inclination is that I would have voted for 
it, but having not read all the specifics, I cannot say for 
certain.
    Chairman Norwood. Your inclination is you would have.
    Dr. Wenger. Yes, sir.
    Mr. Black. Crystal clear, no.
    Chairman Norwood. Senator.
    Mr. Pearson. No.
    Chairman Norwood. Thank you for your indulgence. My time is 
now up. Ms. McCollum, you are now recognized.
    Ms. McCollum of Minnesota. Well, you know, we can come back 
after the election, but I think it was a total missed 
opportunity for the leadership--forgive me for stating what is 
fact--the leadership is not in the Democratic Party, we control 
nothing. For the leadership in the Republican Party not to take 
those bills and go to conference, we have wasted months. We 
should be in a conference setting and at least see if we could 
move forward.
    [Applause.]
    Ms. McCollum of Minnesota. And as we are wasting time by 
not going to conference, we are missing an opportunity. The 
reason why there is not any enforcement, the number of 
apprehensions at the border has declined 31 percent since the 
year 2000. The number of apprehensions inside the country of 
illegals has declined 36 percent since the Bush Administration. 
The Bush Administration has cut personnel for work site 
immigration enforcement by 63 percent. The number of work site 
immigration enforcement fines against employers has fallen 
drastically. The number of work site immigration enforcement 
arrests have fallen drastically. And I have got the numbers all 
here, I will submit them.
    Let me give you the numbers arrested in work site 
enforcement since 2000. 1999, 2849 arrests; 2003, 445. And the 
number of immigration fraud cases have completely fallen 
drastically under the Bush Administration. In 1999, we had 6455 
fraud cases completed; 2003, 1398. Now if we do not have the 
wherewithal to put our money where our mouth is, when these 
budgets are moving forward, to put the dollars into coming up 
with a verification, to put the dollars in enforcement, we 
should all be held accountable for that, based on what we do 
with the budget.
    It is all about choices. We are building bridges to 
nowhere, but we are not funding to secure our borders.
    I would just ask any of the witnesses if they know of any 
place where we have increased funding to protect our borders, 
increased funding to help employers verify, increased funding 
under the majority control that we currently have in 
Washington, to protect American wages, jobs. Is anyone aware of 
any increases?
    Chairman Norwood. Yes, I am.
    Ms. McCollum of Minnesota. What have we increased?
    Chairman Norwood. In the appropriations bill, there was a 
considerable amount of increased funding for border patrol, 
homeland security measures for this particular immigration 
thing. And I have to tell you, and I do not want to go here 
very far, but most Democrats voted against it. Not you, I am 
sure, but most of them did.
    Ms. McCollum of Minnesota. But I am asking about what we 
are talking about, the onsite job investigations. Those have 
all been cut, unfortunately.
    Thank you, Mr. Chairman.
    Mr. King. Ms. McCollum, I am familiar with the figures that 
you quoted, and if you are asking a member of the panel, a lot 
of people who pay attention realize that the last President who 
really went after interior enforcement as far as illegal 
immigration was Dwight Eisenhower. We are not entirely 
convinced that it is a matter of continually increasing funding 
more than it is to get people in Washington in elective office 
on the same page, to enforce existing law; and again, to hold 
people in this country illegally and their employers and their 
bankers up to the same rule of law that the American citizens 
are held to.
    Ms. McCollum of Minnesota. As long--if the Chair would 
indulge me for a second.
    Chairman Norwood. Go ahead.
    Ms. McCollum of Minnesota. In the President's latest 
budget, the request for OSHA, that is job safety, work site, 
was cut 8 percent. It was a loss of 197 total positions. I mean 
when you are cutting that many positions, then you know you do 
not have people out on the work site being able to do the 
inspections. The number of wage and hour investigators dropped 
from 946 in 2000 to 788 in 2004, that is 200 fewer people out 
there able to do those job site investigations.
    So we have a responsibility I think to go back and work 
together to increase these parts of the budget.
    Mr. King. May I, Ms. McCollum?
    Chairman Norwood. I think I need to go to Dr. Price because 
he has a time schedule.
    Dr. Price, you are recognized for 5 minutes, and then I 
will get you back.
    Dr. Price. Thank you, Mr. Chairman, I appreciate that and I 
do have a time crunch and I apologize. I am going to have to 
leave after this series of questions.
    But there are a couple of things that need to be pointed 
out. One, the reason that this bill has not gone to conference 
is because there has been no evidence shown by the other body 
that they are interested in negotiating on any of the 
provisions that they have. So it makes no sense to negotiate 
with one's self in this matter, especially when the kinds of 
security arrangements for control of the border that we in the 
House believe are so doggone important, would not be considered 
in the same vein.
    To intimate that there have been no proposals to have more 
resources put into controlling the border or assisting in 
identifying illegals is just folly. To sit before a public 
group and say that this House has done nothing as it relates to 
that is simply wrong. It is again, the kind of demagoguery that 
we see and it does a disservice to the debate and it does not 
further a positive solution.
    I just got back from visiting the border in El Paso this 
past week, and our border security folks are doing a whale of a 
job with the resources that they have. What we have not 
demonstrated in the Federal Government is the will to 
accomplish the task. And the task before us is to control the 
border. I think it is the No. 1 job, and it is the No. 1 job 
because the American people do not trust us to do the No. 2 
job. That is the reason. And there is good evidence for that, 
as Congressman Deal stated.
    I do want to take a few moments and talk very briefly with 
Dr. Wenger because I am troubled by some of the comments that 
you made in your written testimony. In your written testimony 
you state that this simple fact, talking about illegal workers 
on job sites, means that both sets of workers, both sets of 
workers, both legal and illegal, face the same threats in the 
form of job insecurity, wage insecurity and workplace 
insecurity. I am curious as to what kind of job security, wage 
security and workplace security you believe is due illegal 
workers in the United States.
    Dr. Wenger. Illegal workers do not have standing, and they 
should not be protected by law. They are here illegally.
    Dr. Price. I would agree with you, and I would encourage 
you to review your----
    Chairman Norwood. You need a microphone, please. Greg, take 
care of the microphone.
    Dr. Wenger. Workers who are here illegally have no legal 
standing and are not entitled to the rule of law.
    Dr. Price. And I would----
    Dr. Wenger. As a consequence, I would say though that they 
do create hardships, potential hardships, when they are 
unprotected, for American workers who are here legally, who 
work.
    And I would also like to say about the wage issue that we 
have talked about in the past, I have heard that there is some 
research that indicates that wages have been dramatically 
declining as a result of this. Having read the literature, the 
academic literature, the peer-reviewed literature on this, I 
think that this is a complete overstatement about the impacts 
of immigration on wages. There is a lot of research out there 
on this, it is very mixed. The difference between what we 
observe for native American workers who face competition from 
immigrants is a mixed and murky bag of tricks. It is not clear. 
The most prestigious researcher on this issue, George Borjas, 
who is at Harvard University, has written a compendium of the 
literature and his estimates--and he is clearly no fan of 
illegal immigrants or much legal immigration for low 
educational status workers--indicates that depending on the 
era, the 1970's, the 1980's or the 1990's, you get very 
different effects of legal immigration impacts on workers in 
the United States.
    So to say that this is not a mixed bag or a murky mess is 
really disingenuous.
    Dr. Price. I appreciate your verbal testimony. I would----
    Mr. Kent. Can I just answer----
    Chairman Norwood. Speak to the Chair, please.
    Dr. Price. I would ask you to revisit your written 
testimony because I think it connotes things that you may in 
fact not agree with.
    Please, Mr. Kent.
    Mr. Kent. Just a quick point, Congressman.
    You do quote Dr. Borjas, who is an expert in the area, and 
he is pretty clear about what he says. And I will read you a 
quote that is in my written testimony, he is a Harvard 
professor of course, and he found by increasing the supply of 
labor, immigration between 1980 and 2000 cost native-born 
American men an average $1700 more in annual wages by the year 
2000--very clear.
    Dr. Wenger. That directly contradicts what he wrote in his 
handbook of general economics chapter.
    Chairman Norwood. Gentlemen, we do not do it that way.
    Dr. Price. I appreciate those comments and my time has 
expired, Mr. Chairman. I appreciate you holding this hearing. 
Thank you for your leadership.
    Chairman Norwood. Mr. Deal, you are now recognized for 5 
minutes.
    Mr. Deal. Well, thank you, Mr. Chairman.
    I want to set a tone here that may be a little different 
than we have set up to this point.
    What we have all talked about, and the reason that so many 
people are here to hear what we have to say, is that this is a 
very contentious issue. It is not one that lends itself, quite 
frankly, to simplistic solutions. I want to say this on behalf 
of those guest workers that we have in our community here. By 
and large, they are hard workers; by and large, they are family 
oriented people. They are the kind of people that can make a 
difference if they return to their countries because they need 
to establish that kind of work ethic, that kind of respect for 
the work and family that their countries need to bring them up 
in the world community.
    Now, that having been said, the two differences that exist 
between the House bill and the Senate bill, if you want to 
narrow it all down, is that the House bill is an enforcement 
first, interior and border. It does not have the guest worker 
provisions, it does not have amnesty built into it.
    Now I think all of us recognize that at some point, we have 
a shortage of workers in this country, and we will need to 
address the guest worker portion and that issue. The point we 
want to make on the House side is you cannot do that 
simultaneously. And let me tell you why. I do not think you can 
make a guest worker program effective and function if the 
border is still porous. Why? Because I think a guest worker 
program has to have some conditions attached to it, some 
conditions attached to the worker in terms of how long they can 
stay, et cetera. I think it should also have some conditions 
attached to the employer. Why would anybody want to come to a 
program that has a time limit fixed as to how long you can be 
here if you can continue to come across the border and work 
with no time limits and no restrictions? Common sense says you 
have to have security of the border as a pre-requisite to 
making a guest worker program work, in my opinion.
    Now let me ask specifically this question: We have talked 
about the wage issue and whether or not it should be a 
mandated, legislatively fixed higher wage standard. One could 
very well argue that all that does is to assure that there will 
be more dollars earned in the United States shipped across our 
border to the home country of the worker. The problem that 
people feel in my community--I have alluded to the three big 
ones, healthcare, education and crime--those all have social 
costs that are affected immediately while you are present in 
our country.
    For example, should an employer who has a guest worker have 
responsibility for their medical bills? You are saying well, we 
are just going to pay the employee more money. Do you presume 
that they are going to use that extra compensation to buy 
health insurance that they are not buying now? I do not think 
so. Who is going to pay for those health care costs? I would 
like to hear somebody say, how are we going to fix those social 
problems that are attached with any proposed new guest worker 
plan.
    Mr. Yellig. May I respond to that, sir?
    Mr. Deal. Sure.
    Mr. Yellig. I know for sure that if there was a provision 
in immigration reform legislation that mandated that employers 
of foreign guest workers must provide medical insurance, I can 
assure you that my clients would get behind that 175 percent. 
But I am afraid, speaking candidly, that you would get the same 
response that we get about requiring the payment of a 
prevailing wage rate, saying why should a temporary foreign 
guest worker be provided with medical insurance when American 
workers are not provided with that same protection.
    Nevertheless, I think that the requirement is an 
appropriate one because it addresses the kind of problems that 
you have alluded to.
    Mr. Deal. But let me tell you the problem in practical 
terms here. Many of our employers already provide health 
insurance, they offer it as they offer their American workers 
health insurance, and the foreign workers elect not to 
participate. And the reason why? Because they can show up at 
our emergency room and get all the free care they want and they 
do not necessarily have to use the same name that they used the 
day that they signed up to be employed.
    Now you say that that is unfair competition with American 
workers? I want to tell you that the low wage American workers 
in this community and across this country, they cannot show up 
and use a false name. They cannot go somewhere else and 
disappear into the economy. Their house will be foreclosed on, 
their car will be foreclosed on. Those are sanctions that are 
not currently applied in the current system.
    Voice. Preach it, brother.
    [Applause.]
    Mr. Deal. I have incited enough trouble, I will yield back 
my time.
    Mr. Yellig. Just for the record, organized labor I know 
would support a mandatory requirement that all employers 
provide medical insurance, not that is optional, but mandatory. 
I want to make sure that is clear. We would support that, 
again, 175 percent or more.
    Chairman Norwood. I do not think there is any doubt amongst 
any of us that that is clear.
    Ms. McCollum, you are now recognized for 5 minutes.
    Ms. McCollum of Minnesota. Thank you, Mr. Chair.
    This has been a robust debate, and I am going to stress 
again, unfortunately, this debate is not taking place in a 
conference committee. The House says, you know, I am not going 
to do this unless--go to conference unless we guarantee we are 
going to get our position to win and the Senate says we want 
our position. That is what usually happens with all conference 
committees. We should be in conference committee, we should be 
working on this issue. We cannot afford to let our borders go 
unprotected.
    [Applause.]
    Ms. McCollum of Minnesota. And it is clear that we need to 
put dollars back into the enforcement sections that are 
currently in law to protect workers that are here legally and 
to protect American workers.
    But I think there is another discussion that has also been 
taking place, and I think it is helpful and that is should we 
have a benchmark, an expectation of what a person is to be 
paid, so that if--and I am using prevailing wage numbers which 
have not been updated in this county since 1990--if I am an 
asphalt raker, an American asphalt raker born here in the 
U.S.A. and I am raking asphalt, I know I am guaranteed $7.51 an 
hour, if it is a Federal contract. Why should that American 
worker know that a guest worker or an illegal worker can come 
in here and take that job away from them at another site? That 
is wrong. And what the Senate Bill attempts to address and why 
I think it is important we go to conference committee--this is 
going on right now, folks, American workers are having to 
compete with people who are here illegally, who are not being 
paid the same wage for doing the job.
    Voice. Secure the border.
    Ms. McCollum of Minnesota. Mr. Chairman----
    Voice. Secure the border.
    Ms. McCollum of Minnesota [continuing]. Would you ask this 
gentleman----
    Voice. Have I got to leave?
    Ms. McCollum of Minnesota. No, you do not have to leave.
    Chairman Norwood. We are not going to do it that way or you 
will have to leave. You have to be quiet in the audience. 
Sorry.
    Ms. McCollum of Minnesota. I have not once said we should 
not focus on securing the borders, but the fact of the matter 
is, without putting a benchmark in for wages to protect 
American workers, American workers will not have the 
opportunity to compete for jobs here at home. We need to have a 
benchmark for wages. This discussion with Bacon-Davis gives us 
the opportunity to make sure American workers, their jobs and 
their benefits are protected. And we have to do that.
    And these are concluding remarks, so I know people have 
their hands up. Mr. Chair, you have been very gracious. Thank 
you for hold this hearing, and I hope that when we go back, we 
do not wait until a lame duck session to do something about 
securing our borders and protecting American workers.
    Chairman Norwood. Thank you, Ms. McCollum, I appreciate 
your effort to be here, and I thank the witnesses a great deal 
for their time and their effort to be here and go through this.
    In conclusion of our hearing today, I just want to point 
out that if all of my Democratic colleagues were as wise as Ms. 
McCollum, then we probably could solve this problem as soon as 
we get back. The different points that she brings out, I agree 
with in so many different ways, but I have to tell you that 
most Democrats in Washington do not want to do this, they voted 
against securing the border, 164 of them in the House voted 
against securing our border. In my district and in Mr. Deal's 
district, that number who agree that we should secure our 
borders first is somewhere between 88 and 90 percent. The 
American people catch on to what is going on with this and they 
know what they want us to do. But the reason we cannot get in 
conference is that Senator McCain and Senator Reid keep sending 
letters out to all members of the House saying we cannot 
possibly come to conference unless you pre-agree there can be 
no changes in the Senate Bill. Well, now that is pretty hard to 
have a conference committee under those circumstances.
    Hopefully, after being home this month, working with our 
constituents around the United States, some Senators and some 
members of the House will come back to Washington having 
learned a few lessons from the people. If we will just listen 
to the people of the United States, the citizens of this 
country, there is a very clear message as to what we should do 
and how we should do it. This is not as hard as some people 
like to make it seem.
    You have to secure the border. That is not that hard to do. 
At the same time, you have to start border patrol boot camps. 
You actually start training people to secure the border other 
than the National Guard. This is not the first time this 
thought has ever come up, ladies and gentlemen. In 1916, the 
Georgia National Guard went to the border in New Mexico, along 
with 100,000 other National Guard troops that were Federalized. 
Why did they go? To secure the border of the United States from 
Poncho Vila. He had come across and killed 19 Americans in New 
Mexico.
    Today, from illegal immigrants, we lose 25 American 
citizens a day from illegal immigrants and we still do nothing 
about it. That is either from DUIs or murder. That is going on 
right here, and you know what is going on in Hall County in 
terms of the criminal statistics.
    As soon as we secure that border, which can be done, and I 
love my President, but he is wrong about this. He needs to 
send----
    [Applause.]
    Chairman Norwood. He needs to send the requisite number of 
National Guard down there now. They can do it within 6 weeks, 
ladies and gentlemen, if we will just make up our mind to do 
it. The President can send all the budgets he wants to to 
Congress, he does not get to write the budget, the House of 
Representatives gets to write the budget. And Ms. McCollum is 
correct, we have not done our job in the House of 
Representatives in terms of funding what needs to be done. When 
that border is secure, then you can go about the business of 
writing a guest worker program that actually does work, without 
giving illegal immigrants advantages over American citizens.
    My son would pay more to go to the University of South 
Carolina--God forbid----
    [Laughter.]
    Chairman Norwood [continuing]. In tuition than would an 
illegal immigrant from Juarez. That makes no sense of any kind 
to me. Why should I be penalized and reward someone who has 
broken the law? All you have got to do is come across the 
border under the Senate Bill, you can become a citizen, you can 
bring all of your family, we are going to pick up about 20 
million new immigrants in the next 20 years and Georgia is 
running out of water now. Are we not concerned about the 
population of 100 million new people in this country over the 
next century under this Senate Bill?
    Are you concerned that they can get on Medicaid, Medicare, 
although Mexico has a Medicaid and Medicare too. I refer 
Hispanics I see to go to the Mexican Consulate, try their 
Medicaid program rather than our Medicaid program that can 
hardly fund itself any more. You can get earned income tax 
credits under the Senate Bill. Does anybody know the cost of 
this? Does anybody know the cost of the Social Security program 
that is known by all to be going broke? What kind of 
legislation did they put out over there? It is not the kind 
that will ever pass or see the light of day. I promise you, at 
least not with any of these votes here, and I am pretty sure 
they cannot get it done.
    But we do need to go back and work out a guest worker 
program, we need to go back and work out a way to deal with the 
20 million that are here. There is such a thing as a bullet-
proof work card. You can make a card that is tamper proof. If 
we can go to the moon, we can make a card that is tamper proof. 
We need to encourage these people to turn themselves in to 
Ellis Island centers. Why would they do that? Because if they 
do not, under the new bill, they will be a felon. If they do 
not, the employer is going to pay $50,000 per. That is why they 
will turn themselves in. If they are not a terrorist, if they 
are not a drug dealer, then come on and turn yourself in and we 
will do a health check and we will check your background and we 
will let you stay for two or three more years. And then go home 
like everybody else and get in line, like all the other people 
from around the world that are trying to come to this great 
country.
    We all understand why everybody wants to come here. But 
immigration should be about what is right for the American 
citizen first and what is right for America, not what is right 
for people from all around the world. No other country in the 
world has immigration laws the way we do. All we really have to 
do is pass the same immigration laws Mexico has, that will stop 
it, I promise you, dead in its tracks.
    [Applause.]
    Chairman Norwood. Thank you for your patience and your 
tolerance. If there is no further business, then this 
Subcommittee stands adjourned.
    [Whereupon, the Subcommittee was adjourned at 1:15 p.m.]
    [Additional materials submitted for the record follow:]
    [Mr. Owens submitted the following statements and 
articles:]

 Prepared Statement of Ross Eisenbrey and Monique Morrissey, Economic 
                            Policy Institute

    A key issue of evolving immigration policy in the United States is 
whether employers should be able to hire temporary or ``guest'' workers 
from other countries when workers are scarce and wages are rising. 
Though popular with employers, guest worker programs are generally 
opposed by labor unions and others who say these programs risk 
displacing U.S. workers or pushing down their wages.
    The immigration bill passed on a bipartisan basis by the U.S. 
Senate--the McCain-Kennedy bill, or S. 2611--tries to balance these 
competing concerns by requiring employers who want to recruit temporary 
guest workers in the construction and service industries to first offer 
the jobs, at the prevailing industry wage, to U.S. workers. If no 
qualified U.S. workers apply for the jobs, employers can hire guest 
workers but must pay them the prevailing wage.
    In a report issued in July 2006, the Senate Republican Policy 
Committee (RPC) attacked the prevailing wage provision in the McCain-
Kennedy bill, as ``unfair to U.S. workers'' because it would 
``guarantee wages to some foreign workers that could be higher than 
those paid to American workers at the same worksite'' (RPC 2006). This 
claim is false, since the law requires employers to first offer each 
job, at the prevailing wage, to any qualified U.S. worker who applies.
    The RPC (chaired by Sen. Jon Kyl (R-Ariz.), co-sponsor of a rival 
immigration bill) also claims that prevailing wage measures are 
inflated. In fact, the same government studies cited by the RPC show 
these measures to be accurate. But even if this claim were true, it 
would strengthen, not weaken, the argument for including such wage 
protections in an immigration bill since they ensure that guest workers 
are only hired in tight labor markets when wages are rising.
    Finally, the RPC claims that the law expands the reach of the 
Davis-Bacon Act, which requires construction companies with federal 
contracts to pay employees the prevailing wage. But the McCain-Kennedy 
bill specifies only that the wage employers offer to construction 
workers must be the prevailing wage, as measured under the Davis-Bacon 
Act, and none of Davis-Bacon's wage reporting or enforcement provisions 
is applied to guest workers.
Should Immigration Reform Include Prevailing Wage Protections?
    The rationale for expanding guest worker programs is to increase 
the supply of workers during labor shortages. Most economists would 
dispute the notion of a labor shortage in the case of low-skilled 
workers, since employers can always find workers to fill these jobs if 
they offer high enough wages. However, if we understand ``labor 
shortage'' to mean a tight labor market, then, at a minimum, guest 
worker visas should be granted only when the market is demonstrably 
tight, i.e., when wages are rising.
    This is the purpose of the prevailing wage provision in S. 2611, as 
well as similar provisions in earlier guest worker laws. They require 
employers who want to hire guest workers to pay the prevailing wage, 
defined as the wage paid to the majority of workers in a particular job 
category and local labor market, or, barring that, the average wage 
paid to these workers. Prevailing wages are based on periodic surveys 
of employers and third parties, and so they always lag in time behind 
current wages.
    Requiring employers who want to hire guest workers to pay the 
prevailing wage serves two purposes. First, it ensures that employers 
do not hire guest workers when wages are falling because, if they did, 
they would have to pay them the higher previous year's wage (recall 
that the prevailing wage is measured with a lag). Second, it ensures 
that employers do not undercut the market wage by hiring foreigners 
willing to work for less than U.S. workers.
    The prevailing wage language is the only assurance in the McCain-
Kennedy bill that guest workers will be recruited only when labor 
markets are tight, as intended. This protection is somewhat weakened by 
the fact that the law still allows employers to hire guest workers when 
nominal wages are stagnant or rising but real (inflation-adjusted) 
wages are falling. However, lowering or abolishing prevailing wage 
measures would only make the situation worse.
Is the Prevailing Wage Provision Unfair to U.S. Workers?
    The RPC claims that the prevailing wage provision ``would guarantee 
wages to some foreign workers that could be higher than those paid to 
American workers at the same worksite.'' This argument implies that 
some employers would be willing to hire guest workers even if they had 
to pay them more than their other workers (an expense that would be 
worth it, perhaps, because guest workers' vulnerability might make them 
more compliant employees).
    Even if this were true, S. 2611 requires that employers first offer 
the jobs, at the prevailing wage, to U.S. workers. Thus, the scenario 
envisioned by the RPC could only occur if employers were breaking the 
law or if U.S. workers were somehow unwilling to apply for higher-
paying jobs. Because the RPC ignores the fact that McCain-Kennedy 
requires employers to first offer the jobs to U.S. workers, it does not 
specify whether it believes employers to be lawbreakers or U.S. workers 
to be oblivious to their own well-being.
    It should be noted that building trade unions, which have 
experience with similar language in previous immigration laws, support 
the prevailing wage provision, while the U.S. Chamber of Commerce, an 
employer group, opposes it.
Are Prevailing Wage Measures Biased and Inaccurate?
    The RPC claims that ``Davis-Bacon wages tend to be inflated because 
of the bias caused by the wage-setting process that relies solely on 
voluntary wage data reporting.''
    The RPC does not explain the source of this supposed bias, except 
to say that ``there is no incentive (and perhaps there is a 
disincentive) for private sector employers to provide wage information 
that may aid their competitors.'' The RPC seems to imply that low-wage 
employers will not participate in the survey because they do not want 
their employees recruited by competitors offering higher wages. The 
problem with this theory is that all company-specific wage data 
collected by the Department of Labor are confidential.
    Another possibility is alluded to in a later paragraph: ``Bias is 
inherent since the DBA (Davis-Bacon Act) relies only on information 
volunteered by employers and third parties, some of whom could have an 
interest in influencing the outcome of the prevailing wage 
determinations.'' Again, the RPC does not explain what would motivate 
an employer or third party to withhold information from the survey.
    In fact, both high-wage and low-wage employers have an incentive to 
participate in prevailing wage surveys. High-wage employers, unions, 
and these employers' business associations participate in an effort to 
keep the prevailing wage high and prevent low-wage competitors from 
undercutting them on federal contracts or from hiring guest workers. 
Low-wage employers, on the other hand, participate in an effort to keep 
the prevailing wage low so they do not have to raise wages when bidding 
on federal contracts or recruiting guest workers. Competitive pressures 
therefore encourage participation by all employers and promote 
accuracy.
    The fact that all employers are motivated to participate in 
prevailing wage surveys is enhanced by the fact that construction labor 
markets are highly competitive, so that wages for, say, drywall 
finishers do not typically vary much between employers (though there 
can be differences between union and non-union contractors). Thus, it 
is not surprising that a 1999 General Accounting Office report cited by 
the RPC found that errors averaged only 76 cents per hour (GAO 1999). 
These errors generally fall within the statistical margin of error used 
in Bureau of Labor Statistics surveys (Lipnic 2004).
Does It Matter If Prevailing Wage Measures Are Too High?
    It is important to note that even if prevailing wage measures are 
slightly inflated, as the RPC claims, this would actually improve wage 
protections for U.S. workers, who must first be offered jobs at the 
prevailing wage before an employer seeks to recruit guest workers. 
Because the prevailing wage is measured with a lag, this also ensures 
that the local labor market is tight and wages are rising before guest 
workers are brought in, in keeping with the intent of the law.
Do Other Measures Better Capture the Prevailing Wage?
    The RPC does not say whether it supports wage protections in any 
form. However, it repeatedly contrasts what it calls ``biased'' 
prevailing wage determinations under the Davis-Bacon Act with 
``statistically valid'' wage data from the Occupational Employment 
Statistics (OES) survey. In fact, both wage measures are similar in 
relying on voluntary surveys conducted by the Department of Labor.
    The RPC's focus on the OES survey is misguided and misleading, 
since the OES survey does not gather information on benefits and 
therefore cannot be used to construct prevailing wage measures. Other 
factors that make the OES survey an inappropriate source for prevailing 
wage determinations include differences in geographic scope (prevailing 
wages are reported at the county level, whereas the OES provides only 
national, state, and metropolitan area wage data) and occupational 
categories (prevailing wage measures include more occupational 
classifications as well as breakdowns by construction type).
    Even if such obstacles could be overcome, however, it is not clear 
why the RPC prefers OES data, unless the hope is that the OES survey, 
even if expanded to include information from other surveys on vacation, 
health, retirement, and other benefits, would tend to underreport wages 
and benefits. The Department of Labor's Wage and Hour Division, which 
is responsible for issuing the Davis-Bacon prevailing wage 
determination, currently surveys unions and business associations to 
ensure the accuracy of wages and benefits covered under collective 
bargaining agreements.
    The only real problem with wage data from the Department of Labor--
not just prevailing wage data, but also OES survey data--is that it is 
often out of date. In both cases, wage measures can be based on surveys 
conducted as many as three years earlier (BLS 2004; OIG 2004). Though 
the RPC expresses concern with the timeliness of prevailing wage 
determinations, it does not call for an increase in the DOL's budget in 
order to increase the frequency of these surveys, perhaps because 
increasing the frequency of surveys would generally raise prevailing 
wage measures, not lower them.
Is There a Labor Shortage in the Construction Industry?
    Despite a recent building boom, construction wages have been rising 
slowly in nominal terms and actually falling in real terms (Figure A), 
a situation that is not consistent with a labor shortage or a tight 
labor market.
    However, because wages are still nominally rising, prevailing wage 
measures are somewhat lower than the actual market wage, since they are 
measured with a lag. This means that, under the prevailing wage 
provision of S. 2611, employers could recruit guest workers at or below 
the real market wage, even though the labor market is stagnant. This 
effect would be countered if wage measures were slightly inflated, as 
the RPC claims. In other words, given a survey lag, there is a strong 
argument for requiring employers to pay above the prevailing wage. 
Thus, if the RPC claim is true, so much the better, for slightly 
inflated guest worker wages would help ensure that guest workers do not 
displace U.S. workers or undercut their wages.
Is McCain-Kennedy an Unwarranted Expansion of the Davis-Bacon Act?
    The RPC's focus on the supposed expansion of the Davis-Bacon Act to 
the private sector appears to be an attempt to galvanize members of the 
business community who oppose the Davis-Bacon Act, and does not add any 
substantive points to its argument. Nor is there anything novel or 
precedent-setting about the prevailing wage provision of S. 2611; it is 
similar to provisions in earlier guest worker laws, going at least as 
far back as the Bracero program of 1942-1964.
Conclusion
    The RPC has attacked the prevailing wage protections in the 
Senate's comprehensive immigration bill as ``unfair to U.S. workers,'' 
but just the opposite is true. In fact, by making it more difficult for 
employers to qualify for temporary foreign guest workers, the 
prevailing wage provision protects U.S. workers from employers who 
would otherwise replace them with foreign workers willing to work at a 
lower wage. Without the provision, the guest worker program would truly 
be unfair to U.S. workers.
    Experience with foreign guest worker programs over the last half 
century tells us that many employers prefer to hire foreign workers 
rather than U.S. residents, even when there are many qualified U.S. 
workers available. The reason is obvious: foreign workers can almost 
always be found who are willing to work for lower wages, for longer 
hours, and in worse conditions than U.S. workers. They are, therefore, 
less expensive to employ. Given the opportunity, many employers would 
seek visas for guest workers rather than offer work to U.S. residents, 
especially since temporary guest workers' reliance on employers for 
visas makes them highly dependent on employers, even more so than 
immigrants who are legal permanent residents.
    If Congress goes along with President Bush and the U.S. Chamber of 
Commerce and creates a large guest worker program--potentially bringing 
hundreds of thousands of temporary foreign workers to the U.S. for 
employment--then mechanisms must be created to ensure that U.S. workers 
are not displaced and that employers do not pay wages so low as to 
undercut the market wage for U.S. workers. That is the purpose of the 
Senate immigration bill's prevailing wage requirement.
    Business groups oppose the prevailing wage requirement for obvious 
reasons: they want foreign guest workers at the cheapest possible wage. 
Their public position, however, is not that the provision is unfair to 
employers, but rather that it is unfair to U.S. employees because it 
will lead to foreign guest workers being paid more than U.S. residents. 
This claim is demonstrably untrue.
    The prevailing wage provision in the McCain-Kennedy bill, like 
similar provisions in earlier guest worker laws, is designed to prevent 
employers from recruiting guest workers willing to work for a wage that 
will adversely affect the living standards and wages of American 
workers. It also helps to ensure that guest workers are hired only when 
labor markets are tight, though it does so imperfectly since prevailing 
wage measures are always out of date. The prevailing wage provision of 
S. 2611 is thus a minimum, but necessary, standard.
                               references
Bureau of Labor Statistics (BLS). 2004. ``Technical Notes for May 2005 
        OES Estimates.'' Available at http://www.bls.gov / oes / 
        current / oes--tec.htm
General Accounting Office (GAO). 1999. ``Davis-Bacon Act: Labor Now 
        Verifies Wage Data, but Verification Process Needs 
        Improvement.'' Washington, D.C.: GAO.
Lipnic, Victoria A. (Assistant Secretary for Employment Standards). 
        2004. Memorandum for Elliot P. Lewis, Assistant Inspector 
        General for Audit. ``Re: Draft OIG Audit Report on Davis-Bacon 
        Wage Determinations,'' February 18.
Office of Inspector General (OIG), Department of Labor. 2004. 
        ``Concerns Persist With the Integrity of Davis-Bacon Act 
        Prevailing Wage Determinations'' Washington, D.C.: DOL.
Republican Policy Committee (RPC). 2006. ``Davis-Bacon Expanded to 
        Private Projects in Senate Immigration Bill.'' Washington, 
        D.C.: RPC.
                                 ______
                                 

       [From the Lincoln Journal Star (Nebraska), August 8, 2006]

                   Hagel Laments Immigration Inaction

                              By Art Hovey

House members are using the issue to `polarize voters' before the 
        November election, senator says.
    Omaha--Maybe the students can do a better job.
    As Nebraska Sen. Chuck Hagel vented his frustrations Monday with 
the failure of Congress to pass immigration reform so far this year, an 
audience of high school teachers had to be thinking about a coming 
Capitol Forum on America's Future in Lincoln in March.
    That's when their junior and senior students will gather at an 
event sponsored by the Nebraska Humanities Council to try to come up 
with immigration answers that Hagel and his peers can't agree on.
    Hagel called it ``a tragedy'' that the House and Senate have been 
unable to settle on a plan for dealing with an estimated 12 million 
people who are in the United States illegally, mostly from Mexico and 
other countries south of the border.
    Hagel, a leading advocate of a Senate approach that would give some 
of those people a path to citizenship, criticized House counterparts 
who decided to hold a series of 21 immigration hearings across the 
United States during a summer recess.
    It's ``complete folly, silly'' to do that, he said, for purposes 
other than crafting legislation. With no immigration bill in the 
formative stage, he later told teachers, ``what they're doing is using 
this to polarize voters'' before the November election.
    Monday's question-and-answer session in Omaha will help teachers 
Trent Goldsmith of Utica-based Centennial, Roy Ferris of Valentine and 
others plan their annual approach to student problem solving.
    The next school year's range of thorny issues, said teacher team 
leader Robin Kratina of Bellevue West, also includes nuclear 
proliferation, terrorism, global trade and global environmental 
challenges.
    ``What is the fear of this bill?'' Goldsmith asked Hagel at one 
point in a 45-minute dialogue on immigration.
    ``It's an irrational fear,'' Hagel responded.
    He pointed out, for example, that there's no reason to worry about 
immigrants taking jobs away from Americans when unemployment is 
comparatively low.
    ``So the whole idea about immigrants taking American jobs is not 
true,'' he said. ``It just doesn't work.''
    Cast out millions of workers at a time of low unemployment, he 
said, and ``you would bring much of the economy to its knees.''
    Ferris wanted to know what he should tell students when they ask 
him why current immigration laws are not being enforced.
    The truth, Hagel said, is that stopping illegal border crossings 
needs attention on both sides of the Mexico border.
    ``A lot of this responsibility rests with the Mexican government, 
and we really have no control over it,'' he said.
    Meanwhile, the U.S. commitment to securing the border ``has changed 
a lot over the last two years'' and will become even more rigorous.
    Although he's not hopeful of meaningful compromise on immigration 
reform when lawmakers return to their desks after Labor Day, Hagel said 
the House's summer hearings should not be the center of attention.
    ``Where the focus should be is on the conference committee to 
resolve differences between the two.''
    House language did not address what many critics of the Senate 
approach have portrayed as amnesty. It emphasized securing the border 
and enforcing existing immigration law.
    But Hagel said the Senate bill should not be regarded as soft on 
enforcement. ``More than half the bill was about enforcement,'' he 
said. ``The Senate bill actually does more for enforcement than the 
House bill.''
                                 ______
                                 

        [From the Omaha World-Herald (Nebraska), August 8, 2006]

   Hagel: Immigration Compromise Probably Stalled for the Year; the 
 Senator Calls House Leaders' Public Hearings on the Issue ``Complete 
                                Folly''

              By Cindy Gonzalez, World-Herald Staff Writer

    It's unlikely that Americans will see comprehensive immigration 
legislation approved by Congress this year, Sen. Chuck Hagel said 
Monday.
    ``That is a tragedy,'' Hagel said. ``We need to fix the problem.''
    The Nebraska Republican helped craft the Senate immigration bill. 
It includes a path to legalization for many of the 12 million illegal 
immigrants already in the country, a guest worker program and stricter 
border enforcement.
    But the U.S. House approved an enforcement-focused bill, and 
lawmakers have yet to work out differences between the two measures.
    Speaking to an Omaha audience of about 30 teachers whose classes 
touch on immigration, Hagel on Monday described as ``complete folly'' 
the public hearings on immigration that House leaders have decided to 
hold across the country this summer.
    After each chamber passed its immigration proposal, the next order 
of business should have been a House-Senate conference committee where 
a compromise could be worked out, Hagel said.
    But the process has stalled, and time is running out for the 
current session of Congress.
    Hagel said the delay in finding a compromise has further polarized 
people on both sides of the debate. One side wants a path to 
citizenship for illegal immigrants already in the country; the other 
calls that ``amnesty'' and prefers only increased border and workplace 
enforcement.
    Effective immigration legislation must include a solution for many 
of the 12 million illegal immigrants already in the United States, 
Hagel said. He said Americans' ``irrational fear'' of losing jobs is 
partly to blame for opposition to such provisions.
    Even if the country could round up and deport all illegal 
immigrants, Hagel said, ``you'd bring much of the American economy to 
its knees.''
    Hagel said low job approval ratings reflect public frustration with 
the inability of President Bush and Congress to achieve solutions on 
issues such as immigration. ``The American people have had it with all 
of us,'' he said.
    There is a ``built-in selfcorrection process'' called an election, 
Hagel said. He said an upshot could be a lot of new faces in public 
office after the November elections.
    Hagel was featured speaker at the downtown Omaha event co-sponsored 
by the Nebraska Humanities Council. Participating teachers from across 
the state will prepare students for the annual Nebraska Capitol Forum 
on America's Future.
    Immigration will be one of the key topics for students to debate at 
this year's spring forum. Their recommendations will be reported to 
Congress.
    Roy Ferris, a teacher from Valentine, Neb., asked Hagel how he 
would respond to his students' most common immigration-related 
questions: Why aren't current laws being enforced? What is the role of 
the Mexican government? And what changes might come from the new 
Mexican president's administration?
    Hagel said the Mexican government has failed in its responsibility 
to curb illegal emigration.
    Although Hagel said the United States has ``not done enough'' to 
stop illegal immigration, he said about $9 billion was newly 
appropriated this year for more Border Patrol agents and other security 
measures.
                                 ______
                                 

                [From AFX News Limited, August 10, 2006]

                Study: Immigrants Not Hurting U.S. Jobs

    Washington (AFX)--Big increases in immigration since 1990 have not 
hurt employment prospects for American workers, says a study released 
Thursday.
    The report comes as Congress and much of the nation are debating 
immigration policy, a big issue in this fall's midterm congressional 
elections.
    The Pew Hispanic Center found no evidence that increases in 
immigration led to higher unemployment among Americans, said Rakesh 
Kochhar, who authored the study.
    Kochhar said other factors, such as economic growth, played a 
larger role than immigration in setting the job market for Americans.
    The study, however, did not look at whether wages were affected by 
immigration. Advocates for tighter immigration policies argue that 
immigrant workers depress wages for American workers, especially those 
with few skills and little education.
    Immigration supporters argue that foreign workers often take jobs 
that Americans don't want and won't take.
    The Pew Hispanic Center is a nonpartisan research organization that 
does not advocate policy positions. The center studied census data on 
the increase in immigrants from 1990 to 2000, and from 2000 to 2004, 
for each state. It matched those figures with state employment rates, 
unemployment rates and participation in the labor force among native-
born Americans.
    The U.S. had 28 million immigrants--legal and illegal--age 16 and 
older in 2000, an increase of 61 percent from 1990. By 2004, there were 
32 million.
    Among the study's findings:
    <bullet> Twenty-two states had immigration levels above the 
national average from 1990 to 2000. Among them, 14 had employment rates 
for native-born workers above the national average in 2000, and eight 
had employment rates below the national average.
    <bullet> Twenty-eight states and the District of Columbia had 
immigration levels below the national average from 1990 to 2000. Among 
them, 16 had above average employment rates for native-born workers in 
2000, and 13 had below average employment rates.
    <bullet> Twenty-four states had immigration levels above the 
national average from 2000 to 2004. Among them, 13 states had 
employment rates for native-born Americans above the national average 
in 2004, and 11 had employment rates below the national average.
    <bullet> Twenty-six states and the District of Columbia had 
immigration levels below the national average from 2000 to 2004. Among 
them, 12 had employment rates for native-born Americans above the 
national average, and 15 had employment rates below the national 
average.
    Immigrants tend to be younger and have less education than American 
workers. The study, however, found ``no apparent relationship between 
the growth of foreign workers with less education and the employment 
outcome of native workers with the same low level of education.''
    However, Steven Camarota, director of research for the Center for 
Immigration Studies, said his research shows that many young workers 
with little education are hurt by competition from immigrants.
    ``Employment for less educated natives has declined, and their 
wages have declined,'' said Camarota, who advocates stricter 
immigration policies. ``There is no shortage of less educated workers 
in the United States.''
                                 ______
                                 

Guest Worker Bill Introduced by Georgia Senator Saxby Chambliss in the 
                             109th Congress

    The Agricultural Employment and Workforce Protection Act of 2005 
(S. 2087), introduced by Senator Chambliss (R-GA), would reform the H-
2A program. It would work and would broaden the definition of 
agricultural labor or services for purposes of the H-2A visa to cover 
labor or services relating to such activities as dairy, forestry, 
landscaping, and meat processing. S. 2087 proposes to streamline the 
process of importing H-2A workers. A prospective H-2A employer would 
file a petition with DHS containing certain attestations. Among them, 
the employer would have to attest that the employer will provide 
workers with required benefits, wages, and working conditions; that the 
employer has made efforts to recruit U.S. workers; and that the 
employer will offer the job to any equally qualified, available U.S. 
worker who applies. Unless the petition is incomplete or obviously 
inaccurate, DHS would have to approve or deny the petition not later 
than seven days after the filing date.
    S. 2087 would change current H-2A requirements regarding minimum 
benefits, wages, and working conditions. Under S. 2087, H-2A employers 
would have to pay workers the higher of the prevailing wage rate or the 
applicable state minimum wage; employers would not be subject to the 
adverse effect wage rate (discussed above). Employers could provide 
housing allowances, in lieu of housing, to their workers if the 
governor of the relevant state certifies that adequate housing is 
available. Under S. 2087, an H-2a workers would be admitted for an 
initial period of employment of 11 months. The workers's stay could be 
extended for up to two consecutive contract periods.
    S. 2087 would establish subcategories of H-2A non-immigrants. It 
would define a ``Level II H-2A worker'' as a nonimmigrant who has been 
employed as an H-2A worker for at least three years and works in a 
supervisory capacity. The bill would make provision for less than five 
years, to file an application for an employment-based adjustment of 
status for that worker. Such a Level II H-2A worker could continue to 
be employed in such status until his or her application was 
adjudicated. Under the bill, an ``H-2AA worker'' would be defined as an 
H-2A worker who participates in the cross-border worker program the 
bill would establish. These H-2AA workers would be allowed to enter and 
exit the United States each work day in accordance with DHS 
regulations.
    In addition, the bill would establish a blue card program through 
which the Secretary of DHS could confer ``blue card status'' upon an 
alien, including an unauthorized alien, who has performed at least 
1,600 hours of agricultural employment for an employer in the United 
States in 2005 and meets other requirements. An alien may be granted 
blue card status for a period of up to two years, at the end of which 
the alien would have to return to his country.
                                 ______
                                 
    [The prepared statement of the Associated Builders and 
Contractors follows:]

  Prepared Statement of the Associated Builders and Contractors (ABC)

    Associated Builders and Contractors (ABC) appreciates the 
opportunity to submit the following statement for the official record. 
We would like to thank Chairman Norwood, Ranking Member Owens and 
members of the House Subcommittee on Workforce Protections for holding 
today's hearing on ``Guest Worker Programs: Impact on the American 
Workers and their Wages.''
    ABC is a national trade association representing more than 23,000 
merit shop contractors, subcontractors, materials suppliers and 
construction-related firms within a network of 79 chapters throughout 
the United States and Guam. Our diverse membership is bound by a shared 
commitment to the construction industry's merit shop philosophy. This 
philosophy is based upon the principles of full and open competition 
unfettered by the government, nondiscrimination with regard to labor 
affiliation, and the award of construction contracts to the lowest 
responsible bidder through open and competitive bidding. This process 
assures that taxpayers and consumers receive the most for their 
construction dollar.
    The construction industry is a vital part of the American economy. 
According to the U.S. Census Bureau, construction growth significantly 
outpaced national gross domestic productivity growth over the last 12 
years, increasing 137 percent while the Gross Domestic Product (GDP) 
increased about 88 percent in the same period. Today, the annual value 
of construction is worth more than $1.16 trillion, representing more 
than 9 percent of the national GDP.
    Of the nation's 5.6 million employer firms, more than 12 percent 
are construction firms, according to the U.S. Small Business 
Administration. Over the past 12 years construction continues to 
outpace the nation's other industry sectors in employment growth. In 
1993, construction firms employed 4,779,000 people and today, the 
industry employs 7,227,000. The growth of 2,498,000 represents a 52.27 
percent increase, based on numbers from the Bureau of Labor Statistics 
(BLS). The construction employment increase far outpaces overall U.S. 
employment growth, which was only 20 percent during the same period.
    However, construction growth is not projected to slow. The BLS 
reports that another 792,000 new construction jobs will be created 
between 2004 and 2014. Therefore, ABC's member companies continue 
facing an ever-growing worker shortage problem. Despite, ABC's 
continued efforts promoting workforce recruitment, education and 
training in the construction industry through school-towork programs, 
college and university outreach, professional development of training 
staff and the building of a strong chapter delivery system, the 
industry still faces difficulty in filling jobs. Combined with an aging 
domestic workforce and historically low American birthrates, the 
construction industry's future labor needs are especially acute unless 
additional labor sources are identified. An industry of this size 
demands significant human resources both now and in the future.
    While today's hearing specifically focuses on guest worker programs 
and the impact on American's wages, ABC has remained steadfast in its 
belief that this is one element in a comprehensive approach required to 
effectively reform our immigration policies. Any successful immigration 
reform measure must work to ensure the enforcement of our laws, the 
security of our borders, interior enforcement and the prosperity of our 
economy.
    As one of the nation's largest employers, the construction industry 
needs to be able to employ foreign workers when it is unable to find 
U.S. workers to fill jobs. Yet, the current immigration system today 
does not provide sufficient opportunity for workers to enter the 
country legally. While some have suggested relying on H-2B visas, 
bureaucratic red tape combined with limited availability of H-2B visas 
render that option unavailable. Furthermore, in most cases that 
category is not an option for ABC member firms as it is only useful to 
those employers with seasonal or one-time occurrence needs. The 
construction industry works year-round and employees must attend many 
job training and safety courses before setting foot on a jobsite. While 
some employees can learn their job in a few days, the skills required 
for many of the construction trades often take years to learn and are 
usually taught through a combination of classroom instruction and on-
the-job training. It is vital to the industry that any guest worker 
program takes into account both the length of time which may be 
required to properly train our employees and that a project may not 
necessarily be completed within a few years.
    While ABC is very supportive of a guest worker program, we are 
troubled by a Senate bill provision that would greatly expand the 
Davis-Bacon Act (DBA) (40 U.S.C. Sec. 3141 et seq.). Specifically, the 
provision would require DBA prevailing wage rates for guest workers 
employed on private construction projects, despite well documented 
problems with the DBA wage determination process. Currently, the DBA 
only applies to federal construction projects and some federally 
supported projects. According to the U.S. Census Bureau the vast 
majority of construction work in the United States is done privately 
and includes most homebuilding. Already, any foreign workers currently 
in construction are covered by prevailing wage protections under the 
U.S. Department of Labor (DOL) foreign labor certification regulations, 
and a citation to the flawed and fraud-prone DBA wage determinations is 
ineffective. Thus, the bill would greatly expand reliance on the flawed 
Davis-Bacon wage surveys.
    The DBA requires federal contractors and their subcontractors 
working on contracts for construction, alteration, and/or repair in 
excess of $2000 to pay employees the local prevailing wage rates and 
benefits for each class of worker. Over the years, the DBA requirements 
have been extended to other laws which provide federal assistance for 
construction through grants, bans, loan guarantees and insurance. These 
are known as Davis-Bacon Related Acts (DBRAs). Some estimate that the 
DBA and DBRAs covers as much as 25 percent of the nation's construction 
work, according to the Office of Management and Budget, Prevailing Wage 
Determination Program Assessment.
    The DBA requires the Secretary of Labor to determine the prevailing 
wage rate for each locality. Under current regulations, DOL's Wage and 
Hour Division sets the wage for each class of worker in each locality 
by conducting its own voluntary wage surveys of contractors and other 
interested parties.
    By the Wage and Hour Division's own admission in its Prevailing 
Wage Resource Book, the accuracy of its wage determinations is 
completely dependent upon identifying the correct interested party and 
successfully securing their participation. Not surprisingly, there have 
been consistent problems with the accuracy of the DBA wage 
determinations.
    In fact, a series of audits by outside agencies as well as the 
DOL's own Office of Inspector General (OIG) have revealed substantial 
inaccuracies in Davis-Bacon wage determinations and suggested that they 
are vulnerable to fraud. The Government Accountability Office (GAO) has 
issued multiple reports dating from the late 1970s to the late 1990s 
detailing problems with the determinations. In addition, DOL's OIG 
released three reports highly critical of the wage determination 
program.
    In an effort to address these concerns, the Wage and Hour Division 
made some modifications to the wage determination program in the late 
1990s and early this century. These modifications, however, have 
resulted in little improvement. In 2004, the OIG released a report 
stating that the $22 million the Wage and Hour
    Division spent to modify the program had yielded limited 
improvement and that the problems with inaccuracies identified in past 
reports remain. In fact, the OIG found one or more errors in 100 
percent of the wage surveys they reviewed. It also concluded that 
because response to the survey is voluntary, employers and third 
parties with a stake in the outcome of wage determinations are more 
likely to participate. As a result of GAO and OIG audits and its own 
research, OMB concluded in a 2003 assessment report that the DB wage 
determination program is not performing.
    Despite the DBA's inclusion in the Senate immigration measure, ABC 
applauds the Senate's efforts which have resulted in a comprehensive 
immigration reform bill that includes the need for a guest worker 
program and to deal with the nation's undocumented workers. To address 
the concerns created by the ongoing influx of undocumented workers, and 
to keep our nation's economy growing, Congress must deal with the need 
for a guest worker program that can serve as a legal vehicle to help 
meet our economy's labor demands.
    Again, thank you for your commitment and leadership on this 
essential issue. ABC looks forward to working with your committee to 
ensure comprehensive immigration reform is reached.

                                SOURCES

Government Accounting Office Reports HRD-79-18 4/27/79, HEHS-96-177R, 
        http://archive.qao.gov / paprpdfl / 157164.pdf, HEHS-99-21 1/
        11/99, http://www.qao.gov / archive / 1999 / he99021.pdf, and 
        HEHS-99-97 5/12/99, http://www.gao.gov / archive / 1999 / 
        he99097.pdf.
Office of Management and Budget, Prevailing Wage Determination Program 
        Assessment http://www.whitehouse.gov / omb / expectmore / 
        summary.10001099.2005.html and http://www.whitehouse.gov / omb 
        / expectmore / detail. 10001099.2005. htm I.
U.S. Census Bureau, Construction Spending http://www.census.gov / const 
        / C30 / total.pdf
U.S. Census Bureau, Annual Value of Construction Put in Place http://
        www.census.qov / consVwww / c30index.html
U.S. Department of Commerce. Current-dollar and Real Gross Domestic 
        Product http://www.bea.qov / bea / dn / gdplev.xls
U.S. Department of Labor, Bureau of Labor Statistics, Employees on 
        nonfarm payrolls by major industry sector historical. ftp://
        ftp.bls.gov / pub / suppl / empsit.ceseebl.txt
U.S. Department of Labor, Bureau of Labor Statistics, Office of 
        Occupational Statistics and Employment Projections, 
        ``Employment by major industry division, 1994, 2004, and 
        projected 2014,'' http://www.bls.qov / emp / 
        empmajorindustry.pdf
U.S. Department of Labor, Bureau of Labor Statistics, Occupational 
        Projections and Training Data, 2004-05 Edition, http://
        www.bls.gov / emp / optd / home.htm
U.S. Department of Labor, Bureau of Labor Statistics, Job Openings and 
        Labor Turnover Survey. Obtain data from 2001 to 2005 by 
        selection ``Total separations rate, construction 
        JTS230000000TSR'' on http://data.bls.gov / cqi-bin / 
        surveymost?jt
U.S. Department of Labor Prevailing Wage Resource Book, November, 2002, 
        page 3 of Section 15 ``Davis-Bacon Surveys.''
U.S. Department of Labor, Office of Inspector General, Inaccurate data 
        were Frequently Used in Wage Determinations made under the 
        Davis-Bacon Act Report No. 04-97-013-04-420 (March 10, 1997) 
        http://www.oig.dol.gov / public / reports / oa / pre--1998 / 
        04-97-013-04-420.pdf; Review of Davis-Bacon Modernization 
        Funding Report No. 04-98-003-04-420 (February 19, 1998) http://
        www.oig.dol.gov / public / reports / oa / 1998 / 04-98-003-04-
        42Or.htm; and Concerns Persist With the Integrity of Davis-
        Bacon Prevailing Wage Determination Report No. 04-04-003-04-420 
        (March 30, 2004) http://www.oig.dol.gov / public / reports / oa 
        / 2004 / 04-04-003-04-420.pdf.
U.S. Department of Labor, Title 20, Code of Federal Regulation, Part 
        656.40
U.S. Small Business Administration, ``Major Industries by NAICs Codes: 
        Private Employer Firms, Establishments, Employment, and Annual 
        Payroll by Firm Size, 1998-2001,'' http://www.sba.gov / advo / 
        research / us--tot--mi--n.pdf
U.S. Small Business Administration, Office of Advocacy, from data 
        provided by U.S. Census Bureau, Nonemployer Statistics, 
        Nonemployers Firms and Receipts by Industry, 2002, 2003, ftp://
        ftp.bls.qov / pub / suppl / empsit.ceseebl.txt
                                 ______
                                 
    [The prepared statement of Bruce Goldstein follows:]

 Prepared Statement of Bruce Goldstein, Executive Director, Farmworker 
                                Justice

    Mr. Chairman and Members: Thank you for the opportunity to submit 
this testimony regarding the important issues of labor and immigration 
that are under consideration by this Subcommittee. There is an 
immigration crisis in agriculture, where the majority of farmworkers in 
the fields are unauthorized workers. Farmworker Justice, a national 
advocacy organization for migrant and seasonal farmworkers, believes 
that the solution to this crisis is comprehensive immigration reform 
that includes an opportunity for undocumented workers to earn permanent 
legal immigration status. The opportunity for undocumented workers to 
earn legal immigration status will help create a stable supply of farm 
labor in the United States, guaranteeing our food security. Deporting 
the large number of undocumented farmworkers is not feasible and would 
harm our agricultural production. We must offer unauthorized immigrants 
the opportunity to come forward out of the shadows and end the massive 
underground system of employment in this country.
    We reject proposals to create harsh, large-scale guestworker 
programs based on temporary work visas because such programs subject 
both U.S. workers and foreign guestworkers to low wage rates, 
substandard working conditions, and little hope of government oversight 
protection. Guestworker programs impose a restricted non-immigrant 
status that deprives participants of America's fundamental economic and 
political freedoms. All workers suffer when a segment of the labor 
force lacks basic freedoms. To the extent that guestworker programs are 
used, they must be designed to prevent adverse effects to U.S. workers' 
jobs, wages and working conditions and to minimize exploitation of 
vulnerable foreign workers. Such programs should include job standards 
that truly prevent adverse effects to U.S. workers' prevailing wage 
levels and benefits and minimize exploitation of vulnerable 
guestworkers as well as vigorous labor law enforcement to prevent job 
displacement and wage depression where guestworkers are hired. This 
letter will focus on the issue of wage protections in guestworker 
programs.
    Guestworker programs can facilitate the hiring of large numbers of 
temporary foreign workers whose desperation for jobs, low cost of 
living in their home countries, and restricted status in the U.S. cause 
them to accept wages and working conditions far below U.S. standards. 
The presence of guestworkers in the labor supply can therefore lead to 
wage depression and other negative effects on U.S. workers, including 
displacement from jobs. Recognizing these risks long ago, Congress 
included a ``prevailing wage'' requirement in the Bracero guestworker 
program, which operated as an agreement between the U.S. and Mexico 
from 1942 to 1964. The Bracero program became notorious for abuse in 
part because the ``prevailing wage'' standard was not sufficient to 
stop wage depression among U.S. workers in the occupations where 
Braceros were hired. Wages in areas and jobs where Braceros worked 
stagnated at a time when other wage rates were increasing. The 
Government responded by revising the Bracero program's wage protections 
to achieve the statutory language that has been in most guestworker 
legislation: the hiring of guestworkers shall not ``adversely affect'' 
the wages and working conditions of similarly employed U.S. workers. 
The ``adverse effect wage rate'' became part of the Bracero program and 
what later became the H-2A agricultural guestworker program (which 
began during World War II and continued after the Bracero program 
ended). Different formulas have been used to set the wage rate at 
levels that do not allow wage depression.
    This letter explains why a ``prevailing wage'' standard is 
necessary but not adequate by itself and why the ``adverse effect wage 
rate'' under the H-2A program is too low to achieve the statutory goal 
of preventing the presence of foreign workers from adversely affecting 
the wage rates of U.S. farmworkers. The AEWR formula is based on annual 
surveys of agricultural employers' wages paid to non-supervisory farm 
and ranch workers and is therefore market-based. Nonetheless, the 
current methodology for determining the wage rates in the H-2A program 
is not adequate because it does not prevent the hiring of guestworkers 
and undocumented workers from depressing the wage rates of U.S. workers 
and the farm labor market generally. Any future guestworker program 
should recognize these facts.
The H-2A Program Wage Requirements
    Under the H-2A program (8 U.S.C. Sec. 1101(a)(15)(H)(ii)a) and 
Sec. 1188), the Department of Labor has issued regulations (20 CFR 
Sec. Sec. 655.90-655.112) establishing the minimum required wages and 
benefits (see 20 CFR Sec. 655.102(b). The regulations 
(Sec. 655.102(b)(9) require employers to pay the highest of three 
minimum wages:
    <bullet> the federal or state minimum wage;
    <bullet> the local ``prevailing wage,'' as determined by the 
Department of Labor using state agency wage surveys for each crop in 
the local area. It is expressed in the prevailing method of payment 
(for example, a piece rate or an hourly wage rate). The prevailing wage 
rate methodology is the local median wage for that particular job (half 
the workers make less and half the workers make more), except where 
there is a single wage rate that is paid to 40% or more of workers in 
that crop and in that local geographic area (in which case that rate is 
the prevailing wage). In some instances, the prevailing wage rate may 
be a piece rate that has not changed in many years and may yield 
earnings that are below legal minimum hourly wage for most workers.
    <bullet> the H-2A ``adverse effect wage rate or ``AEWR.'' The AEWR 
is the regional weighted average hourly wage rate for nonsupervisory 
field and livestock workers combined. 20 CFR Sec. 655.107. It is 
determined by the Department of Agriculture's annual Farm Labor Survey 
of employers' reported wage rates to non-supervisory farm and ranch 
workers. Most regions include more than one state. Each year, the 
Department of Labor (DOL) issues the USDA survey rates as the H-2A 
program adverse effect wage rate for each state. The AEWRs for each 
year (e.g. 2006) are based on the average wages paid during the prior 
year (e.g. 2005).
Origins of the Adverse Effect Wage Rate Adjustment to the Prevailing 
        Wage
    The Bracero guestworker program, as bad as it was, nonetheless 
required agricultural employers to pay at least the ``prevailing wage'' 
to prevent the importation of guestworkers from negatively affecting 
the wages of U.S. agricultural workers. The AEWR was established, after 
years of debate, near the end of the Bracero program (which ended in 
1964), and was applied to the H-2A program. The AEWR's purpose was to 
overcome the depression in ``prevailing wage'' rates caused by the 
presence of foreign workers (whether guestworkers or undocumented 
workers) from poorer countries who will generally accept lower pay to 
obtain U.S. jobs.
    The President's Commission on Migratory Labor (1951, at p. 133), 
for example, said: ``* * * the regions in which farm wages are well 
below the national average * * * are those regions containing the 
States in which the major portion of the postwar foreign labor 
contracting has entered. Florida has been the principal user of British 
West Indian contract labor and Texas has been the principal user of 
Mexican contract labor. Both States have wage rates much below the 
national average.''
    The AEWR was intended as an approximate measure to compensate for 
the wage depression caused by the hiring of guestworkers. The 
methodology has varied over the years. The expression of the AEWR as an 
hourly rate where the prevailing wage is a piece rate also offers 
farmworkers protection against abuses associated with piece rates.
    The AEWRs are almost always higher than the H-2A program's formula 
for the local ``prevailing wage.'' When the prevailing wage is a piece 
rate, the AEWR frequently is higher than workers' piece-rate earnings; 
H-2A employers must pay at least the AEWR. Some of the H-2A AEWR's for 
the years 2002 and 2006 are:


------------------------------------------------------------------------
                                                      Year
                 State                 ---------------------------------
                                              2002             2006
------------------------------------------------------------------------
Arizona...............................           $7.12            $8.00
Georgia...............................           $7.28            $8.37
Pennsylvania..........................           $7.46            $8.95
California............................           $8.02            $9.00
North Carolina........................           $7.53            $8.51
Vermont...............................           $7.94            $9.16
Colorado..............................           $7.62            $8.37
Oregon................................           $8.60            $9.01
West Virginia.........................           $7.07            $8.24
------------------------------------------------------------------------

The ``Adverse Effect Wage Rate'' or AEWR Is Too Low
    The current methodology for the adverse effect wage rate does not 
achieve the statutory purpose of avoiding adverse effects on U.S. 
workers' wage rates. In 1987, during the Reagan Administration, the 
Department of Labor changed the H-2A AEWR methodology and thereby 
lowered the wages of affected U.S. and foreign workers by an average of 
20%. The U.S. Court of Appeals, in a case brought by the AFL-CIO and 
farmworker advocates, ruled that the new methodology fell within DOL's 
broad discretion. This ``new'' AEWR formula suffers from several flaws:
    <bullet> The USDA Farm Labor Survey's average-wage surveys include 
wage rates earned by guestworkers and unauthorized immigrants, whose 
wages tend to be lower than those of U.S. workers. Nationally, about 
one-half (53%) or more of the farm labor force is undocumented workers; 
these vulnerable workers accept lower wages than will documented 
workers. In crops where guestworkers are used, the jobs quickly become 
dominated by guestworkers (as in North Carolina tobacco, cucumbers and 
sweet potatoes), rather than U.S. workers. As guestworkers dependent on 
their employers to obtain a visa, the H-2A workers are in no position 
to demand wage increases. The AEWR should be based on surveys only of 
U.S. workers' wage rates.
    <bullet> The declining real value of the federal minimum wage has 
suppressed increases in the AEWR. Many farmworkers are paid the federal 
minimum wage ($5.15), a state minimum wage (e.g., $6.75 per hour in 
California), or a piece rate based on the minimum wage. For example, in 
Washington State, where the minimum wage was $7.35 in 2005, the online 
America's Job Bank listed a job opening for a hay farm equipment 
operator in Kittitas County for $7.35 per hour. A farmer in Morven, 
Georgia was offering $6.00 per hour for cabbage planting. In some 
cases, the employer sets a piece rate wage under which the average 
worker, working diligently, would make perhaps 20%-30% more than the 
minimum wage, with slower workers making less per hour (although faster 
workers often work fewer hours per day than hourly workers). If the 
minimum wage had kept pace with inflation, average wages and, 
therefore, the AEWR, would be higher.
    <bullet> The AEWR is an inadequate labor market test because 
employers who claim difficulty finding workers should offer a 
competitive wage that is higher on the range of wage rates, rather than 
the average wage rate. Unemployment rates among U.S. farmworker have 
been high. For example, California's state-wide unemployment rate in 
December 2004 was 5.7%, while the rates in the important agricultural 
counties of Kern, Merced, and Tulare were 9.7%, 10.6% and 11.9% 
respectively. A group of employers claiming a labor shortage and 
requesting guestworkers should be expected to improve its wage offer to 
attract workers to its job. In general, if the employer is already 
offering the local ``prevailing wage,'' it is likely that the 
prevailing wage is too low to entice U.S. workers to the job. The 
employers who offer higher than the average wage rate are much more 
likely to attract workers. Indeed, it is unfair to the agricultural 
employers who are paying higher than the average wage to allow 
employers to claim a ``labor shortage'' and gain access to guestworkers 
by offering only the uncompetitive, average wage.
    <bullet> The AEWR's issued annually are an outdated measure of wage 
competition because they are based on a survey of the prior year's 
average wages. The H-2A growers are always one year behind any wage 
increases that might occur, which is especially problematic for 
attracting U.S. workers in a labor market that is allegedly tightening.
    <bullet> AEWR's do not automatically increase and at times decline. 
The AEWR formula does not contain a cost-of-living increase mechanism. 
Because they merely echo the average regional wage level, the AEWR's 
may increase, stagnate or decrease. For example, Florida's AEWR 
declined from $8.18 per hour in 2004 to $8.07 in 2005.
    <bullet> The Adverse Effect Wage Rate does not protect farmworkers 
against poverty. The AEWR reflects the survey findings of sub-poverty 
level wage rates paid to farmworkers and establishes for H-2A employers 
a below-poverty wage rate. Consider the extremely rare farmworker who 
managed to find 52 weeks of full-time farm work during the year, 
cobbling together one job after another to support a spouse and two 
young children. In 2004, a family would have earned $18,158 at the 
Oregon-Washington AEWR of $8.73 per hour, still less than the federal 
poverty guideline of $18,392 that year for a family of four. Of course 
most farmworkers do not work 52 weeks per year. Partly due to 
employers' inefficiency, the seasonal nature of jobs, and a labor 
surplus, the average worker finds only about half that amount of work 
per year. More typically, both adults would work only intermittently 
and, at the AEWR level, their combined annual earnings would still not 
even reach the poverty level.
    <bullet> The H-2A guestworker program suppresses wage improvements 
because, by law, it permits employers to reject any job applicant who 
demands a wage rate higher than the minimum H-2A wage rate. A worker 
who demands a higher wage rate can be rejected or fired as 
``unavailable'' for the job and replaced by a guestworker. By shielding 
employers from workers' and labor unions' demands for higher wages and 
other market forces, a guestworker program's ``minimum'' standards 
often become the employer's maximum offer. The AEWR should compensate 
for this suppression of wage rates but does not.
    <bullet> The AEWR's, by themselves, do not prevent employers from 
imposing very high productivity standards that desperate foreign 
workers will accept but that would cause U.S. workers to insist on 
higher wage rates.
    To conclude, the minimum wage rates under the H-2A program are 
based on market rates and are not too high, but rather too low, 
reflecting that most farmworkers live in poverty. The adverse effect 
wage rate currently does not adequately protect against depression in 
``prevailing'' wage rates caused by the presence of guestworkers. U.S. 
workers suffer harm and foreign workers are exploited.
    Congress, in deliberating over guestworker programs, should 
recognize that requiring the ``prevailing wage'' is a minimum standard 
that is not sufficient to ensure decent treatment of both U.S. workers 
and guestworkers.
                                 ______
                                 
    [The prepared statement of Archbishop Gregory follows:]

  Prepared Statement of Archbishop Wilton D. Gregory, Archdiocese of 
                                Atlanta

    I am pleased that the U.S. House of Representatives has chosen to 
host field hearings on immigration in Gainesville and Dalton. 
Immigration impacts all of us and there are strong feelings involved. 
It is vital that the many voices be heard and that the public be 
educated about these complex issues. We must overcome the 
misunderstanding, ignorance, competition, and fear still standing in 
the way of policy solutions that are just and humane.
    The current house bill containing primarily enforcement measures 
does not solve the problems facing our society. The Archdiocese of 
Atlanta, along with the U.S. Conference of Catholic Bishops (USCCB), 
supports a comprehensive approach to immigration reform which includes 
the following elements: 1) policies to address the economic root causes 
of migration; 2) reform of our legal immigration system, including a 
viable and workable path to citizenship; 3) a temporary worker program 
which protects the rights of all workers; 4) family-based immigration 
reform which reduces waiting times for family reunification; and 5) the 
restoration of due process protections for immigrants.
    I and my brother bishops support these reforms because every day we 
witness the human consequences of an immigration system which is 
severely flawed. Families are separated; migrant workers are abused and 
exploited by human smugglers; and, tragically, human beings die in the 
desert. We must reform the system and restore to it respect for basic 
human rights and human life.
    As our community continues to engage this important issue, I ask 
that the debate be conducted through civil dialogue, in the spirit of 
cooperation and love. It is my hope that participants on both sides of 
the issue will refrain from harsh rhetoric and address the substantive 
issues at hand.
    I and the Catholic Archdiocese of Atlanta continue to reach out to 
the people who are most vulnerable through Catholic Charities and the 
ninety-five parishes and missions in North Georgia. We are working with 
members of the community and with our elected officials toward a 
comprehensive and humane solution to the immigration crisis in our 
nation.
---------------------------------------------------------------------------
    Submitted and placed in permanent archive file, statements 
submitted by public attending hearing. Gainesville, GA, August 14, 
2006.
---------------------------------------------------------------------------

                                 <all>

</pre></body></html>
